<html>
<title> - THE PRESIDENT'S NEW NATIONAL OCEAN POLICY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
    THE PRESIDENT'S NEW NATIONAL OCEAN POLICY--A PLAN FOR FURTHER 
         RESTRICTIONS ON OCEAN, COASTAL AND INLAND ACTIVITIES

=======================================================================

                           OVERSIGHT HEARING

                               before the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                      Wednesday, October 26, 2011

                               __________

                           Serial No. 112-76

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
          Committee address: http://naturalresources.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
70-954                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="86e1f6e9c6e5f3f5f2eee3eaf6a8e5e9eba8">[email&#160;protected]</a>  


                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
             EDWARD J. MARKEY, MA, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      John P. Sarbanes, MD
Scott R. Tipton, CO                  Betty Sutton, OH
Paul A. Gosar, AZ                    Niki Tsongas, MA
Raul R. Labrador, ID                 Pedro R. Pierluisi, PR
Kristi L. Noem, SD                   John Garamendi, CA
Steve Southerland II, FL             Colleen W. Hanabusa, HI
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
PJon Runyan, NJ
Bill Johnson, OH
Mark Amodei, NV

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
                Jeffrey Duncan, Democrat Staff Director
                 David Watkins, Democrat Chief Counsel


                                 ------                                

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, October 26, 2011......................     1

Statement of Members:
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     1
        Prepared statement of....................................     3
    Markey, Hon. Edward J., a Representative in Congress from the 
      Commonwealth of Massachusetts..............................     4
        Prepared statement of....................................     5

Statement of Witnesses:
    Conathan, Michael, Director of Ocean Policy, Center for 
      American Progress..........................................    57
        Prepared statement of....................................    59
    Donofrio, James A., Executive Director, Recreational Fishing 
      Alliance...................................................    48
        Prepared statement of....................................    50
    Lubchenco, Jane, Ph.D., Under Secretary for Oceans and 
      Atmosphere, National Oceanic and Atmospheric 
      Administration, U.S. Department of Commerce................    15
        Prepared statement of....................................    17
    Luthi, Randall, President, National Ocean Industries 
      Association................................................    53
        Prepared statement of....................................    54
    Sutley, Hon. Nancy H., Chair, Council on Environmental 
      Quality, and Co-Chair, National Ocean Council..............     6
        Prepared statement of....................................     8

Additional materials supplied:
    U.S. Department of the Interior, Statement submitted for the 
      record.....................................................    70


   SECOND OVERSIGHT HEARING ON ``THE PRESIDENT'S NEW NATIONAL OCEAN 
 POLICY--A PLAN FOR FURTHER RESTRICTIONS ON OCEAN, COASTAL AND INLAND 
                             ACTIVITIES.''

                              ----------                              


                      Wednesday, October 26, 2011

                     U.S. House of Representatives

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Committee met, pursuant to call, at 10:03 a.m. in Room 
1324, Longworth House Office Building, Hon. Doc Hastings 
[Chairman of the Committee] presiding.
    Present: Representatives Hastings, Young, Lamborn, Wittman, 
Fleming, McClintock, Thompson, Tipton, Labrador, Noem, 
Southerland, Flores, Landry, Runyan, Johnson, Amodei, Markey, 
Holt, Costa, Sablan, Sarbanes, and Tsongas.
    The Chairman. The Committee will come to order. The 
Chairman notes the presence of a quorum, which under Rule 3[e] 
is two Members, and we have far exceeded that today. The 
Committee on Natural Resources is meeting today to hear 
testimony on ``The President's New National Ocean Policy--A 
Plan for Further Restrictions on Ocean, Coastal, and Inland 
Activities.''
    Under Rule 4[c], opening statements are limited to the 
Chairman and Ranking Member, but I ask unanimous consent that 
any Member that wishes to have a statement have it in before 
the close of business today. I would also like to note that 
part of our quorum-making today is the newest Member of the 
House Natural Resources Committee and one of the newest Members 
of the House. I want to welcome our new colleague from Nevada, 
Mr. Mark Amodei, who has a long background in Nevada 
government, and I am very pleased that he has now joined us on 
this Committee. So, Mark, welcome aboard, and we look forward 
to working with you on a number of issues.
    I will now recognize myself for my opening statement.

 STATEMENT OF HON. DOC HASTINGS, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WASHINGTON

    The Chairman. Earlier this month the Committee held its 
first hearing on President Obama's National Ocean Policy. At 
that hearing, Ranking Member Markey noted that planning was not 
bad and described how Massachusetts Governor Patrick had signed 
legislation for the development of an ocean management plan.
    Another witness also from Massachusetts noted that their 
State had worked with stakeholders to develop the plan with 
those stakeholders at the table. I would like to thank both of 
them for pointing out how ocean planning can work through a 
voluntary, State-run process that is based on statutory 
authority and that has stakeholder activity participating and 
at the table.
    But unfortunately the President's Executive Order creates a 
new Federal bureaucracy that requires regional plans to be 
created whether States want it or not and in a manner that 
excludes stakeholders. I have asked the Administration for 
specific statutory authority that allows the President by 
Executive Order to create regional planning bodies and require 
them to create regional zoning plans.
    I must say that so far I have been given only a hodgepodge 
list of all those statutes that apply to ocean and/or coastal 
activities. I have not been given a concise, direct answer to 
the question. The list that they have provided includes the 
Magnuson Act of 1950, the Marine Plastic Pollution Research and 
Control Act, the Coastal and Geodetic Survey Act of 1947, the 
National Weather Service Organic Act, and the National 
Environment Education Act.
    I, frankly, fail to see how any of these statutes gives the 
President authority to create regional planning zones. Instead 
of getting input and statutory authority from Congress, the 
Obama Administration has decided that the President's signature 
alone is all that is needed to make major changes to policies 
governing ocean activities and to create a new, huge 
bureaucracy that will change the way inland, ocean, and coastal 
activities will be managed.
    This could cost jobs and have devastating long-term 
economic impacts throughout the country. But let me be very, 
very clear. The Administration can and should require Executive 
agencies to work in a more coordinated manner where ocean 
jurisdictions overlap. It is also clear that Executive agencies 
with ocean jurisdiction should share information and reduce 
duplication between Federal agency actions. This would save 
money and I think would be supported by all of us.
    But in addition to the lack of statutory authority, there 
are numerous other concerns and questions about the impacts of 
the Administration's initiative that still have not been 
answered. First, the initiative will add layer upon layer of 
new Federal bureaucracy. The Executive Order creates dozens of 
new policies, councils, committees, planning bodies, priority 
objectives, action plans, national goals, and guiding 
principles. This creates uncertainty for businesses and job 
creators.
    Second, the initiative creates a new policy of marine 
spatial planning otherwise known as ocean zoning. This is 
likely to place huge portions of the ocean off limits to 
certain economic and recreational activities, including 
commercial and recreational fishing and energy production.
    Third, the reach of this initiative is not limited to just 
the oceans and may stretch far inland, extending to potentially 
all rivers, tributaries and lands that drain into the ocean. 
Inland activities such as farming could be restricted if 
regional planning bodies determine their activities might 
affect the ocean.
    Fourth, it is unclear how much this initiative will cost 
the taxpayers. This is an entirely new initiative that will 
take money away from existing agency budgets at a time when we 
all know budgets are already being cut.
    Finally, this initiative will create a whole new avenue for 
litigation. Because each of these new layers of policy, 
guidelines, and principles include vague new mandates for all 
Federal agencies to use, new litigation will certainly be 
attempted to use these vague mandates to challenge any 
activities that one does not like.
    So this new ocean initiative has raised numerous concerns 
and could significantly impact our economy and American jobs. 
So I look forward to hearing from the Administration today, and 
hopefully, if they can answer all of the questions I raise, I 
think we will have a wonderful time, and I hope that will be 
the case.
    With that, I yield my time and recognize the gentleman from 
Massachusetts, Mr. Markey.
    [The prepared statement of Mr. Hastings follows:]

          Statement of The Honorable Doc Hastings, Chairman, 
                     Committee on Natural Resources

    Earlier this month, this Committee held its first hearing on 
President Obama's National Ocean Policy. At that hearing, Ranking 
Member Mr. Markey noted that planning was not bad and described how 
Massachusetts Governor Patrick had signed legislation for the 
development of an ocean management plan. Another witness--also from 
Massachusetts--noted that their state had worked with stakeholders to 
develop the plan with those stakeholders at the table. I would like to 
thank both of them for pointing out how ocean planning can work--
through a voluntary, state-run process that is based on statutory 
authority that has stakeholders actively participating and at the 
table.
    Unfortunately, the President's Executive Order creates a new 
federal bureaucracy that requires regional plans to be created whether 
states want it or not and in a manner that excludes stakeholders.
    I have asked the Administration for the specific statutory 
authority that allows the President, by Executive Order, to create 
Regional Planning Bodies and require them to create regional zoning 
plans. So far, I have been given only a hodge-podge list of all the 
statutes that apply to ocean and/or coastal activities. I have not been 
given a concise, direct answer to the question.
    The list includes the Magnuson Act of 1950, Marine Plastic 
Pollution Research and Control Act, the Coastal and Geodetic Survey Act 
of 1947, the National Weather Service Organic Act, and the National 
Environmental Education Act. I fail to see how any of these statutes 
gives the President the authority to create regional zoning plans.
    Instead of getting input and statutory authorization from Congress, 
the Obama Administration has decided that the President's signature 
alone is all that's needed to make major changes to policies governing 
ocean activities and to create a huge new bureaucracy that will change 
the way inland, ocean and coastal activities will be managed. This 
could cost jobs and have devastating long-term economic impacts 
throughout the country.
    Let me be clear, the Administration can and should require 
executive agencies to work in a more coordinated manner where ocean 
jurisdictions overlap. It is also clear that executive agencies with 
ocean jurisdiction should share information and reduce duplication 
between Federal agency actions. This would save money and could be 
supported by all of us.
    Yet, in addition to the lack of statutory authority, there are 
numerous other concerns and questions about the impacts of the 
Administration's initiative that have still not been answered.
    First, the initiative will add layer upon layer of new, federal 
bureaucracy. The Executive Order creates dozens of new policies, 
councils, committees, planning bodies, priority objectives, action 
plans, national goals and guiding principles. This creates uncertainty 
for businesses and job-creators.
    Second, the initiative creates a new policy of marine spatial 
planning, otherwise known as `ocean zoning.' This is likely to place 
huge portions of the ocean off-limits to certain economic and 
recreational activities, including commercial and recreational fishing 
and energy production.
    Third, the reach of this initiative is not limited to just the 
ocean and may stretch far inland, extending to potentially all rivers, 
tributaries and lands that drain into the ocean. Inland activities, 
such as farming, could be restricted if Regional Planning Bodies 
determine their activities might affect the ocean.
    Fourth, it is unclear how much this initiative will cost the 
taxpayers. This is an entirely new initiative that will take money away 
from existing agency budgets at a time when budgets are already being 
cut.
    Finally, this initiative will create a whole new avenue for 
litigation. Because each of these new layers of policy, guidelines, 
goals, and principles include vague new mandates for all Federal 
agencies to use, new litigation will certainly attempt to use these 
vague mandates to challenge any activities they do not like.
    This new ocean initiative has raised numerous concerns and could 
significantly impact our economy and American jobs. I look forward to 
hearing from the Administration today and hopefully get some of these 
questions answered.
                                 ______
                                 

 STATEMENT OF HON. EDWARD MARKEY, A REPRESENTATIVE IN CONGRESS 
             FROM THE COMMONWEALTH OF MASSACHUSETTS

    Mr. Markey. Thank you, Mr. Chairman. Earlier this month we 
held the first hearing on the National Ocean Policy. At it, the 
Republican Majority claimed there is a chicken-and-egg problem 
with ocean planning policy. The Majority says that the 
President is overreaching by issuing his Executive Order on the 
National Ocean Policy and that comprehensive ocean planning 
requires congressional authorization.
    However, when presented with ocean planning legislation in 
the last two Congresses, the Republicans raised enormous 
opposition. So, for Republicans, it is not about which comes 
first on ocean planning, Congress or the White House. It is 
about never wanting the chicken to cross the road.
    To keep our oceans and coasts viable for fisheries, 
military training, energy development, tourism, and 
conservation, we need ocean planning. I commend the President 
for using his authority under existing laws to ensure the 
health of our oceans, given the opposition of the Majority. We 
are not living in the 1600s when freedom of the seas was the 
guiding principle of the world's oceans. In fact, this is not 
even the 1980s when President Reagan used his Executive powers 
to zone our oceans by proclaiming a 12-nautical mile 
territorial sea and a 200-nautical mile Exclusive Economic Zone 
for the United States. Thank you, President Reagan.
    This is now 2011, and the blue frontier has become an 
increasingly crowded space. Fishing grounds, shipping lanes, 
Navy training ranges, offshore energy production, fish and 
wildlife habitats and other uses are increasingly in 
competition. The National Ocean Policy recognizes these 
conflicts and provides tools to harmonize the existing 
regulations that govern our coasts and our oceans.
    These tools will allow developments to move ahead more 
quickly while creating jobs and improving the health of the 
oceans. Scare tactics describing farfetched what-if scenarios 
are counterproductive. By trying to lower the boom on ocean 
planning, Republicans will instead run our coastal economies 
aground.
    In New England alone, coastal communities support more than 
360,000 jobs and earn more than $8 billion in wages related to 
the oceans. Massachusetts is a national leader in comprehensive 
ocean planning with completion of the Massachusetts Ocean Plan. 
Rhode Island has developed a special area management plan, and 
the Northeast Regional Ocean Council is starting the 
development of the nation's first regional ocean use plan.
    But we are not alone. Increasingly, other regions, 
including the West Coast, also see the need to address 
uncoordinated development that threatens our ability to 
efficiently use our ocean's natural resources now and pass them 
on to future generations. The National Ocean Policy represents 
decades of bipartisan work from two oceans commissions and 
includes the input of multiple agencies, States, tribes, and 
thousands of stakeholders. It is an adaptive process to 
coordinate and capitalize on existing relationships, entities 
and programs that protect and utilize our ocean resources.
    This Committee has heard from numerous ocean stakeholders 
over the years about the need for an open and inclusive process 
to establish objectives for maintaining the economic and 
environmental health of our oceans and coasts. The National 
Ocean Policy provides the means to perform this critical task, 
and I look forward to hearing from our two distinguished 
witnesses today about how our national ocean policy can help 
lift the anchor on our coastal communities and chart a course 
for healthy and vibrant oceans and coasts. And I yield back the 
balance of my time.
    [The prepared statement of Mr. Markey follows:]

Statement of The Honorable Edward J. Markey, Ranking Member, Committee 
                          on Natural Resources

    Earlier this month, we held the first hearing on the National Ocean 
Policy. At it, the Republican Majority claimed there is a ``chicken and 
egg'' problem with ocean planning policy.
    The Majority says that the President is overreaching by issuing his 
executive order on the National Ocean Policy and that comprehensive 
ocean planning requires Congressional authorization.
    However, when presented with ocean planning legislation in the last 
two Congresses, the Republicans raised enormous opposition.
    So for Republicans it's not about which comes first on ocean 
planning--Congress or the White House. It's about never wanting the 
chicken to cross the road.
    To keep our oceans and coasts viable for fisheries, military 
training, energy development, tourism and conservation, we need ocean 
planning.
    I commend the President for using his authority under existing laws 
to ensure the health of our oceans given the opposition of Republicans 
to Congressional action.
    We are not living in the 1600s, when ``freedom of the seas'' was 
the guiding principle for the world's oceans. In fact, this is not even 
the 1980s, when President Reagan used his executive powers to zone our 
oceans by proclaiming a 12 nautical mile territorial sea and a 200 
nautical mile Exclusive Economic Zone for the United States.
    This is 2011 and the blue frontier has become an increasingly 
crowded space. Fishing grounds, shipping lanes, Navy training ranges, 
offshore energy production, fish and wildlife habitats, and other uses 
are increasingly in competition.
    The National Ocean Policy recognizes these conflicts and provides 
tools to harmonize the existing regulations that govern our coasts and 
oceans. These tools will allow developments to move ahead more quickly 
while creating jobs and improving the health of the oceans.
    Scare tactics describing far-fetched ``what if'' scenarios are 
counterproductive. By trying to lower the boom on ocean planning, 
Republicans will instead run our coastal economies aground.
    In New England alone, coastal communities support more than 360,000 
jobs and earn more than $8 billion in wages related to the oceans. 
Massachusetts is a national leader in comprehensive ocean planning with 
completion of the Massachusetts Ocean Plan. Rhode Island has developed 
a Special Area Management Plan and the Northeast Regional Ocean Council 
is starting the development of the nation's first regional ocean use 
plan.
    But we are not alone. Increasingly other regions, including on the 
West Coast, also see the need to address uncoordinated development that 
threatens our ability to efficiently use our ocean natural resources 
now and pass them on to future generations'.
    The National Ocean Policy represents decades of bipartisan work 
from two oceans ' commissions and includes the input of multiple 
agencies, states, tribes and thousands of stakeholders. It is an 
adaptive process to coordinate and capitalize on existing 
relationships, entities, and programs that protect and utilize our 
ocean resources.
    This committee has heard from numerous ocean stakeholders over the 
years about the need for an open and inclusive process to establish 
objectives for maintaining the economic and environmental health of our 
oceans and coasts. The National Ocean Policy provides the means to 
perform this critical task.
    I look forward to hearing from our distinguished witnesses today 
about how the National Ocean Policy can help lift the anchor on our 
coastal communities and chart a course for healthy and vibrant oceans 
and coasts.
                                 ______
                                 
    The Chairman. I thank the gentleman for his statement, and 
I am about to call the first panel, but I see they are already 
seated. Thank you for that. We have with us The Honorable Nancy 
Sutley, who is the Chair of the Council on Environmental 
Quality and the Co-Chair of the National Ocean Council, and The 
Honorable Jane Lubchenco, the Under Secretary for Oceans and 
Atmosphere and the Administrator of the National Oceanic and 
Atmospheric Administration.
    You have both been here before, and you know the rules, but 
let me go over that again, the lights in front of you. And by 
the way, your full statement will appear in total in the 
record. And when the lights go on, the green light says you are 
doing absolutely well. When the yellow light goes on, it means 
you have one minute to go. And when the red light goes on, then 
we get very angry up here. I am just kidding of course, but 
finish your response.
    But thank you very, very much for being here. And, Ms. 
Sutley, we will start with you, and you are recognized for five 
minutes.

STATEMENT OF HON. NANCY SUTLEY, CHAIR, COUNCIL ON ENVIRONMENTAL 
         QUALITY, AND CO-CHAIR, NATIONAL OCEAN COUNCIL

    Ms. Sutley. Thank you, Mr. Chairman. Thank you for having 
us today. Thank you, Ranking Member Markey and Members of the 
Committee for this opportunity to appear before you this 
morning to discuss the national policy for the stewardship of 
the oceans, our coasts, and the Great Lakes.
    Today I will outline how the National Ocean Policy is a 
practical approach called for by a broad group of bipartisan 
stakeholders over a decade to better coordinate Federal, State, 
and local ocean planning and to reduce conflicts and delay that 
hinder economic growth.
    America's ocean, coastal, and Great Lakes regions support 
tens of millions of jobs and contributes trillions of dollars a 
year to our national economy. We can't afford to sacrifice 
those jobs to the status quo of inefficiency and conflict. We 
have an obligation to identify and to respond to known 
problems, the earlier the better, and ensure that Federal 
agencies are not slowing economic growth through poor 
coordination.
    The National Ocean Policy aims to resolve a longstanding, 
well-recognized and significant problem. The oceans, the 
coasts, and Great Lakes are a crucial resource for America, and 
they are in trouble. Historically coordination both within the 
Federal Government and among Federal, State, local, and tribal 
bodies has been, in effect, inefficient and ineffective. 
Bipartisan commissions have called for a comprehensive national 
ocean policy and a more coordinated, integrated approach to 
managing our oceans, coasts, and Great Lakes.
    President Bush took some initial steps toward implementing 
the recommendations of the U.S. Commission on Ocean Policy, and 
President Obama built on these efforts by establishing the 
National Ocean Policy. The National Ocean Policy responds to 
widely recognized challenges with a measured and iterative 
approach to designing a better system for our oceans that is 
built within existing authorities.
    The policy was created with extensive stakeholder and 
public input, and we have committed to continually engaging the 
stakeholders and the public at every step of its 
implementation. Historically Federal agencies have 
independently navigated and interpreted more than 140 laws 
affecting the oceans, coasts, and Great Lakes, often resulting 
in a confusing overlap.
    The National Ocean Policy aims to improve coordination at 
all levels of government and for the first time to establish 
collaborative planning for the ocean. And there is a regional 
focus that means that Federal, State, local, and tribal 
partners will be at the table from the beginning and engage the 
public in the process.
    The National Ocean Policy helps focus limited Federal 
resources on key areas and actions to ensure that we deliver 
demonstrable outcomes to meet the needs of Americans, and it 
prioritizes using the best available science to inform 
decisions affecting the oceans, the coasts, and the Great 
Lakes.
    It is worth discussing one part of the policy, coastal and 
marine spatial planning, in a little more depth as it has 
become the source of a lot of concern and misperception. Under 
the status quo, decisions with significant economic and 
environmental consequences have typically been made on a 
sector-by-sector, permit-by-permit basis. Many times interested 
parties have been brought into the discussion too late or left 
out.
    This system has resulted in uncertainty for industry, user 
conflict or confusion, costly litigation, and difficulty in 
considering cumulative impacts. The National Ocean Policy 
provides a framework for collaborative coastal marine spatial 
planning that would be jointly developed with States and 
tribes, incorporate public input, and allow for significant 
regional flexibility.
    Coastal and marine spatial planning is not ocean zoning. It 
does not impose any restrictions on ocean, coastal, or Great 
Lakes activities, and it does not direct that any area be 
designated for a specific use or off-limit to specific 
activities. Coastal marine spatial planning is a science-based 
tool that provides transparent information about ocean uses and 
guarantees the public and the stakeholders have a voice early 
on in decisions affecting the ocean. We know from experience 
that early and inclusive public engagement addresses potential 
conflicts upfront and avoids last minute surprises that can 
result in additional time and costs.
    Massachusetts, Rhode Island, New Jersey, Florida, Oregon, 
and Washington are using marine spatial planning to better 
inform decisions, saving potential developers and resource 
managers significant time and financial burden. I believe that 
the National Ocean Policy is a thoughtful and measured approach 
to addressing longstanding threats facing our ocean, our 
coastal and Great Lakes resources and economies. Through smart 
collaboration and inclusive practical policy and management, we 
can reduce duplication and conflict and foster transparent 
science-based decisions that deliver healthy and productive 
oceans, coasts, and Great Lakes for Americans.
    Thank you for the opportunity to testify this morning, and 
I look forward to your questions.
    [The prepared statement of Ms. Sutley follows:]

                 Statement of Nancy H. Sutley, Chair, 
              White House Council on Environmental Quality

    Thank you, Chairman Hastings. And thank you, Ranking Member Markey 
and Members of the Committee, for the opportunity to appear before you 
this morning to discuss the National Policy for the Stewardship of the 
Ocean, Our Coasts, and the Great Lakes.
Introduction
    The National Ocean Policy responds to more than a decade of 
bipartisan discussions and was formed to resolve a long-standing, well-
recognized, and significant problem: the oceans, coasts, and Great 
Lakes are a crucial resource for America and they are in trouble. 
Previous levels of coordination both within the Federal Government and 
among Federal, State, local, and tribal bodies have been inefficient 
and ineffective, and have resulted in conflicts and delays that hinder 
economic growth, environmental health, and national security. In fact, 
bi-partisan commissions have called for a comprehensive policy and a 
more coordinated, integrated approach to managing our ocean, coasts, 
and Great Lakes.
    Congress created the U.S. Commission on Ocean Policy in 2000, and 
President George W. Bush appointed its members. In its 2004 Report, the 
Commission said that ``[o]ur failure to properly manage the human 
activities that affect the nation's oceans, coasts, and Great Lakes is 
compromising their ecological integrity, diminishing our ability to 
fully realize their potential, costing us jobs and revenue, threatening 
human health, and putting our future at risk.'' The Commission 
developed recommendations that called for the creation of an 
``effective national ocean policy that ensures sustainable use and 
protection of our oceans, coasts, and Great Lakes, improved ocean 
governance, and a comprehensive offshore management regime for the 
balanced coordination of all offshore uses.''
    Similarly the Pew Oceans Commission, chaired by the Honorable Leon 
Panetta, identified in its 2003 report that ``[t]he evidence that our 
oceans face a greater array of problems than ever before in our 
nation's history surrounds us. Marine life and vital coastal habitats 
are straining under the increasing pressure of our use. We have reached 
a crossroads where the cumulative effect of what we take from, and put 
into, the ocean substantially reduces the ability of marine ecosystems 
to produce the economic and ecological goods and services that we 
desire and need. What we once considered inexhaustible and resilient 
is, in fact, finite and fragile.'' The Pew Commission's recommendations 
also called for ``a principled, unified national ocean policy based on 
protecting ecosystem health and requiring sustainable use of ocean 
resources.''
    The National Ocean Policy responds to these calls with a measured, 
iterative approach to designing a better decision system for our 
oceans. Built upon the findings of the two Commissions, and 
congressional, State, and regional efforts over the past decade, the 
new ocean policy lays out a process for Federal agencies, States, and 
stakeholders to collaboratively improve decision-making in a manner 
customized to the unique needs and desires of each region.
Development of the National Ocean Policy
    Demands on the ocean, our coasts, and the Great Lakes are 
intensifying, spurred by population growth in coastal areas, growing 
ocean uses such as conventional and renewable energy development, 
shipping, aquaculture, and emerging security requirements. Our 
resources, and the regional economies they support, are also under 
tremendous pressure from habitat loss, pollution, over-fishing, climate 
change, and ocean acidification. Federal agencies, which have 
jurisdiction over ocean and marine resources in Federal waters and 
share jurisdiction with State and local agencies in State waters, 
independently navigate and interpret over 100 laws affecting the ocean, 
coasts and Great Lakes. This confusing overlap creates unnecessary 
obstacles to ocean users and managers alike.
    In response to the calls for an overarching ocean framework and to 
ensure that the Federal Government is effectively achieving its 
responsibilities and responding to the growing demands and uses of 
these resources, the President established the Federal Interagency 
Ocean Policy Task Force in June of 2009.
    The Task Force was charged with developing recommendations that 
included a national policy for the stewardship of our oceans, our 
coasts and the Great Lakes, a framework for improved Federal policy 
coordination, and an implementation strategy. The Task Force released 
an Interim Report in September of 2009. This report was made available 
for public review and comment. The Task Force was also charged with 
developing a recommended framework for collaborative, regionally-based 
planning. An interim Framework for Effective Coastal and Marine Spatial 
Planning was released for public comment in December of 2009.
    The Task Force undertook a robust public engagement process to seek 
input from a broad range of stakeholders and interested parties, 
including thirty-eight expert roundtable meetings and six regional 
public meetings around the country, and received and reviewed more than 
3,400 public comments submitted online.
    Using this public feedback, the Task Force revised and consolidated 
the interim documents into the Final Recommendations of the Interagency 
Ocean Policy Task Force. On July 19, 2010, Executive Order 13547 
adopted these recommendations and established the National Ocean 
Policy--our Nation's first comprehensive policy for the stewardship of 
the ocean, our coasts, and the Great Lakes.
    The Executive Order also established a National Ocean Council, 
comprising Cabinet-level officials, to coordinate ocean, coastal, and 
Great Lakes issues across the Federal Government and implement the 
National Ocean Policy. Through the National Ocean Council, we are 
improving the way we do business. By better integrating the existing 
efforts of Federal agencies and offices, and bringing together 
experience and authorities in science, natural resource management, 
economic development, infrastructure planning, national and homeland 
security, public health, and social services, we have taken an 
unprecedented and long-overdue approach to the most pressing challenges 
facing the ocean, our coasts, and the Great Lakes.
The National Ocean Policy
    The National Ocean Policy lays out a comprehensive and science-
based approach for Federal, State, tribal, and local partners to 
achieve sustainable, safe, secure, and productive access to and use of 
the ocean, our coasts, and the Great Lakes. It says:
    ``To achieve an America whose stewardship ensures that the ocean, 
our coasts, and the Great Lakes are healthy and resilient, safe and 
productive, and understood and treasured so as to promote the 
wellbeing, prosperity, and security of present and future generations, 
it is the policy of the United States to:
           (i)  protect, maintain, and restore the health and 
        biological diversity of ocean, coastal, and Great Lakes 
        ecosystems and resources;
          (ii)  improve the resiliency of ocean, coastal, and Great 
        Lakes ecosystems, communities, and economies;
         (iii)  bolster the conservation and sustainable uses of land 
        in ways that will improve the health of ocean, coastal, and 
        Great Lakes ecosystems;
          (iv)  use the best available science and knowledge to inform 
        decisions affecting the ocean, our coasts, and the Great Lakes, 
        and enhance humanity's capacity to understand, respond, and 
        adapt to a changing global environment;
          (v)  support sustainable, safe, secure, and productive access 
        to, and uses of the ocean, our coasts, and the Great Lakes;
          (vi)  respect and preserve our Nation's maritime heritage, 
        including our social, cultural, recreational, and historical 
        values;
         (vii)  exercise rights and jurisdiction and perform duties in 
        accordance with applicable international law, including respect 
        for and preservation of navigational rights and freedoms, which 
        are essential for the global economy and international peace 
        and security;
        (viii)  increase scientific understanding of ocean, coastal, 
        and Great Lakes ecosystems as part of the global interconnected 
        systems of air, land, ice, and water, including their 
        relationships to humans and their activities;
         (ix)  improve our understanding and awareness of changing 
        environmental conditions, trends, and their causes, and of 
        human activities taking place in ocean, coastal, and Great 
        Lakes waters; and
         (x)  foster a public understanding of the value of the ocean, 
        our coasts, and the Great Lakes to build a foundation for 
        improved stewardship.''
    The Policy also includes guiding stewardship principles to guide 
management decisions and actions affecting the ocean, our coasts, and 
the Great Lakes. Based on the best available science, these underlying 
principles ensure the protection, maintenance, and restoration of the 
health of the ocean, coastal, and Great Lakes ecosystems, and 
ecosystem-based and adaptive management of these resources; enhanced 
sustainability of ocean and coastal economies; preservation of our 
maritime heritage; and effective coordination with our national and 
homeland security interests.
    The Policy builds off of years of effort and public input, and is 
built entirely within existing authority. While there has been long-
standing, broad support for a unifying national policy, as with any new 
initiative, there can be anxiety about whether it will be better than 
the status quo. The National Ocean Policy proactively addresses this 
potential for uncertainty through regular engagement with stakeholders 
and the public.

Key Benefits of the National Ocean Policy
    America's ocean, coastal, and Great Lakes regions support tens of 
millions of jobs and contribute trillions of dollars a year to our 
national economy, through tourism, fishing, international ports, trade, 
energy, and other business. The lack of coordinated management among 
Federal, State, and local agencies has resulted in ineffective 
planning, avoidable delays, and increasing conflicts among growing 
numbers of ocean users that threatens these jobs and economies.
    The National Ocean Policy will improve coordination at all levels 
of government and establish proactive and collaborative regionally-
based planning among Federal, State, tribal, and local authorities for 
the first time. The National Ocean Policy also brings a broad range of 
stakeholders to the table to foster communication and transparency and 
better plan for the future.
    This will reduce duplication and help address the current system of 
siloed, ad hoc decision making that frequently ends in costly 
permitting delays, or litigation. The result will be less waste and 
reduced conflict, more efficiency and transparency, and savings for 
American taxpayers. It will also provide for increased predictability 
and certainty for traditional and new users who are seeking to invest 
in building industries and jobs in ocean and coastal areas.
    The National Ocean Policy also provides direction and guidance 
across the Federal Government to ensure we prioritize our efforts and 
apply limited resources to address critical issues that will produce 
tangible benefits for businesses, stakeholders, and communities.
    The National Ocean Policy does not establish any new regulations or 
restrict the multiple uses of the ocean, and does not expand the scope 
of Federal jurisdiction. Rather, the policy provides a unifying 
framework for a more coordinated way of doing business that will 
increase the information foundation, transparency, and effectiveness of 
ocean management decisions we are making every day, sometimes with 
unintended long-term consequences. State, tribal, and local governments 
are and will continue to be deeply engaged as partners and leaders in 
the implementation of the National Ocean Policy, and it does not 
supersede or alter any existing Federal, State, tribal, or local 
authority. The National Ocean Policy is designed to and rightfully 
plays out at the regional and State levels, inclusive of stakeholders 
and the public, where many of the decisions impacting the ocean 
resource are ultimately made. Decisions on ocean uses will continue to 
be made under existing statutory authorities, as the intent of the 
National Ocean Policy is to make better use of what we have on the 
books already through more informed and better coordinated decisions 
benefiting States, regions, and the nation.
    The National Ocean Policy respects and preserves important 
navigational rights and freedoms which are essential for the global 
economy and maintenance of international peace and security. Finally, 
the National Ocean Policy will improve ocean ecosystem health and 
services by planning human uses in concert with the conservation of 
important ecological areas so that we may continue to enjoy valued 
ocean uses including industry, tourism, recreation and security in a 
manner that can sustain them and the functioning ecosystem over time.

Progress on Implementing the National Ocean Policy
    There has been significant progress since the Executive Order was 
issued in July 2010. This past June, the National Ocean Council brought 
together more than 500 Federal, State, tribal, and local government 
representatives, indigenous community leaders, and stakeholders and 
members of the public from across the country for a National Coastal 
and Marine Spatial Planning Workshop.
    This workshop allowed the Federal Government to collaboratively 
identify key challenges, solutions, and strategies for regional coastal 
and marine spatial planning, and respond to stakeholder priorities. For 
example, participants highlighted: the importance of flexibility in the 
scope, scale and timing of the regional planning process; the critical 
value of scientific and human use data to inform coastal and marine 
spatial plans; and the need for early, sustained and meaningful 
stakeholder engagement. The National Ocean Council is working to 
clearly highlight and incorporate this feedback into the coastal and 
marine spatial planning process.
    The National Ocean Council has also established a Governance 
Coordinating Committee, comprising officials from States, Federally-
recognized tribes, and local governments. The Governance Coordinating 
Committee works with the National Ocean Council on ocean policy issues 
that cut across political, geographic, and other boundaries. The 
Governance Coordinating Committee provides a critical link to and 
strengthens the lines of communication with State, tribal, and local 
governments on ocean, coastal and Great Lakes issues. For example, it 
is assisting the National Ocean Council in crafting flexible and 
reasonable guidance on various aspects of coastal and marine spatial 
planning, including regional planning body composition and operations, 
which recognize the unique needs of regions, states, and tribal 
partners.
    It is important to highlight some specific agency actions related 
to the National Ocean Policy.
        <bullet>  At the May 2011 Arctic Council Ministerial meeting, 
        the United States successfully worked with other Arctic nations 
        to establish a group of experts to review application of 
        ecosystem-based management principles in the Arctic. The 
        National Ocean Policy was one of the bases the United States 
        included in its proposal for an ecosystem-based management 
        initiative. In light of the National Ocean Policy and its clear 
        National adoption of ecosystem-based management, the United 
        States was able to take took a leadership position on the newly 
        proposed ecosystem-based management initiative at the Arctic 
        Council meeting.
        <bullet>  In support of the Department of the Interior's (DOI) 
        ``Smart from the Start'' initiative off the Atlantic Coast to 
        streamline offshore wind energy site selection and project 
        review processes in an environmentally responsible manner, the 
        Bureau of Ocean Energy Management (BOEM) established 
        Intergovernmental Renewable Energy Task Forces. BOEM is 
        collaborating early and often with Federal, State, local, and 
        tribal partners to identify areas that are appropriate for 
        development, areas with high wind potential and fewest 
        conflicts with competing uses.
          As a result of the National Ocean Policy, BOEM incorporated 
        the principles of the policy into their ``Smart from the 
        Start'' Initiative and formalized involvement of relevant 
        Federal agencies, and the applicable State, tribal, and local 
        governments as well, early in the process via Intergovernmental 
        Task Forces and an Interagency Working Group. In one example of 
        this new way of doing business, the U.S. Coast Guard was able 
        to ensure that an important shipping lane was considered early 
        in the wind site selection process, avoiding possible delays 
        and resulting costs.
        <bullet>  The National Ocean Council and the Gulf Coast 
        Ecosystem Restoration Task Force share important 
        responsibilities related to the future of the Gulf Coast. The 
        Council and the Task Force are working together to better 
        integrate and coordinate planning, decision-making, and 
        regulatory enforcement and ensure the integration of best 
        practices, information, discoveries, and advancements in 
        science and management of coastal ecosystems. These efforts 
        will promote and sustain a culture of shared stewardship, both 
        across Federal agencies and between Federal, tribal, State and 
        local jurisdictions in the region.
        <bullet>  In support of the Department of the Interior's (DOI) 
        ``Smart from the Start'' initiative to establish Wind Energy 
        Areas off the Atlantic Coast, the U.S. Coast Guard initiated a 
        comprehensive Atlantic Coast Port Access Route Study (APCARS), 
        which promotes the management principles of interagency 
        coordination and coastal and marine spatial planning, while 
        supporting the goals of safe, efficient maritime operations in 
        conjunction with the development and production of renewable 
        offshore energy. The ACPARS will focus on the coastwise 
        shipping routes from Maine to Florida, near coastal users of 
        the western Atlantic Ocean between U.S. coastal ports, and the 
        approaches to U.S. coastal ports through the Exclusive Economic 
        Zone. It will identify all current and new maritime users of 
        the western Atlantic near coastal zone to determine what impact 
        the siting, construction, and operation of proposed alternative 
        energy facilities may have on existing near coastal users of 
        the Western Atlantic Ocean.
        <bullet>  The National Ocean Policy reinvigorated a 
        transformational partnership between National Institute of 
        Environmental Health Sciences (NIEHS) and National Science 
        Foundation (NSF). The NIEHS and the NSF signed a memorandum of 
        understanding to support interdisciplinary research projects 
        that focus on marine processes and systems that have potential 
        to improve public health. This partnership brings together 
        biomedical scientists and physical scientists, two very 
        different disciplines who previously would not have typically 
        worked together, to address the growing problems in our ocean 
        that directly impact the public health.
        <bullet>  The National Oceanic and Atmospheric Administration 
        (NOAA) and the Bureau of Ocean Energy Management (BOEM) signed 
        a memorandum of understanding to ensure effective scientific 
        and regulatory cooperation on Outer Continental Shelf (OCS) 
        energy exploration and development, and to facilitate 
        development of renewable energy resources in the OCS while 
        fulfilling the stewardship and conservation of living marine 
        resources and ecosystems responsibilities that fall under the 
        agencies' respective authorities. This partnership was 
        facilitated by the increased cooperation guided by the National 
        Ocean Policy. As result, DOI and NOAA have increased their 
        collaboration significantly on decisions related to OCS 
        activities, including with respect to research and scientific 
        priorities. They are meeting regularly to develop potential 
        ways to appropriately align regulatory and decision-making 
        processes, identify the best available science to support 
        future regulatory decisions, and increase collaboration on oil 
        spill exercises and response issues.
        <bullet>  In January 2011, NOAA and the U.S. Department of 
        Energy's Office of Energy Efficiency and Renewable Energy 
        signed a memorandum of understanding to work on improving the 
        understanding of meteorological phenomena that affect wind 
        resources and other terrestrial and offshore renewable energy 
        technologies. Better information on meteorological processes 
        and improved modeling of the variability of the wind, sun, 
        water, and other resources will ultimately increase the 
        country's ability to predictably and reliably integrate 
        renewable energy into the electrical grid.
        <bullet>  National Ocean Council member agencies participate in 
        the execution of the Great Lakes Restoration Initiative Action 
        Plan (GLRI). GLRI has focused its 2012 and 2013 priorities for 
        restoration on two areas that align with the priority 
        objectives under the National Ocean Policy. For example, an 
        area of focus is the three specific watersheds targeted for 
        phosphorus concentrations that are impacting the major 
        geographic areas of Green Bay, Saginaw Bay and Western Lake 
        Erie. These areas are all experiencing the impacts of severe 
        Harmful Algal Blooms.
    The National Ocean Council is also increasing public access to the 
data and information Federal agencies use in their decision making 
processes. Using information technology tools, agencies are making 
their data available to the public, businesses and stakeholders through 
a single, user-friendly portal to support responsible planning for the 
future of the ocean, our coasts, and the Great Lakes. A prototype ocean 
information portal to provide improved access to Federal data for 
decision-makers, stakeholders and the public will be released to the 
public later this year.

The National Ocean Policy Priority Objectives
    The National Ocean Policy is focused on making advances in nine 
priority areas with emphases on improving how the government operates 
by increasing efficiency and reducing confused and prolonged processes. 
These nine priority areas are:
        <bullet>  Ecosystem-Based Management
        <bullet>  Coastal and Marine Spatial Planning
        <bullet>  Inform Decisions and Improve Understanding
        <bullet>  Coordinate and Support
        <bullet>  Resiliency and Adaptation to Climate Change and Ocean 
        Acidification
        <bullet>  Regional Ecosystem Protection and Restoration
        <bullet>  Water Quality and Sustainable Practices on Land
        <bullet>  Changing Conditions in the Arctic
        <bullet>  Ocean, Coastal, and Great Lakes Observations, 
        Mapping, and Infrastructure
    Through these priority objectives, the National Ocean Policy helps 
focus limited Federal resources on key areas and actions to ensure we 
deliver demonstrable outcomes to meet the essential needs of Americans.
    In an open and transparent process with input and feedback from the 
public and stakeholders, the National Ocean Council is developing 
strategic action plans to address each of the priority objectives. 
Outlines for these plans were released for public comment in June of 
this year, during which time public listening sessions were held around 
the country to hear directly from interested individuals and groups. We 
expect the draft strategic action plans will be released for public 
comment later this year and final plans issued next year.
    The plans will be completed and updated, also through an open and 
transparent process, based on changing situations or as new information 
becomes available. This flexibility allows us the continual opportunity 
to engage with each other and with our most important partners--State, 
tribal, and local governments, stakeholders, and the public--to ensure 
that this effort stays on the best and most informed course possible.

Coastal and Marine Spatial Planning
    What has become one of the most visible aspects of the nine 
priority objectives is coastal and marine spatial planning. Coastal and 
marine spatial planning is a tool to use science, include stakeholders 
and the public, and bring together Federal, State, tribal and local 
partners at the regional level to better inform and guide decisions 
regarding ocean uses. However, this concept has, nonetheless, become a 
source of misperceptions and even misinformation which has fed concerns 
from some sectors, and it is important to provide a more in depth 
discussion here to dispel many of the myths.
    First, it is important to mention why the status quo is 
ineffective, and how coastal and marine spatial planning will address 
this problem. As mentioned earlier, the ocean, coasts, and Great Lakes 
are subject to a number of increasing demands. Existing uses such as 
shipping and oil and gas development are expanding. New uses, such as 
offshore renewable energy and aquaculture, are seeking a foothold and 
are also expanding. As economic activity increases, there is also a 
need to maintain and ensure continued access for recreation and 
enjoyment, cultural use, and other important values.
    Federal, State, local, and tribal authorities presently operate 
under a confusing and sometimes conflicting system of planning and 
management. Specifically, significant decisions with long-standing 
economic and environmental consequences are typically made on a sector 
by sector, permit by permit, statute by statute, and project by project 
approach to decision making with regard to these increasing demands. 
There is oftentimes confusion among stakeholders and the public 
regarding regulatory roles and a need for more effective coordination 
across agencies at all levels of government. Additionally, many times 
interested parties are brought into the discussion too late, or left 
out altogether. This has resulted in uncertainty for industry, unseen 
``show stoppers'' in the permitting process resulting in loss of 
significant up-front investments, user conflict or confusion, costly 
litigation, and difficulty in adequately considering cumulative 
environmental and socioeconomic impacts. This situation--never ideal--
is rapidly becoming unsustainable in the face of rapidly expanding 
ocean uses.
    The National Ocean Policy provides a framework for collaborative, 
regionally based coastal and marine spatial planning that would be 
developed jointly with States and tribes and substantial public input. 
As discussed in more detail below, coastal and marine spatial planning 
is not zoning. It is a science-based tool that provides transparent 
information about ocean use, guarantees the public and stakeholders a 
voice early on in decisions affecting the ocean, and creates an 
inclusive, bottom-up, regional planning approach that gives the Federal 
Government, States, tribes, and regions the ability to make more 
informed decisions about how best to use and protect the ocean, coasts, 
and Great Lakes.
    Coastal and marine spatial planning is intended to ensure 
stakeholders and the public have a voice early on in decisions 
affecting our oceans, coasts, and Great Lakes. We know from experience 
that transparency and early and inclusive public engagement before a 
decision must be made on a particular activity, permit, or project 
promotes better understanding of all interests, improved information on 
which to make decisions, ability to proactively address potential 
conflicts, and avoids last minute surprises that can derail positive 
progress and result in additional time and costs. Under the current 
system of fragmented ocean planning and management, major and 
irreversible decisions about siting ocean uses continue to be made in a 
piecemeal fashion, often without careful or transparent consideration 
of other interests, users and impacts.
    States such as Massachusetts, Rhode Island, New Jersey, Florida, 
Oregon, and Washington are using marine spatial planning to better 
inform decisions and improve planning and regulatory efficiencies, 
saving potential developers and regulatory authorities' significant 
time and financial burden. For example, under Rhode Island's Ocean 
Special Area Management Plan, by incorporating the results of this 
planning process into a programmatic analysis, much of the scoping and 
alternative analyses required for a particular project under 
environmental review laws may be completed ahead of time. Similarly, in 
Massachusetts, information in its Ocean Plan enabled a proposed fiber-
optic cable crossing Buzzards Bay and Vineyard Sound to be proactively 
planned with a route that avoids areas identified in the plan for 
protection (i.e., areas of important benthic habitat). In New Jersey, 
the state undertook a two-year $7 million effort covering 72 miles of 
its coastline out to the 100 foot water depth contour to study the 
biological and physical characteristics of the area. The study results 
were used to create an environmental sensitivity index to help inform 
siting decisions offshore New Jersey. In addition, in the state of 
Florida, the Florida Oceans and Coastal Council, which is charged with 
coordinating the State's research for more effective coastal 
management, recommended ocean management using marine spatial planning 
as a framework for decision making. The Council, representing broad 
stakeholders, believes this approach serves to protect and expand the 
State's ocean and coastal economy.
    In addition to the examples above, an example of collaborative 
planning at the Federal level was in the Stellwagen Bank National 
Marine Sanctuary off the Massachusetts coast. In this area, data on 
whale migration patterns enabled the National Oceanic and Atmospheric 
Administration, the U.S. Coast Guard, several other government 
agencies, and stakeholders to examine shipping needs, proposed 
deepwater liquefied natural gas port locations, and endangered whale 
distribution in a successful effort to reconfigure vessel traffic 
routes to and from Boston Harbor to reduce the risk of whale mortality 
due to collisions with ships. The new vessel route also decreased the 
overlap between ships, commercial fishing vessels, and whale watch 
vessels, thereby increasing maritime safety, and avoided conflict with 
the proposed siting of Liquid Natural Gas terminals in the area. 
Coastal and marine spatial planning takes this type of integrated, 
science-based, multi-objective, multi-sector, and multi-jurisdictional 
planning effort and applies it on a sustained regional scale.
    The National Ocean Policy's coastal and marine spatial planning 
framework is intended to build on these efforts. It envisions nine 
regions around the country, each of which would engage in this 
collaborative, regionally based, bottom-up, planning effort through 
multi-jurisdictional regional planning bodies. Coastal and marine 
spatial planning uses a regional approach that accommodates the unique 
economic, environmental, and social characteristics of the nine 
regional planning areas.
    The National Ocean Policy requires regional planning bodies to 
regularly engage the public, local government, Fishery Management 
Councils, indigenous communities, and other diverse stakeholders, along 
with scientists, technical experts, and those with traditional 
knowledge of or expertise in coastal and marine sciences and other 
relevant disciplines throughout the process.
    The coastal and marine spatial planning framework provides 
significant flexibility for regions in which they can decide how best 
they would like to move forward. There is flexibility built into the 
timing, scale, and scope of the process, including when regional 
planning bodies get established or when a State chooses to participate, 
what part of the process regions want to start with, and the ability to 
break the region into sub-regions if that is what the region determines 
is the best path forward. For example, regions such as the Northeast 
and mid-Atlantic are well poised to move forward almost immediately 
toward more comprehensive planning and the National Ocean Council will 
focus on these efforts. Other regions may need to move more slowly and 
focus on discrete, near-term priorities, such as improved access to 
information, to meet a variety of management needs and inform decision-
making. In that case, the region could use coastal and marine spatial 
planning to work with the relevant Federal agencies to further such 
objectives. The National Ocean Policy provides for this needed 
flexibility and we want to remain open to support all regions based on 
their preferences.
    Coastal and marine spatial planning has been mischaracterized as 
``ocean zoning.'' It does not have a regulatory effect similar to 
terrestrial zoning that many are familiar with. The National Ocean 
Policy does not impose any restrictions on ocean, coastal, or Great 
Lakes activities. The National Ocean Policy does not direct that any 
area be designated for a specific use or be off limits to specific 
activities. The National Ocean Policy's goals and guiding principles 
for coastal and marine spatial planning expressly recognize public 
access and the need to ensure the sustainability of ocean and coastal 
economies, and provide support for a growing number of important 
activities, including recreation, science, commerce, transportation, 
energy development, and national security.
    Through a publically crafted framework to help navigate the myriad 
of existing Federal, State, tribal, and local authorities, coastal and 
marine spatial planning is intended to provide a better, healthier, 
more secure ocean for all Americans. Decisions will be made with the 
added benefit of having been informed and guided by regional plans 
developed from the ground up, with extensive stakeholder, public, and 
scientific input. State, tribal, and local governments will benefit by 
having a regional coastal and marine spatial planning blueprint to 
follow, and their participation is voluntary.
    Comprehensive planning is not a new concept. All levels of 
government have been working with the public, industry, and others for 
decades to collaboratively plan on many of our public lands and in 
cities and towns across the country. Following the lead of a number of 
States, stakeholders and the public, the National Ocean Policy applies 
this concept of improved decisions through coordination and planning to 
our ocean in order to achieve many of the same benefits.

Conclusion
    Successful implementation of the National Ocean Policy will help 
ensure healthy and productive ocean, coastal, and Great Lakes 
resources, including clean beaches and abundant seafood and wildlife. 
This will benefit coastal communities and our Nation by providing for a 
robust economy, sustainable job growth, and recreational opportunities. 
The National Ocean Policy will help avoid conflicts and ensure that the 
ocean, our coasts, and the Great Lakes are healthy and resilient, safe 
and productive, and understood and treasured so as to promote the 
wellbeing, prosperity, and security of present and future generations.
    Thank you for the opportunity to testify this morning and I look 
forward to your questions.
                                 ______
                                 
    The Chairman. Thank you, Chair Sutley, very good. And that 
timing was absolutely incredible.
    Ms. Sutley. I am impressed myself.
    [Laughter.]
    The Chairman. Secretary Lubchenco, you are recognized for 
five minutes.

 STATEMENT OF HON. JANE LUBCHENCO, UNDER SECRETARY FOR OCEANS 
    AND ATMOSPHERE, AND ADMINISTRATOR, NATIONAL OCEANIC AND 
                   ATMOSPHERIC ADMINISTRATION

    Dr. Lubchenco. Thank you, Mr. Chairman. Chairman Hastings, 
Ranking Member Markey, and Members of the Committee, I 
appreciate the opportunity to be before you today to testify on 
the National Ocean Policy for the stewardship of the oceans, 
our coasts, and Great Lakes.
    I really appreciate the Committee's interest in this topic. 
It is one that is important to the nation, but it is also 
vitally important to NOAA as well. I want to make four key 
points in my brief remarks this morning.
    Number one, oceans, coasts, and the Great Lakes play a 
crucial role in the life of every American and in the economic 
well-being of our nation. Over half the Nation lives in coastal 
counties, and the other half often go there to play. Coastal 
counties generate almost 60 percent of U.S. GDP, and coastal 
habitats provide buffers against coastal storms, preventing 
more than $20 billion of property losses every year, and many 
of them also provide nursery grounds for economically important 
fish and shellfish.
    Number two, the importance of integrated approaches to 
ocean activities has been recognized across administrations. 
The Bush Administration's U.S. Commission on Ocean Policy 
emphasized the need to eliminate barriers between Federal 
agencies with ocean and coastal mandates and streamlined 
processes to improve scientific understanding, shared data, and 
coordinated policy-setting and decision-making to maximize 
Federal resources.
    The National Ocean Policy and the framework for coastal and 
marine spatial planning continue this integration. But equally 
importantly, they empower local communities to shape the future 
of their regional ocean uses.
    Three, a major benefit of increased coordination and 
collaboration on ocean and coastal issues is streamlined 
decision-making, a boon to coastal States and to industry. 
Federal coordination among relevant agencies also allows us to 
organize information more effectively for regional, State, and 
local users. Providing easier access to data will promote more 
transparent decision-making based on sound science that is 
readily available to businesses, stakeholders and regulators 
alike.
    Currently our pool of information is fragmented. Acquiring 
existing data is difficult, and often relevant data are not 
compatible. The National Ocean Policy calls for a robust 
national information system, a one-stop shop to encourage easy 
discovery and access to data and information needed to support 
marine planning efforts. This would include information from 
all agencies involved.
    Number four, at NOAA, our immediate focus involves working 
with industry and with our Federal, State, tribal, and local 
counterparts to understand what information is needed for 
better decision-making, then to organize and integrate the 
relevant data and information. Greater data accessibility saves 
time and money across the public and private sectors by 
avoiding duplication of efforts and reducing the places a user 
needs to go to collect the data they need.
    Improved stewardship of ocean, coast, and Great Lakes 
cannot be achieved by any single agency in isolation. The 
National Ocean Policy emphasizes the necessity of improving the 
coordination across Federal agencies. It charges Federal 
agencies to increase collaboration with one another and with 
regional, State, local, and tribal partners.
    These partners have an interest and need to better plan and 
manage resources that contribute to healthy oceans and coastal 
ecosystems and economies. NOAA works closely with stakeholders 
at regional, State, and local levels and will continue to 
increase this effort as we undertake activities called for in 
the policy. For example, Regional Fishery Management Councils 
currently play a major role in NOAA's ocean and coastal 
stewardship responsibilities. NOAA recognizes the importance of 
participation of Regional Fishery Management Councils in the 
National Ocean Policy and will continue to push for their full 
involvement throughout the process.
    NOAA understands that we will only be able to effectively 
implement the National Ocean Policy and coastal marine spatial 
planning when all stakeholders are recognized and represented 
at the table. I have seen the National Ocean Policy inspire 
cross-agency and regional efforts that contribute to a healthy 
economy, promote streamlining of decision-making, provide more 
accessible data and information, and inspire stronger 
partnerships.
    Together we will continue to work more efficiently and 
effectively to deliver these benefits, saving the American 
people, the States, ocean users and businesses time and money.
    I would like to thank the Committee for this opportunity to 
testify. I look forward to working with you on this very 
important issue as I believe that the implementation of the 
National Ocean Policy is critical not only for coastal 
economies but for the Nation that relies heavily on healthy and 
sustainable ocean and coastal resources. Thank you very much.
    [The prepared statement of Dr. Lubchenco follows:]

  Statement of Jane Lubchenco, Ph.D., Under Secretary of Commerce for 
Oceans and Atmosphere, National Oceanic and Atmospheric Administration, 
                      U.S. Department of Commerce

INTRODUCTION
    Chairman Hastings, Ranking Member Markey, and Committee Members, my 
name is Jane Lubchenco and I am the Under Secretary of Commerce for 
Oceans and Atmosphere and the Administrator of the Department of 
Commerce's National Oceanic and Atmospheric Administration (NOAA). 
Thank you for the opportunity to testify before you today on the 
National Ocean Policy for the Stewardship of the Ocean, Our Coasts, and 
the Great Lakes.
    I appreciate the Committee's interest in this topic, which is 
important to NOAA as the Nation's civilian ocean agency. Work to 
develop a coordinated and efficient national ocean policy began over a 
decade ago, with the passage of the Oceans Act of 2000. That 
legislation resulted in a 2004 report of the congressionally mandated 
U.S. Commission on Ocean Policy (Commission), which was chaired by 
Admiral James Watkins (U.S. Navy, Retired) and comprised of others 
appointed by the Bush Administration. The Commission emphasized the 
need for a stronger ocean policy and an improved ocean and coastal 
governance structure.
    NOAA was a member of the Interagency Ocean Policy Task Force 
established by President Obama in 2009. The Task Force received 
briefings from members of the U.S. Commission on Ocean Policy and 
conducted six listening sessions across the country to hear what 
constituents thought would be helpful to them and specifically what 
they wanted from us in a new Ocean Policy. Whether in Hawaii, Rhode 
Island or the Gulf Coast, it was clear from these sessions that the 
Federal Government needed to get its house in order and address the 
management of our ocean, coasts and Great Lakes in a more 
comprehensive, coordinated and efficient manner. The Task Force also 
conducted thirty-eight expert roundtable discussions with 
representatives from various sectors, including industry, academia, 
states, tribes, nongovernmental organizations, and local governments. 
Further, there were two public comment periods on draft 
recommendations. Coordinating with other federal agencies, NOAA was a 
key participant in each of the stakeholder engagement sessions, and 
helped to ensure the National Ocean Policy reflected the input received 
from communities, organizations, and individuals from around the 
country.
    The responsibility that comes from the ``O'' in NOAA has my agency 
squarely at the forefront of most policies affecting the ocean. But 
there are several additional federal agencies and Departments that also 
have equities in the ocean, coasts and Great Lakes as part of their 
mission or mandate. Historically, coordination among the federal 
agencies, although well intentioned, has been cursory, with sustained 
coordination across all relevant agencies a challenge. Today that 
coordination has been greatly enhanced through the National Ocean 
Council. NOAA sits at the table with departments and agencies that have 
not traditionally been in close coordination on ocean issues, such as 
the Departments of Homeland Security, Transportation, and Agriculture. 
NOAA is now able to collaborate more effectively with these and many 
other federal entities toward the shared goal of a healthy, productive, 
and secure ocean. Through the National Ocean Council, diverse agencies 
are becoming more harmonized across the Federal Government as we work 
to improve scientific understanding of ecosystems, share data, and 
coordinate policy setting and decision making. This collaborative 
approach is working.
    NOAA is a strong proponent of receiving advice from external 
organizations regarding the effective implementation of the Policy. To 
assist the federal agencies with ocean policy issues and to foster 
interagency collaboration, the National Ocean Council created a 
Governance Coordinating Committee in February 2011. NOAA greatly 
appreciates the perspectives provided by this eighteen-member 
committee, which consists of representatives from states, federally 
recognized tribes, and local governments and serves as a key 
coordinating body on ocean policy issues which cross jurisdictional 
boundaries. The National Ocean Policy also identifies the Ocean 
Research Advisory Panel, a key science advisory body created in the 
1998 Defense Authorization Act (PL 105-85), to provide independent 
advice and guidance to the National Ocean Council through its 
membership. NOAA greatly values the advice of this panel, which 
consists of representatives from industry, academia, marine science and 
policy, and the National Academies.
    The Governance Coordinating Committee provides a valuable mechanism 
for federal agencies to collaborate with local, state and tribal 
governments. Each has complementary responsibilities, but mechanisms to 
coordinate planning are few. One widely appreciated benefit of that 
collaboration lies in the opportunity to plan jointly for future 
activities in the ocean and coastal areas. Our coastal and offshore 
environments are becoming increasingly crowded, with a growing number 
of sometimes competing uses and activities, including recreational and 
commercial fishing, traditional and renewable energy, shipping, 
dredging, habitat conservation, cultural and resource protection, and 
defense uses. The current sector-by-sector, issue by issue, agency-by-
agency approach often leads to lack of predictability, constant 
conflicts, wasted resources, frustration, and degraded oceans.
    The National Ocean Policy includes an alternate approach, based on 
the considerable input the Task Force received. To facilitate a 
thoughtful, inclusive approach to harmonizing uses and minimizing 
adverse environmental impact, a planning process called Coastal and 
Marine Spatial Planning would replace the stove-piped, reactive, and 
suboptimal approach now in place. This planning process does not 
override or replace any existing regulations. But, it will compile 
relevant uses, data and information needed for smart planning. A number 
of states have already used similar planning processes, for example to 
further energy production in their coastal waters while minimizing 
conflicts with other users. Importantly, the planning process is 
designed to empower coastal communities to shape the future of their 
regional oceans and its uses. Each region will define its goals and 
make its planning decisions.
    Through NOAA's regional offices, we are excited to partner with 
federal, state, tribal, regional fishery entities, industry, and other 
regional interests to help design comprehensive marine plans that are 
regionally based and reflect the unique characteristics and needs of 
each area. With approximately 70% of its employees based outside the 
Beltway, NOAA stands ready to partner with the various interests who 
will sit together at the table.
    At NOAA we appreciate that when it comes to making decisions about 
ocean issues, one approach does not fit all places. For that reason, 
our immediate focus is working with industry and our federal, state, 
tribal and local counterparts to understand what information is needed 
for better decision making, and then to organize and integrate the 
relevant data and information. For example, NOAA supported the regional 
Governor partnerships, the Northeast Regional Ocean Council and the 
Mid-Atlantic Regional Council on the Ocean, in their creation of 
regional data portals as a mechanism to integrate and provide access to 
information needed for decision making in these regions.
    At NOAA, we have seen the National Ocean Policy inspire the federal 
government to work together more efficiently and effectively, and 
provide a powerful way for local government and communities to 
participate in charting their future. This approach will also provide 
greater certainty for investments.
    My testimony focuses on four ways in which NOAA sees benefits to 
Americans through the National Ocean Policy: (1) contributing to a 
healthy economy; (2) promoting efficiency and certainty for decision-
making; (3) providing data and information; and (4) inspiring 
partnerships.

CONTRIBUTING TO A HEALTHY ECONOMY
    I want to underscore the importance of healthy oceans for a healthy 
economy. Americans across the country and from many different 
perspectives share common desires when it comes to the ocean and 
coasts. We want good, sustainable jobs, clean beaches, and safe healthy 
seafood. We want sustainable fisheries, abundant marine wildlife, and 
vibrant coastal communities. Americans also want clean energy, a secure 
Nation, and protection from natural disasters. Most of these depend on 
a healthy ocean. To continue to reap the benefits of oceans, we must 
keep them healthy or restore them to health.
    The ocean, coasts, and Great Lakes play a crucial role in every 
American's life. Coastal counties are currently home to over half of 
America's total population, and they generate almost sixty percent of 
our Gross Domestic Product. Coastal regions also provide enormous 
environmental benefits. Shallow coastal wetlands provide a buffer 
against coastal storms, protecting almost 5,000 miles of coastline from 
the effects of hurricanes and preventing more than $20 billion of 
property loss every year. The importance of this protection was clearly 
demonstrated in 2005 when Hurricane Katrina caused over $100 billion of 
damage in the Gulf of Mexico region. Much of that damage occurred in 
Louisiana, which has lost a quarter of its wetlands from 1932-2010 and 
continues to lose them at the rate of about a football field every hour 
from 1985-2010.\1\
---------------------------------------------------------------------------
    \1\ http://pubs.usgs.gov/sim/3164/downloads/SIM3164_Pamphlet.pdf.
---------------------------------------------------------------------------
    Wetlands, mangroves, salt marshes, kelp forests, and coral reefs 
serve as nursery grounds for many species of marine animals including 
commercially and recreationally important fish and shellfish species. 
Estuaries and bays filter nutrients flowing from the land to the sea. 
For example here in the Chesapeake Bay, 16% of Northumberland County in 
Virginia is wetland. Healthy wetlands near developed and agricultural 
areas trap pollutants and excess nutrients in surface runoff, keeping 
water bodies cleaner. This natural filtering helps prevent water use 
restrictions and beach and shellfish closures, and reduces the need for 
costly treatment systems. The ocean, coasts, and Great Lakes also hold 
great cultural and economic value, as demonstrated by the magnitude of 
people who visit them each year for vacation and recreation. In 2008, 
ocean-related businesses provided 30.9% of the total jobs in Worcester 
County, located on Maryland's coast.\2\ This represents a 2% increase 
in ocean jobs since 2001. Nationwide, ocean and Great Lakes jobs 
represent double the number of jobs supported by agriculture.\3\
---------------------------------------------------------------------------
    \2\ http://www.csc.noaa.gov/snapshots/.
    \3\ http://www.csc.noaa.gov/snapshots/.
---------------------------------------------------------------------------
    Restoring coastal habitat is a priority identified in the National 
Ocean Policy, one that brings significant benefit to local communities 
and economies. On September 27th, Acting Secretary of Commerce Rebecca 
Blank announced $102 million for three Louisiana projects in the 
Barataria and Terrebone basins to restore deteriorated wetlands and 
barrier island habitats along the state's coast.\4\ These awards are 
funded by the Coastal Wetlands Planning, Protection and Restoration Act 
(CWPPRA) program. Great Lakes Dredge & Dock and Weeks Marine have been 
contracted to restore beach, dune and marsh on Pelican Island in 
Plaquemines Parish, and West Belle Pass barrier headland in Lafourche 
Parish, respectively. This year, the State of Louisiana received the 
third award to rebuild marsh and construct an 11,000-foot long 
protective ridge in the Bayou Dupont area in Jefferson Parish. The 
three projects employ local citizens and generate further economic 
benefits for local businesses and coastal communities. In addition to 
supporting the economy, CWPPRA is a model of interagency cooperation. 
Five federal agencies sponsor projects under the program, and federal 
agencies and the State work together to review and prioritize projects. 
NOAA has played a leadership role in the program since its inception, 
sponsoring 28 projects for $240 million and restoring 8,400 acres. 
Because of the National Ocean Policy, partnerships such as this are 
easier and more productive.
---------------------------------------------------------------------------
    \4\ http://www.commerce.gov/blog/2011/09/27/102-million-wetlands-
and-barrier-island-restoration-awards-louisiana.
---------------------------------------------------------------------------
    The National Ocean Policy also calls for enhancing water quality in 
the ocean, along the coasts, and in the Great Lakes, another priority 
that brings multiple economic benefits to coastal communities. Clean 
and trash-free beaches and waters are more appealing to coastal 
visitors who support local economies, are the foundation of vibrant 
working waterfronts, and support the livelihoods of fishermen. Marine 
debris, including derelict fishing gear, hurts the bottom line of the 
2.5 million working Americans whose jobs depend on healthy oceans.\5\ 
In the Pacific Northwest, derelict crab pots are an economic liability. 
In Washington State's Puget Sound, an estimated 5,000 derelict pots 
capture and kill $1.2 million worth of Dungeness crab annually. The 
economic value conserved by removing these pots has been shown to 
exceed the cost of removal by more than 25%. The fishing industry has 
demonstrated strong leadership in addressing this problem in many areas 
around the country. For example, this past August I joined fishermen to 
inaugurate a new partnership to remove derelict crab pots and other 
marine debris in Oregon's coastal waters. The ceremony marked the 
successful culmination of the Oregon Fishing Industry Partnership to 
Restore Marine Habitat, initially funded with a $699,000 grant from the 
American Recovery and Reinvestment Act. The success of the Recovery Act 
project inspired a new industry-led partnership to continue the 
derelict crab pot removal effort. In addition to removing nearly 160 
tons of debris including more than 3,000 derelict pots from the marine 
environment, the project has created jobs and other economic benefits 
along the coast. To date, this project has supported approximately 
10,000 hours of work for commercial fishermen, State employees, and 
other project partners in Oregon coastal communities, putting people to 
work during the crab fishery's off-season. This was a successful 
project not only because it cleaned up debris from the ocean floor, but 
because 96% of the crab pots recovered were returned to their owners to 
be reused and the rest recycled for metal. In addition, the lines and 
nets recovered were recycled for energy.
---------------------------------------------------------------------------
    \5\ http://www.csc.noaa.gov/digitalcoast/data/enow/index.html.
---------------------------------------------------------------------------
PROMOTING EFFICIENCY AND CERTAINTY FOR DECISION MAKING
    The second benefit to increasing our coordination and collaboration 
on ocean issues is that it promotes efficiency and certainty for 
decision making that is valued by many coastal states. Trillions of 
dollars in economic value and millions of jobs directly depend on the 
ocean, coasts, and Great Lakes.\6\ Through an open and transparent, 
science-based participatory process, industry and government and 
citizens can work together to evaluate broad categories of current and 
emerging ocean uses (such as renewable energy and aquaculture), and to 
consider how those uses might be most appropriately pursued.
---------------------------------------------------------------------------
    \6\ http://coastalsocioeconomics.noaa.gov/.
---------------------------------------------------------------------------
    For example, maintaining the Nation's energy security depends on an 
improved understanding of how energy operations fit in with other ocean 
uses so that we can continue to grow and expand the energy sector, 
while having the information to understand how each use individually 
and collectively affects the value of ecosystem services (such as food 
resources and protection from coastal storms). Renewable energy 
development creates jobs. Rhode Island recognized that its energy 
future could include an offshore wind renewable energy component, but 
that offshore wind power could not come at the expense of existing 
ocean users and their cultural heritage. The State of Rhode Island had 
previously received a substantial development proposal from a private 
energy company to site an offshore energy project incorporating both 
wind and wave technologies off the coast. The location proposed by the 
developer had not been vetted through any stakeholder or other 
strategic planning process. Although the proposal never was formalized 
in a permit application, it cost private developers, the public, 
interest groups, and regulators a significant amount of time and 
resources after it was later discovered that the location of the 
proposed facility had been sited in the center of the prime navigation 
channels for submarine activities associated with the Navy base in 
Groton, Connecticut.
    To prevent further situations such as this, Rhode Island's solution 
was to develop what is called a Special Area Management Plan aimed at 
protecting existing uses such as fishing, transportation, and 
recreation, while helping to further a new use--offshore wind. The 
State worked closely with stakeholders across many sectors to ensure 
that all interests were considered when making decisions on where to 
site wind energy projects. Through this process Rhode Island has been 
able to maintain the economic prosperity of existing uses while 
providing a plan to promote certainty for new development that will 
ultimately save time and money and help create jobs. Earlier this year, 
NOAA approved the State's Ocean Special Area Management Plan under the 
federal Coastal Zone Management Act. This approval means that the 
policies in Rhode Island's plan to protect existing activities such as 
fishing, important habitats, and archaeological resources, as well as 
the areas identified for suitable for energy projects, may be applied 
to federal actions in federal waters.
    The Commonwealth of Massachusetts also realized the benefits to 
undertaking an ocean management planning process. In May 2008, Governor 
Deval Patrick signed the Oceans Act, requiring the Secretary of Energy 
and Environmental Affairs to develop a comprehensive ocean management 
plan. Through extensive stakeholder engagement, Massachusetts was able 
to determine the best approach to balance new and existing uses of the 
ocean. The Massachusetts plan has been completed and approved by NOAA 
for inclusion into the Commonwealth's coastal zone management plan. 
Other states around the country are looking to Rhode Island and 
Massachusetts as models in promoting efficiency and certainty for 
decision making, which are two important goals of the National Ocean 
Policy.

PROVIDING DATA AND INFORMATION
    The third benefit of this new approach is its focus on providing 
data, information, and tools to the American people for sustainably 
managing oceans, coasts, and Great Lakes. Currently, we have had a 
disjointed information base with challenges in discovering and 
acquiring existing data; data sets not being consistent, comparable or 
continuous; and critical data sets not being readily available. The 
Policy emphasizes the need to integrate physical, biological, 
ecological, and socioeconomic information that will support effective 
and timely management of growing uses of ocean, coastal, and Great 
Lakes resources while balancing conservation objectives, and to make it 
readily available to the users. Providing access to data for 
transparent, science-based decision making will translate to businesses 
and stakeholders knowing what information regulators have, and being 
able to use it without having to spend time and money searching for it.
    As a result, the Policy called for a ``one stop shop'' to encourage 
easy discovery and access to the data and information needed to support 
marine planning efforts--a robust Ocean.Data.gov. Today, when an 
industry proposes a coastal or ocean activity, the information needed 
to obtain permits or to determine the most suitable placement is often 
hard to find or fragmented. Ocean.Data.gov is designed to provide 
streamlined access to the full suite of data needed for transparent and 
science-based decision making, including data and decision support 
tools with integrated data sets, and connect to a network of national 
and regional portals for key data and decision-support tools. Both the 
Northeast Regional Ocean Council and the Mid-Atlantic Regional Council 
on the Ocean have created regional data portals as a mechanism to 
integrate and provide easy access and transparency for data and 
information needed for decision making in these regions. Ocean.Data.gov 
will connect to these existing and future regional data efforts. 
Accessibility to this information translates to businesses and 
stakeholders knowing what information regulators have when they are 
making decisions and being able to use it so they don't have to make 
investments in collecting data that is already available.
    We are already seeing that compiling data to populate 
Ocean.Data.gov is bringing federal agencies together. In fact, it is 
anticipated that a prototype of Ocean.Data.gov will be available in the 
coming weeks and will contain over 200 data sets from 10 federal 
agencies that include information on elevation, bathymetry, shoreline, 
living marine resources, jurisdictional boundaries, human uses, ocean 
observations, and socioeconomic data.
    Another example of sharing data and tools I'd like to highlight is 
the Environmental Response Management Application or ERMA. ERMA is a 
powerful web-based GIS tool designed to assist both emergency 
responders and environmental resource managers who deal with incidents 
that may adversely impact the environment. ERMA can display all types 
of data on a GIS platform--data from vessels, oil spill trajectories 
and observations, weather observations and forecasts, as well as 
shoreline, sediment, and water sample locations. ERMA also includes 
human use and human dimension data components to assist in response 
decision making. The Deepwater Horizon BP oil spill prompted ERMA's 
capacity to display oil spill and environmental data to be migrated 
from a response tool to a public resource. This tool was an essential 
resource for both responders and the public during the spill. ERMA 
helped facilitate information sharing among agencies to improve 
response decisions and also provided a venue for the public--including 
impacted communities throughout the Gulf--to see the data. Building off 
of the work in the Gulf of Mexico, NOAA is working with federal, state, 
tribal and local partners to develop an ERMA for the Arctic. Through 
the development of an Arctic ERMA, NOAA can help support the spill 
response capacity of Coast Guard and industry first responders and 
other Arctic stakeholders, including coastal communities, Alaska Native 
villages, and the State of Alaska. It is NOAA's hope to bring this 
technology online sometime next year.
    The Arctic is one of several regions that will need improved 
integration of ocean and coastal mapping efforts. The National Ocean 
Policy calls for strengthening and integrating federal and non-federal 
ocean observing systems, sensors, data collection platforms, data 
management, and mapping capabilities into a national system. Since 
there are areas of the oceans and coasts that are not mapped to current 
standards, decision-makers do not always have the baseline data 
necessary for defining critical habitat areas, understanding existing 
and emerging ocean uses, assessing vulnerability to coastal change, 
managing marine resources, and identifying and mitigating threats to 
marine transportation. An essential part of the National Ocean Policy 
is the identification of priority gaps in mapping data and coordinating 
the acquisition and processing of these data. Facilitating use and re-
use of our mapping data, and enabling the integration of these data and 
products will help enable science- and ecosystem-based management, 
provide high-quality data for modeling coastal hazards and sea level 
rise, and support safe marine transportation. NOAA will work with 
partners to develop a comprehensive, integrated inventory of ocean and 
coastal mapping data. The ocean and coastal mapping inventory is 
intended to link with the National Information Management System that I 
mentioned earlier, in order to provide NIMS users mapping products, 
such as digital elevation models, and an inventory of existing and 
planned framework geospatial data, such as bathymetry and elevation.

INSPIRING PARTNERSHIPS
    The fourth and final benefit I highlight today is the Policy's 
emphasis on partnerships. Improved stewardship of the ocean, coasts, 
and Great Lakes cannot be achieved by NOAA or any other federal agency 
in isolation. The National Ocean Policy emphasizes the necessity of 
improving the coordination across federal agencies, and it also charges 
federal agencies to increase collaboration with our regional, state, 
local, and tribal partners. These partners similarly have an interest 
and need to better plan and manage resources that contribute to healthy 
ocean and coastal ecosystems and economies.
    NOAA works closely with stakeholders at a regional, state and local 
level, and these partnerships will continue and expand as we undertake 
activities called for under the Policy. For example, regional fishery 
management councils currently play a major role in NOAA's ocean and 
coastal stewardship responsibilities. Together with NOAA, the regional 
fishery management councils develop Fishery Management Plans that are 
required under the Magnuson-Stevens Fishery Management Act. The 
management plans reflect many of the same priorities identified in the 
Policy, such as science based decision making and ecosystem-based 
approaches to management. NOAA is working closely with the National 
Ocean Council to ensure the important role of our partners, such as the 
regional fishery management councils, is recognized and represented in 
the implementation of the National Ocean Policy and coastal and marine 
spatial planning.
    Shifting the Stellwagen Bank Traffic Separation Lanes provides a 
concrete example of the benefits of how working together in a marine 
planning effort can achieve protection of marine resources while 
reducing conflict among uses. The Stellwagen Bank National Marine 
Sanctuary off the coast of Massachusetts is a critical seasonal feeding 
area for right, humpback, fin, and minke whales. It is also the area in 
which large commercial ships converge to enter the Port of Boston. Over 
200 large commercial ships ply the waters of the Stellwagen Bank 
National Marine Sanctuary every month. Comprehensive planning enabled 
NOAA, the Coast Guard, and several other government agencies and 
stakeholders to partner and examine shipping needs, proposed deepwater 
liquefied natural gas port locations, and endangered whale 
distribution. This led to a successful reconfiguration of the Boston 
Traffic Separation Scheme (TSS) to reduce the risk of whale mortality 
from collisions with ships in the Stellwagen Bank National Marine 
Sanctuary. The TSS transit times increased by only 9--22 minutes 
(depending on vessel speed). Additionally, conflict with deepwater 
ports was eliminated and the new route decreased the overlap between 
ships using the TSS, commercial fishing vessels, and whale watch 
vessels, thereby increasing maritime safety. Current and future 
regional planning efforts around the country can similarly benefit by 
applying this integrated, multi-objective, multi-sector approach on a 
broader and sustained scale. The National Ocean Policy is designed to 
facilitate such efforts.
    Researching and responding to changes in sea ice is another example 
where collaboration among National Ocean Council agencies and other 
partners is critical. NOAA joined the U.S. Army Corps of Engineers Cold 
Regions Research and Engineering Laboratory and other partners in 
issuing Arctic Reports Cards for 2010 and 2011, which showed summer sea 
ice extent well below 1990s levels with sea ice thinning, older sea ice 
disappearing, and ocean temperatures warming. In addition, NOAA's 
National Environmental, Satellite, Data, and Information Service 
partners with the Navy and Coast Guard to maintain the National Ice 
Center in Suitland, Maryland. The National Ice Center provides 
operational analyses and forecasts of sea ice conditions and hazards in 
the Arctic and collaborates with NOAA's National Weather Service sea 
ice desk to provide Alaska products five days a week. NOAA also 
supports the National Snow and Ice Data Center, along with the National 
Aeronautics and Space Administration and the National Science 
Foundation, within the Cooperative Institute for Research in 
Environmental Sciences at the University of Colorado, where a vast 
array of Arctic data are stewarded and made available to both academic 
and public users. NOAA also conducts cooperative studies with the 
Department of the Interior's Bureau of Ocean Energy Management on 
bowhead whales. NOAA recognizes that a strategic approach leveraging 
our strengths and those of our sister agencies with Arctic-relevant 
missions is essential if the United States is to take advantage of 
emerging economic opportunities there without causing irreparable harm 
to the region and its inhabitants.
    Another example of NOAA working with industry, federal, state and 
nongovernmental organizations is the Jockey's Ridge Living Shoreline 
and Oyster Reef Restoration Project in North Carolina. Facilitated 
through the National Fish Habitat Action Plan, NOAA helped to construct 
a low-profile breakwater sill that will develop into oyster reefs and 
planted native grasses to reduce shoreline erosion and enhance the 
habitat for seabirds, fish, crustaceans, oysters and other mollusks. 
Such local seafood is a draw for tourists visiting North Carolina's 
coast. The National Fish Habitat Action Plan initiative supports the 
National Ocean Policy's call for implementing an integrated ecosystem 
protection and restoration strategy because it is not only science-
based, but also because it is efficient in that it aligns conservation 
and restoration goals at the federal, state, tribal, local and regional 
levels.

CONCLUSION
    I am both excited and honored that NOAA is an active participant in 
the President's National Ocean Policy, as we have a valuable range of 
scientific capabilities as well as policy and management expertise to 
contribute to this initiative of great national importance. But I am 
just as excited by the partnership this Policy enables across the 
federal government and with states, tribes, industries, and most 
importantly citizens and coastal communities.
    As my examples demonstrated, our cross-agency and regional efforts 
are contributing to a healthy economy, promoting efficiency and 
certainty for decision-making, providing data and information, and 
inspiring partnerships. Together, we will continue to work to deliver 
these benefits more efficiently and effectively, saving the American 
people, the states, ocean users, and businesses time and money. There 
is a great deal of work to be done, and NOAA, in collaboration with our 
partners, is committed to strengthening science and stewardship, and 
providing the information, products, and services needed by our 
stakeholders.
    I'd like to thank the Committee for this opportunity to testify and 
look forward to working with you on this important issue, as I believe 
implementation of the National Ocean Policy is critical for the country 
and the coastal economies that rely on healthy and sustainable ocean 
and coastal resources.
                                 ______
                                 
    The Chairman. Thank you very much, Secretary Lubchenco, and 
I thank both of you very, very much for your testimony. We will 
now start the question process, and I just have a couple of 
questions, Chair Sutley, for you first. One of the issues that 
I alluded to in my opening statement and was certainly alluded 
to in the previous Committee meeting we had was the 
transparency aspect of all of this.
    To start our discussion here, can you explain the 
importance of the Federal Advisory Committee Act or FACA?
    Ms. Sutley. Mr. Chairman, the Federal Advisory Committee 
Act ensures that the Federal Government can receive advice and 
lays out a process by which the Federal Government can receive 
advice on a regular basis from the public in an open and 
transparent way.
    The Chairman. So I take by what you are saying it is 
important for the transparency as that Act applies to 
activities of the Executive Branch. Is that a fair way to say 
that?
    Ms. Sutley. I think that is right.
    The Chairman. OK. Well, if that is the case then, why are 
the regional planning bodies and the Governance Coordinating 
Committee apparently FACA-exempt?
    Ms. Sutley. Well, Mr. Chairman, let me try to make a couple 
of points. First of all, you know, we are committed to openness 
and transparency as we work on this policy and as the agencies 
work on this policy, and we engaged in a fairly extensive, open 
process as we were putting the recommendations together 
throughout the year or so that we worked on it and since have 
engaged in a lot of interchange with the public and 
opportunities for the public to interact with the agencies.
    The committees that you are talking about are intended to 
exchange information and to work together to integrate science 
and information, and they will do so in an open and transparent 
way. We are not asking agencies to change. They are doing this 
within existing authorities, and they will be able to 
interchange with each other but also to interchange with the 
public in an open and transparent way.
    The Chairman. Well, understand why I am asking it. I 
appreciate your answer, but the concern was transparency in an 
Executive Order that doesn't get input. So here is a statute 
that governs something, an Executive Order, and by the actions 
of two created bodies within that board, there was no 
transparency. Now I don't think it takes a rocket scientist to 
figure out this could be a reason why we have some problems 
with this Executive Order. I think you can understand that, and 
that is probably the basis of the concern I have.
    Now let me ask both of you, and I alluded to this in my 
opening statement where I have asked both of you to give me the 
statutory authority, and I have gotten answers back. I think, 
frankly, they are pretty vague. They name a number of statutes. 
I am very serious about this, and I think most American people 
will be very serious, whether it is what we are talking about 
here, the subject of this Committee, or other committees, just 
where does the statutory authority come from.
    So I am going to ask both of you. You don't have to answer 
right now if you are not prepared, but I would like within a 
week--I don't think it should take that long--to give me a 
written response to be absolutely concise on the statutory 
authority that you have said in broad terms. Where does that 
come from and how does that flow to meet this?
    Could you commit to give me a concise answer on that within 
a week? The Secretary, Secretary Lubchenco.
    Dr. Lubchenco. Yes, sir.
    The Chairman. OK. Thank you. And, Chair Sutley?
    Ms. Sutley. Yes.
    The Chairman. OK. Thanks. I want that. We will want to open 
the dialogue on this, and if we feel it is inadequate, we will 
follow up. But I think it is very, very important because of 
the nature of our government and the division of powers that we 
understand precisely where that authority comes from because of 
the potential that this has, as I mentioned in my opening 
statement, the unknowns. We need to know that precisely.
    So, with that, I will yield my time. I will yield back my 
time and recognize the Ranking Member.
    Mr. Markey. Thank you, Mr. Chairman. Chair Sutley, Joan 
Bondareff, the former Chief Counsel and Acting Deputy 
Administrator for the Marine Administration, recently wrote in 
an article that, ``It was President Reagan who declared that 
the United States has exclusive rights to the resources of the 
Exclusive Economic Zone. Unless the United States develops 
comprehensive marine spatial plans, we will be unable to take 
full advantage of his proclamation and vision but will continue 
to battle each permit and each new use of the ocean on a case-
by-case basis.''
    Is the purpose of coastal and marine spatial planning to 
stop development?
    Ms. Sutley. No, Mr. Chairman. It is really to have 
information available with using the best science, open to all 
the decision-makers and to the public, to understand how 
decisions are being made.
    Mr. Markey. Will there be environmental benefits from 
spatial planning?
    Ms. Sutley. We believe so.
    Mr. Markey. Will there be benefits to business and 
industry, and if so, what are some of those benefits?
    Ms. Sutley. We believe that bringing in parties early into 
any process is helpful to reach a resolution more quickly, that 
this will allow agencies to integrate information and science 
in a public way, and we believe it will speed the decision-
making process.
    Mr. Markey. So the National Ocean Policy clearly relies 
heavily on regional input and engagement. Why is it important 
to include the Federal backstop?
    Ms. Sutley. Well, Mr. Chairman, clearly the Nation as a 
whole has an interest in the health and the uses of our ocean. 
They are very important to our economy. They are not only 
important to our coastal economies but certainly important to 
the economy as a whole. So we believe this will be a beneficial 
policy for the Nation as a whole. We will be able to bring in 
the best science and the best data, integrate it and have 
everyone at the table.
    Mr. Markey. OK. Thank you. Dr. Lubchenco, earlier this week 
ABC News returned to the Gulf of Mexico to interview shrimpers 
affected by the BP oil spill. When asked about experiencing the 
worst season in 40 years, this year, one shrimper said the 
quality of the shrimp isn't there. The abundance isn't there. 
And when he was asked about what happens to all the boats if 
there are no shrimp, another shrimper responded there is going 
to be a lot of boats for sale.
    Dr. Lubchenco, will the National Ocean Policy provide a 
process for balancing the interests of the offshore oil and gas 
industry and the fishing industry to ensure that fishing boats 
are not needlessly tied up at the docks or necessarily sold?
    Dr. Lubchenco. Congressman Markey, one of the distinct 
lessons that we have taken away from Deepwater Horizon was how 
dependent the coastal economies and the health of coastal 
peoples are to the health of the adjacent, in this case, Gulf. 
And the National Ocean Policy is focused squarely on ensuring 
balanced uses and healthy oceans and coasts so that they can 
support a diversity of interests.
    The National Ocean Policy provides a mechanism for regions, 
in this case the Gulf, to consider how they want to use the 
areas of the ocean and coasts and to be supported by 
information provided by the Federal Government to enable much 
more streamlined, more effective decision-making, but focus 
squarely on balancing uses, avoiding conflicts and enabling 
healthy oceans and coasts.
    Mr. Markey. OK. Doctor, last week an independent team of 
scientists at Berkeley released their analysis of land surface 
temperature records going back to 1800. They found, as their 
counterparts at NOAA and NASA had previously shown, that 
temperatures over the last decade were increasing. Once again, 
scientists have confirmed that global warming is real.
    You recently said, well, what happens in the Arctic doesn't 
stay in the Arctic. It has huge implications for the global 
system. We have never experienced the kinds of changes that we 
are seeing now in the Arctic and elsewhere, and we don't fully 
understand what the consequences of that are going to be.
    The National Ocean Policy calls for providing data, 
information and tools to manage the ocean sustainability. Why 
is that particularly important given the changes we are seeing 
in the Arctic?
    Dr. Lubchenco. Congressman Markey, we welcome the Berkeley 
independent analysis like any other independent analysis. That 
study is one of many to confirm both the reliability of the 
land-based temperature records as well as the analysis of 
temperature trends that have been carried out by many, many 
different groups, including NOAA. We look forward to these 
papers going through the peer review process and contributing 
to the larger scientific literature on the topic.
    They serve to illustrate the importance of paying attention 
to climate change as it continues to play out, affecting oceans 
and ocean uses. We certainly see that in the Arctic because 
that is where we are seeing evidence of climate change happen 
most rapidly. But the National Ocean Policy enables a more 
comprehensive look at the many uses that we want from oceans in 
light of changes that are underway, such as climate change.
    Mr. Markey. Thank you, Doctor.
    The Chairman. Thank you very much. I know that all of you 
are wondering where that beautiful picture is up there that we 
are showing. I can just tell by everybody's looking at it. I 
just want to tell everybody that is Lake Chelan in central 
Washington in my district. It is a 43-mile lake. You are seeing 
probably 10 miles from the bottom half of it. And the top half 
of that, there is a little community called Stehekin. We had 
some legislation regarding that. And the only way to access 
Stehekin is by boat up this river or by float plane. That is 
the only way you can get there. So I just thought I would point 
that out because you are all probably wondering about that, and 
we will have a test later on.
    I would like to recognize now Dr. Fleming for five minutes.
    Dr. Fleming. OK. Thank you, Mr. Chairman. I want to revisit 
this question of constitutionality that the Chairman brought 
up. So far, during this Administration, the President couldn't 
get cap and trade passed, so he had the EPA come up with a 
finding of endangerment on CO2; couldn't get the DREAM Act 
passed, so he decided not to enforce immigration laws; decided 
unilaterally that the Defense of Marriage Act is not 
constitutional even though the Supreme Court made no decision; 
and then more recently, when stimulus 2.0 couldn't even be 
passed in a Democrat-controlled Senate, he decided to come up 
with a housing bailout and a student loan bailout.
    My constituents are becoming increasingly angry that the 
President is making all the laws and all the legislation and 
creating all the rules. Now what does that have to do with our 
topic today? Well, if you go to the White House website on this 
very issue of spatial planning and you ask for what is the 
legal authority, we can find none. It is just extremely vague. 
And so like the Chairman, I am waiting for a very concise, 
specific answer and result on what is the legal authority to 
have this spatial planning.
    So I will leave that question floating because I know it 
has been asked and you are going to be getting back to us on 
that. So I will go to another question. Chair Sutley, you made 
the comment, and I want to get clarification to be sure, that 
nothing in this would restrict activity in the oceans. Am I 
correct about that?
    Ms. Sutley. Yes, sir.
    Dr. Fleming. Well, at our previous hearing, we had a 
gentleman named Mark Gorelnik of the Coastside Fishing Club who 
shared how devastating marine spatial planning can be for 
recreational anglers who have fished off the shores of the 
California coastline for generations. What I believe is most 
alarming is the lack of science used in the zoning process, and 
so it seems to me that there is quite a bit of concern.
    And again, it begs the question. If it would not restrict 
activity, why even go through this process? Why do the zoning 
if it doesn't have an ultimate purpose?
    Ms. Sutley. Thank you, Congressman. Let me make a couple of 
comments. First of all, we recognize that recreational fishing 
is an important activity that takes place in the ocean and 
other places and that often recreational fishermen are some of 
the best stewards of the ocean resources, and so we were 
grateful to have them participate in the formulation of this 
policy in our public meetings and look forward to their 
continued participation in this process.
    I think the purpose of the coastal marine spatial planning, 
it is not zoning in the sense that it restricts uses or 
specifies uses or restricts uses, but it is a way to share 
information early on, upfront, to ensure that science is being 
used to understand what are the uses of the oceans.
    Dr. Fleming. Well, because my time is limited, I want to 
kind of break through to the bottom line here. So you are 
saying absolutely, bottom line, that there will be no 
restriction of use whatsoever under this spatial planning 
process.
    Ms. Sutley. We do not think that is the result of that. The 
existing authorities that----
    Dr. Fleming. Is that a yes or a no?
    Ms. Sutley. I am sorry. I am trying to remember the way you 
asked the question. We don't believe, no, it will not restrict 
uses.
    Dr. Fleming. So the answer is no, it will not. OK. Dr. 
Lubchenco, you made the statement that this would ensure 
balanced uses. Can you explain what that means?
    Dr. Lubchenco. Certainly, Congressman Fleming. The National 
Ocean Policy does not create any new regulations. It is not 
zoning. It empowers States and regional bodies to consider the 
uses, to define how they want to have oceans off their shores 
used. So it empowers a bottom-up process for defining uses. No 
States are required to participate in this process.
    Dr. Fleming. Well, again, I am running out of time. I 
apologize for interrupting you. So, if it empowers someone to 
make a decision to divide uses, then wouldn't that by 
definition restrict activity?
    Dr. Lubchenco. It is a planning process. It is not zoning. 
Just like on land we have planning commissions separate from 
zoning commissions. It says this is how we would like to avoid 
conflicts, to ensure that people who want to participate in 
different activities have certainty. They can plan. They have 
predictability. And it really is a bottom-up effort that 
focuses on balancing the often conflicting interests and 
jurisdictions.
    Dr. Fleming. And I appreciate your response. I am running 
out of time. To me, that is the same thing as restricting 
activity. I don't see how you can do one without the other. 
Thank you, and I yield back.
    The Chairman. Thank you very much. And the Chair recognizes 
the gentleman from New Jersey, Mr. Holt.
    Mr. Holt. Thank you, Mr. Chairman. I thank the witnesses. 
If the role of government is balancing competing, legitimate 
interests, I would like to talk about how this policy for 
stewardship will help to balance the interests of trade and 
defense and security and energy, whether it is petroleum or 
wind or hydrodynamic, food, recreation, culture, tourism, all 
of those things.
    The other side has been harping on legalistic arguments. I 
don't doubt that you will be able to satisfy them on those 
points. I would like to talk about really the substantive need 
for this. When we look at the chaotic, uncoordinated, 
individual interests, sometimes selfish interests, that have 
left a mess of things, I would be inclined to believe that 
planning would help.
    Dr. Lubchenco, you mentioned a couple of things that I 
would like you to address. One is, you know, opponents of 
coastal and marine spatial planning have claimed that there is 
a threat to their business interests. In a letter submitted for 
the record during the October 4 hearing on this topic, Captain 
John McMurray, a long-time fisherman and member of the Mid-
Atlantic Fishery Management Council wrote, ``The only interests 
coastal and marine spatial planning could hurt are those who 
willingly refuse to engage in the process. Those who are shut 
out of day-to-day ocean government decisions have the golden 
opportunity to make their concerns heard.''
    I would like you to talk about whether fishermen, 
recreational or commercial, should consider this an opportunity 
to protect their interests or consider it a threat. I would 
also like you to give an example or two of the advantages that 
would come in what you refer to as compatible data. If you 
could point to instances, whether in the Gulf oil spill or with 
regard to acidification or climate change, where the lack of 
data or lack of compatible data has created problems and that 
this might address.
    Dr. Lubchenco. Congressman Holt, thank you for your 
questions. I think simply put the National Ocean Policy creates 
order out of chaos. What we have now are over 140 different 
rules and regulations. It is very difficult for any interest to 
figure out how to navigate all of that. This is an opportunity 
through the regional ocean planning bodies for all stakeholders 
to participate and to identify what information they need to be 
making smart decisions.
    I was just in Florida last week for example. I went to Fort 
Lauderdale and met with a group of businessmen who are 
interested in hydrokinetic energy. And they, with their 
consultants and partners from different universities, have been 
working closely together to identify all the different 
information needs that they have to do a localized version of 
spatial planning to understand better how potential new 
renewable energy from the ocean needs to be conducted in a way 
that is compatible with other uses and to avoid conflicts.
    That is a mini-version of coastal and marine spatial 
planning, and it highlights the challenges that everyone has 
right now in finding sea floor maps, habitat maps, existing 
uses. And the same is happening in lots of different parts 
around the country. Off the coast of Massachusetts or Rhode 
Island or Oregon, we are seeing States embrace the opportunity 
to do spatial planning in a more forward-looking way that 
provides certainty and predictability for industry.
    We heard over and over and over from so many industry folks 
that participated in many of our listening sessions how 
frustrated they are, how loathe they are to make investments in 
some new job-creating opportunities because there was such a 
chaotic situation now. And so the certainty, the 
predictability, the access to information are all elements of 
good, smart planning that this process we believe will enable. 
And it seems to be working in a number of places.
    Mr. Holt. I thank you. I thank the Chair.
    The Chairman. I thank the gentleman, and I will now 
recognize the newest Member of the Committee, whom we 
introduced earlier, Mr. Amodei from Nevada. Mr. Amodei, you are 
recognized.
    Mr. Amodei. Thank you, Mr. Chairman. Madame Secretary, you 
had indicated that this initiative would ensure balanced uses 
but then indicated that it is not zoning. It empowers from the 
bottom-up and participation is not forced. Can you kind of 
connect those two things for me in terms of the operational 
side, where we are going to ensure balanced uses, but, unless I 
misunderstood, it is not mandatory to participate, it is not 
zoning, and it will empower from the bottom up? How does that 
work to achieve that insurance for balanced uses approach in 
your mind?
    Dr. Lubchenco. Congressman, thanks for the opportunity to 
clarify that. This process requires the Federal agencies to 
work together. It invites the States and tribes and local 
governments to work together to define uses of oceans off their 
coasts. But it does not create any new regulations. It does not 
impose any restrictions on States or local governments. They 
are free to participate or not. We think that it will be 
sufficiently beneficial that they will choose to voluntarily 
participate, but only the Federal Government will be required 
to abide by the local planning processes.
    So there are no new regulations that are created. And this 
is an opportunity for local, State, and tribal governments to 
work together to define ways in which they can minimize 
conflicts, ways in which they can provide certainty and 
predictability for a variety of users.
    Mr. Amodei. If I may follow up, so if I need a Federal 
permit for one of these proposed uses, and for instance, the 
California Coastal Commission gives me a go, am I going to get 
my Federal permit based on the California Commission approval 
theoretically, or am I going to be refused that permit because 
it doesn't meet the plan that this is going to be created, 
which is not mandatory?
    Dr. Lubchenco. Congressman, one of the challenges with the 
status quo is that you might need to get a permit from three, 
four, five different Federal agencies, and figuring out what 
permit to get where, what information you need is a pretty 
daunting process. The requirement for Federal agencies to be 
working together to streamline that process will facilitate 
your knowing what to do and being able to have a more 
streamlined, efficient way of working.
    What you are doing should be compatible with what the 
regional planning bodies are defining. That will help.
    Mr. Amodei. If I may, Madame Secretary, so is this new plan 
existence compliance going to be used by agencies as a reason 
to deny a permit? I am not trying to make it--I understand the 
coordination process and the possibility that there is multiple 
permits, but what I would like to know is, if the plan is 
created for a specific area and I have approval from whoever 
the planning and zoning folks are, which I guess this isn't, 
but yet I go to the appropriate Federal agency and say I want Z 
permit, is it going to be one of those things where it is like, 
I am sorry, you are not in compliance with the Federal plan, so 
until you are--I mean, that is just the ground level thing.
    And if you haven't thought about it, that is fair too, you 
know, because when I hear we are going to ensure balanced uses, 
but you really don't have to do it, it is like there are some 
inconsistencies there. So maybe I am not making myself----
    Dr. Lubchenco. No. I think it is hard to talk about 
examples like that in a vacuum. You know, a concrete one is 
probably easier to focus on.
    Mr. Amodei. OK.
    Dr. Lubchenco. And I am happy to follow up with you on 
that.
    Mr. Amodei. Thank you. I appreciate that. Madame Chair, 
real briefly, you know, I am new to this town, but I understand 
that there is rumors here from time to time and stuff like 
that. Are you aware of anything going on in your role talking 
about folding the Office of Surface Mining into BLM 
jurisdiction? Is that anything that you have been involved 
with, or is it a rumor to you too?
    Ms. Sutley. Thank you, Congressman. We have not been 
involved in any of those discussions, and only what we read in 
the papers is all.
    Mr. Amodei. OK. Thank you. Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman. Next I will recognize 
Ms. Tsongas from Massachusetts, recognized for five minutes.
    Ms. Tsongas. Thank you, Mr. Chairman. It is great to have 
you here before us and to acknowledge, as our Ranking Member 
Markey did, how Massachusetts has embraced its regional 
planning effort, working with the other New England States, 
because we see the great benefits to it. We use our waters in 
many ways, sometimes very traditional, but also in very 
forward-looking ways, and we have discovered the challenges 
from the multiple uses and the benefit of this kind of planning 
effort.
    But I want to ask you, Chairwoman Sutley, a different 
question. Both the U.S. Navy and the U.S. Coast Guard, both 
entities important to our national security, have spoken in 
favor of the National Ocean Policy and the National Ocean 
Council. In fact, Coast Guard Commandant Papp said, ``The Coast 
Guard is fully engaged at all levels of the National Ocean 
Council. We have a lot to offer as a military service, a 
Federal law enforcement agency, and our nation's lead maritime 
first responder. The National Ocean Council is essential to all 
Americans as our nation's waters directly or indirectly touch 
our lives in some form every day.''
    Chairwoman Sutley, do you agree with Commandant Papp that a 
National Ocean Policy is critical to our national security 
interests?
    Ms. Sutley. Thank you, Congresswoman. I do agree. We had 
very enthusiastic participation in this from the beginning from 
not only the Coast Guard but from the Department of Defense, 
and the policy and the reports clearly recognize the importance 
of national security, the importance of navigation and commerce 
as uses of the ocean and that this is a way for all of these 
agencies to work together to ensure that we are meeting all of 
those needs and uses of the ocean.
    Ms. Tsongas. And in a related question, Dr. Lubchenco, in 
your testimony, your written testimony, you noted a situation 
in Rhode Island where the State had received a substantial 
development proposal to site an offshore energy project. And 
although it never was fully formalized, it was later discovered 
that the proposed facility had been sited in the center of the 
prime navigation channels for submarine activities associated 
with a Navy base in Groton, Connecticut.
    So again, related to the first, how will the National Ocean 
Policy help avoid these types of situations, protecting our 
national security while helping to streamline the permitting 
and siting to speed up the offshore energy development process 
that is so critical to our future?
    Dr. Lubchenco. Congresswoman, that example really does 
serve to highlight how challenging the status quo is now. And 
unfortunately that particular effort came to naught because of 
the conflicts that you articulated. The National Ocean Policy 
provides a path that would involve all stakeholders from the 
outset with the same type of data and information so that all 
the different relevant kinds of information can be at the 
table, with the idea explicitly of avoiding serious roadblocks 
like they encountered and of streamlining the process, of 
having it be much more predictable for business and industry 
and having, as I said before, order out of chaos.
    Less waste, more efficient use of taxpayer dollars, this 
really should be thought of as government at its best. It 
really is moving in the directions that will be helpful. And 
States like Massachusetts have clearly seen the wisdom of that 
more comprehensive planning. And so we are following. The 
Federal Government is taking good lessons from what many of the 
States have pioneered.
    Ms. Tsongas. And I think that is why you see why the Coast 
Guard, the Navy, the Department of Defense would be supportive 
of this kind of effort, because it protects our national 
security interests, knowing that there are many other interests 
involved as well. So thank you for your testimony, and I yield 
back.
    The Chairman. Can the gentlelady yield for a moment, the 
gentlelady yield before she yields back?
    Ms. Tsongas. Yes.
    The Chairman. I just want to make an observation. My 
understanding of the Executive Order is that Homeland Security 
and the military are exempt from this. Is that correct, Chair 
Sutley?
    Ms. Sutley. Mr. Chairman, they are not exempt. Clearly we 
recognize that there are national security interests that need 
to be considered somewhat differently. But as I said, they have 
been very enthusiastic, participating in this process because 
they believe it will avoid situations like the one that Dr. 
Lubchenco described.
    The Chairman. Well, Section 9, the way I read Section 9, it 
says they are exempt.
    Ms. Sutley. Well, they have been participating in this 
process, and we expect that they will continue to.
    The Chairman. Well, if I may, once again this seems to be 
the conflict that we have as to what the authority is. Section 
9 as I read it says they are exempt. And yet we are hearing 
people are participating. And what is the rule of law if you 
will to guide this. That is the confusion that I have.
    I now recognize the gentleman from Texas, Mr. Flores, for 
five minutes.
    Mr. Flores. Thank you, Mr. Chairman, and thank you to the 
witnesses for appearing today. I have four principle concerns 
about this initiative. The first is statutory authority. It is 
clear that congressional intent is not there to have a 
comprehensive planning and zoning process at this point because 
attempts to pass legislation have not passed. Also, there have 
been attempts to zero out the funding for this effort. So it 
seems to me like it is clearly trying to wire around the intent 
of Congress.
    The second thing that bothers me is how far inland does 
this go. If we have rainfall falling on a building at Baylor 
University in Waco, Texas, that is ultimately to the extent not 
evaporated or absorbed in the soil going to wind up in the 
ocean. So does that give this body the authority to ultimately 
produce a regulation to control what happens with that 
rainfall?
    The second thing is you have said repeatedly that this is a 
bottoms-up approach, yet there are no nongovernmental members 
on these regional planning bodies. That doesn't sound like 
bottoms-up to me. That just sounds like more big government 
trying to get in the way of human activity.
    And then the last thing we are hearing is that this is just 
a planning process, that this is not going to ultimately result 
in zoning. This looks to me like an attempt to do something 
besides create a nice, slick plan to set on a shelf and not 
doing anything with. So I would ask you to tell me how this 
doesn't go beyond the pale, that creating this plan is not 
going to result in any other activity. Please explain that for 
me.
    Ms. Sutley. Thank you for your questions. I will try to 
answer a couple of them, and perhaps Dr. Lubchenco would like 
to also. One of the issues that you raised was sort of how far 
inland does this go. There is nothing that mandates that these 
plans go inland, but I think as many existing statutes 
recognize, where there is a connection between impacts on the 
land and impacts on the ocean, that those could be considered 
and that the regional bodies will consider how far----
    Mr. Flores. So ultimately a snowflake falling on the top of 
Pikes Peak could be regulated.
    Ms. Sutley. I don't believe so.
    Mr. Flores. OK.
    Ms. Sutley. I don't believe so. As I said already----
    Mr. Flores. That is what I thought you just said, but I 
wanted to clarify that.
    Ms. Sutley. Well, yes. Existing statutes recognize some 
connections, and where there is a connection, it is certainly 
something that the regional bodies can look at, where there is 
a direct effect and we know, for example----
    Mr. Flores. So they can regulate----
    Ms. Sutley. Well, things like beach closures are, you know, 
a big concern in coastal communities that have big impacts on 
the economy, and there are connections between activities in 
the coastal areas and beach closures, and those are already 
addressed under existing law.
    And on the question of a bottom-up approach, this is an 
attempt to bring agencies together to have them share 
information and share data with each other and with the public 
so that we can look at issues----
    Mr. Flores. But I am more concerned about the public 
sharing what it wants and having a vote in the process. That is 
what I am concerned about. It sounds to me like the public is 
excluded.
    Ms. Sutley. Well, this planning process doesn't change the 
existing--it doesn't change existing authorities or existing 
decision-making, the current decision-making process. This 
brings information into the decision-making process earlier and 
should bring the public in earlier into the decision-making 
process so hopefully it will result in better decisions being 
made.
    Mr. Flores. OK. Secretary Lubchenco, any comments?
    Dr. Lubchenco. Yes. Thank you, Congressman. I think I would 
just emphasize that the regional planning bodies would have 
membership from local, State, and tribal governments. Those are 
elected representatives that have been elected by the people. 
The process also specifies continuous public participation 
pretty much at every step of the way. So there is an explicit 
mechanism for the public to in fact participate directly in 
these activities.
    Mr. Flores. But on the other hand, in hearings we held on 
this earlier, some of the complaints that we heard loudly and 
clearly were that the concerns of some of the people, some of 
the organizations that have been asked to testify have not been 
addressed. I mean, are we just paying lip service to these 
concerns and not paying attention?
    Dr. Lubchenco. No, sir. I think it would be highly unlikely 
to have any public process where every single interested party 
would be happy with every single outcome. That is not what 
happens in democracy. I think the point here is that there is 
opportunity for everyone to be at the table, to participate, to 
be consulted, and for the regional planning bodies to consider 
how to minimize the inevitable conflicts that arise.
    You know, this does not create any new authorities. There 
are no new regulations. It draws on the very ample existing 
authorities to consider what are now a whole set of separate 
sector-by-sector or issue-by-issue considerations in a more 
integrated fashion, with the goal of having it be more 
efficient, more effective, streamlined, and to----
    Mr. Flores. In other words, still controlled though. Well, 
Mr. Chairman, I thank you. I don't feel like my concerns have 
been addressed. I yield back.
    The Chairman. The time of the gentleman had expired, as he 
knows. The gentleman from Maryland, Mr. Sarbanes.
    Mr. Sarbanes. Thank you, Mr. Chairman. Thank you all for 
being here. I think this is a terrific tool that is being put 
together, the national oceans policy. I wish we had had it in 
place for a long time before this because I think we would have 
made a lot better decisions in many different arenas.
    You know, I am from Maryland, and of course the Chesapeake 
Bay is a treasure to Marylanders and I believe a national 
treasure. I think the Chesapeake Bay can benefit tremendously 
from the planning tools that this policy is launching, 
particularly this coastal marine spatial planning. I am 
actually right in the process now of sending around a letter to 
my colleagues bringing to their attention a problem with 
respect to the Atlantic menhaden fish, which is a very, very 
critical fish. Some have called it--it is a very tiny fish, I 
am sure you know about this--have called it the most important 
fish in the sea because it underpins really the ecological 
systems of so many fisheries, and in that respect, preserving 
and making sure the supply is adequate is critical.
    I imagine the tools that are being put forward here would 
be very helpful with respect to recovering that population, 
making sure that it is preserved going forward.
    To echo what Ms. Tsongas said a moment ago, there was a 
hearing here not too long ago where there was a proposal to do 
offshore drilling off the coast of Virginia that was put 
forward, and even though there was plenty of evidence that that 
would get in the way of a lot of other kinds of operations and 
activity, again, if you have this kind of comprehensive picture 
available to you, it is going to stop you from doing stupid 
things.
    I mean, to put it very directly, that is what I see this 
process as offering us. I have listened very carefully to the 
objections that have been made by people on the other side of 
the aisle, and I tried to give those comments the benefit of 
the doubt. I really can't see what is objectionable here. I 
keep hearing this theme about restricting activity.
    Well, when you get information, it informs activity. I 
mean, why get the information in the first place if it is not 
going to inform your activity, the steps that you take, the 
decisions that you make? Either we want good information or we 
want to put our head in the sand and not have good information. 
So this notion that if it somehow is going to impact some 
activity somewhere in the world to get some good information, 
we should just not have information is a completely ludicrous 
proposition I think.
    And you have made it very clear that this process is not 
going to upend or subvert or move to the margins existing 
decision-making processes. This is about getting information, 
streamlining coordination among various agencies and, frankly, 
making it a lot easier for all of the stakeholders and 
industries and actors and so forth that are affected by what 
goes on in our oceans to do good planning going forward.
    I would imagine, and I am now going to ask a question here 
with one minute and 16 seconds to go, but I gather from your 
testimony from both of you that there is, frankly, a lot of 
excitement out there among the industries and others that would 
be affected by getting good information, and so maybe you can 
speak again to that. You have done it now a number of times, 
and I apologize that you have to keep going through the same 
set of statements, but I think it is because you have been very 
consistent in the testimony you have offered.
    So tell me a little bit about the potential for this to 
really help the industries out there that would be affected and 
the kind of inputs you are getting from them as they anticipate 
the policy rolling out?
    Dr. Lubchenco. Congressman, thank you very much for your 
comments. In the public listening sessions, we paid special 
attention to the diverse interests that are out there and 
incorporated those into the design of this National Ocean 
Policy so it really is responsive to what we heard. And 
industry told us over and over we need more predictability. We 
need to know--we need to have more streamlined processes. And 
in fact, there are many, many who are very enthusiastic about 
moving ahead with this both on the part of industry as well as 
many States and local governments and groups of States in a 
region.
    There is also, frankly, uncertainty because this is new and 
change is often threatening to many people. And so I think we 
will continue to articulate the merits, to point to the lessons 
learned from many efforts around the Nation and to learn from 
experience and move ahead with this because I really believe it 
will be extremely beneficial to everyone.
    The Chairman. The time of the gentleman has expired. The 
Chair recognizes the gentleman from Virginia, Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. Dr. Lubchenco, I 
would like to go straight to you. I find it interesting, your 
comment about how this National Ocean Policy would empower 
States. Maybe I got my government lesson wrong, but it seems 
like to me that States are empowered through the U.S. 
Constitution, not through Federal agencies. So I truly believe 
that maybe the empowerment is not taking place at the right 
point.
    I spent 27 years working in the State of Virginia. I was 
involved on a daily basis with decision-making involving marine 
resources. I served on the coastal zone management team there 
in Virginia. I have been on the practical side, not the 
theoretical side.
    Let me ask you this. You said that this was going to 
empower States. Tell me then how this National Ocean Policy 
will empower States over and above the Coastal Zone Management 
Act, which was recently reauthorized, Magnuson-Stevens Act, and 
where those Acts lack in the National Ocean Policy would 
provide for where both of those pieces of legislation lack.
    Dr. Lubchenco. Thank you, Congressman. Each of those 
different pieces of legislation pertains to a specific issue, 
whether it is fisheries or coastal zone. There are others that 
deal with water quality, shipping, renewable energy, 
conventional energy. And typically each of those is considered 
sort of in a vacuum without regard to other----
    Mr. Wittman. So let me interrupt. So you are saying then 
the Coastal Zone Management Act operates in a vacuum. It 
doesn't involve States. It seems like to me when I was involved 
in it, it involved States and that our thoughts and ideas that 
went into that actually put in place policies at the State 
levels. So you are saying CZM doesn't do that. It operates in a 
vacuum.
    Dr. Lubchenco. No, sir. You are correct on the Coastal 
Zone. That one is more integrated, unlike the other ones that I 
was referring to. I stand corrected on that front. Coastal Zone 
doesn't deal with the full range of issues, but it is in fact 
more integrated.
    What this process would allow is to consider in a region of 
the ocean all of the potential issues, all the potential uses, 
in a more comprehensive sense. And I say it empowers. Perhaps 
that is not the best choice of verb. But it enables a bottom-up 
identification by local, State, and regional tribal entities to 
consider the range of uses in an area together with the idea of 
minimizing the conflicts that often happen or the disruption 
that often happens when you have just a single issue going down 
one track, another issue coming down another track and then 
colliding and blowing up.
    Mr. Wittman. So you are saying then on operations like the 
regional councils under Magnuson-Stevens Act that that doesn't 
provide for that integration of information there in making 
decisions?
    Dr. Lubchenco. The Fishery Management Councils typically 
consider fishing activities, but they do not typically consider 
shipping interests, for example, or water quality or national 
security. And fishery management plans are incredibly 
important. And as I have mentioned before, we believe that the 
Councils do very important, very legitimate business, and we 
would like to see them have a seat at the table on the regional 
planning bodies simply because what they do is so important, 
and it represents both commercial as well as recreational 
fishing interests, which are vital to this process.
    Mr. Wittman. You spoke of a network of very complicated 
regulations and that this National Ocean Policy was going to 
help in simplifying those complicated regulations. I am 
wondering how another level of bureaucracy is going to simplify 
what you say are complicated regulations. How is that going to 
make that process simpler, more effective and more efficient?
    Dr. Lubchenco. Congressman, I think there are so many 
different regulations that apply to different issues, it is 
daunting to navigate all of those.
    Mr. Wittman. Well, let me ask you this since my time is 
limited. Would it not be simpler then to go back and address 
the statutory authority given to promulgate those regulations 
or actually simplifying the regulations themselves than 
creating another level of bureaucracy that somehow says now we 
are going to be the orchestrator of these multiple layers of 
complicated regulations?
    Dr. Lubchenco. I think this process is a very viable one, 
and it is also one that enables all the relevant information to 
be assembled so that everybody can have access to the same 
information instead of having it be in lots of different 
places. So this process I think has potential to be very 
helpful and very beneficial.
    Mr. Wittman. OK.
    The Chairman. The time of the gentleman has expired. The 
Chair recognizes the gentleman from Northern Marianas, Mr. 
Sablan.
    Mr. Sablan. Thank you very much, Mr. Chairman, and good 
morning, Dr. Lubchenco and Chair Sutley, right? Thank you. You 
know, I can't help myself. Whenever they bring up this issue of 
global warming, and like, Dr. Lubchenco, you recently said that 
what happens in the Arctic doesn't stay in the Arctic and that 
we don't fully understand what the consequences are of global 
warming or rising ocean levels.
    I come from a district that is geographically a part of a 
larger entity called Micronesia, and the area of Micronesia is 
the size of the contiguous 48 States. And so there are 2,000 
islands, over 2,000 islands, and anyone who doubts the science, 
I have physical evidence of the rising ocean levels. Whether 
you pick the island of Mili in the farthest east or the island 
of Tobi in the farthest west, any islands in between, pick it 
and we will have physical evidence of rising ocean levels, and 
it is really a concern that we all need to get involved with.
    But, Dr. Lubchenco, last week the Florida Department of 
Environmental Protection, the Secretary said that coastal and 
marine spatial planning is a key tool for protecting the 
environmental and economic integrity of our ocean and coastal 
resources. This planning process gives reef managers and 
stakeholders a coherent, science-based approach to spatial 
planning. So, Doctor, can you tell us how coastal and marine 
spatial planning will help to balance coral reef protection, 
tourism, recreational fishing and other uses, all of which are 
important to the State of Florida, the territories, including 
my home, the Northern Mariana Islands?
    Dr. Lubchenco. Thank you, Delegate Sablan. We did have the 
U.S. Coral Reef Task Force meetings last week in Florida. And 
at that task force meeting, there were many, many States and 
territories talking about how important coastal and marine 
spatial planning is to protecting the health of coral reefs 
that are so important to States like Florida and Hawaii, the 
Northern Mariana Islands, and other island territories.
    The process that is being utilized in some of them and that 
others are looking very closely at enables consideration of all 
of the different uses of oceans where coral reefs are present, 
with the idea of ensuring that we can have fishing, that we can 
have shipping, that we can have recreational boating, that we 
can have energy utilized, pay attention to national security 
interests, defense as well, and to have all of those be 
compatible with healthy coral reefs. And that is the goal, and 
we certainly heard in no uncertain terms in the Coral Reef Task 
Force meetings the strong enthusiasm from Florida that the 
Secretary was talking about when he was there but others as 
well, that this is something that they are eagerly embracing.
    Mr. Sablan. Thank you. Actually some Members also suggest 
that the type of collaborative planning found in the National 
Ocean Policy is not wanted in all regions. However, your 
testimony cites numerous examples of regional organizations 
formed by State Governors which collaborate on ocean management 
issues.
    Now let me go to back to this, Dr. Lubchenco, because when 
President Bush appointed the U.S. Commission on Ocean Policy 
that first proposed the idea of a national ocean council in 
2004, 12 Republican Governors explicitly endorsed the idea. Ten 
of them, 10 Governors, explicitly supported the Commission's 
proposal of having regional ocean councils. So do you think 
these Republican Governors supported the formation of these 
councils because it was already clear then in 2004 that there 
was a need for coordination to minimize the conflicts or to 
maximize economic and environmental gains in our oceans?
    Dr. Lubchenco. Delegate Sablan, we are seeing Governors 
from both parties in regions around the U.S. embrace the 
concepts of coastal marine spatial planning. There are regional 
Governors' coordinating groups in different parts of the U.S., 
and they see the directions that the National Ocean Policy is 
moving as something that would be beneficial to them. There has 
been strong bipartisan support for these directions, and I 
think that is recognizing that they see the need for what this 
policy represents.
    Mr. Sablan. Thank you.
    The Chairman. The time of the gentleman has expired. The 
Chair recognizes the gentlelady from South Dakota, Mrs. Noem.
    Ms. Noem. Thank you, Mr. Chairman. And thank you both for 
your testimony today and being here. I am from South Dakota, so 
it is a landlocked State, so I don't hear a lot from my 
constituents about the National Ocean Policy. So, Chairwoman 
Sutley, while you are here today, there is something that I 
hear a lot about from people in South Dakota, so I would like 
to go off-topic a little bit and just address this and have you 
answer a few questions for me.
    You know, the issue is the mountain pine beetle epidemic 
that we are facing in the Black Hills National Forest in South 
Dakota. We have been bogged down with the NEPA process, and it 
has tied our hands to how we can address this epidemic that is 
sweeping across our hills. It can take over a year for the 
Forest Service to get through the process and try to do logging 
ahead of these beetles.
    As you know, I sent you and Chief Tidwell a letter 
requesting for a process that is granted to you by Congress for 
alternative arrangements, which I was disappointed that it took 
two months to hear back from you on that. And when I did hear 
back from you, it was not to grant us the alternative 
arrangements that we need to truly stop this devastation of our 
way of life in western South Dakota.
    I speak on behalf of hundreds of thousands of South 
Dakotans and people who visit the Black Hills, and I am very 
disappointed by the response that we have gotten. I was given a 
list of the number of the total alternative arrangements that 
have been granted since the NEPA process was put into place, 
and since 1980, there have been 41 different instances where 
that was granted. To give you an idea, President Reagan granted 
14, President Clinton granted 9, and George Bush granted 8. 
Chairwoman Sutley, do you know how many President Obama has 
granted?
    Ms. Sutley. I believe one.
    Ms. Noem. He has granted zero. So this is a process that 
was given to him that he could utilize in extreme situations 
for alternative arrangements, and they are not utilizing their 
authority within this Administration to address emergencies 
that we are facing in the Black Hills. So communities now in 
the Hills are faced with the threats of fire. Every time it 
rains and there is lightning, they are very concerned that 
their entire community will go up in smoke and that lives will 
be at risk. And environmental integrity and quality are also at 
stake.
    I would like to ask you a couple questions. When I look at 
the website on the Office of the President's website, it says 
alternative arrangements can be issued when action is--the 
first reason is necessary to protect human health or safety or 
to protect natural resources, and two, likely to result in 
significant environmental impacts.
    I was wondering if you would take the time to go back and 
to get me answers on why we do not qualify under those bullet 
points in the Black Hills to get the alternative arrangements 
that we need truly to get ahead of this epidemic that we are 
facing in the Black Hills.
    Ms. Sutley. Thank you, Congressman. I appreciate the 
concern then. First of all, apologies for the delay in 
responding to you, and we will be happy to go back and take a 
look at that. I do think that it is important--I think we have 
been in discussions with the Forest Service, and my 
understanding is that they are very well aware of the problems 
here and prioritizing the response to the bark beetle and 
shifting resources to ensure that they are adequately 
responding to the outbreaks. We recognize it is a very 
significant problem, and we continue to work with the Forest 
Service, and we will be happy to follow up with you on that.
    Ms. Noem. That would be great. And I would like you to 
reconsider the decision on the alternative arrangements. 
Resources is always a concern. But, frankly, what is stopping 
us and causing us to lose this battle is the NEPA process. And 
alternative arrangements would give us the leeway we need not 
to ignore the process but to have a quicker process so that we 
could get ahead of these beetles before they fly again next 
summer.
    Ms. Sutley. Thank you. We think NEPA is an important 
process for understanding the environmental impacts of Federal 
actions and don't think that it needs to get in the way of 
important actions and will continue to work with the Forest 
Service on that, and we will be happy to follow up with that.
    Ms. Noem. That would be great because, at this point, 
really in South Dakota and all across this country, we have 
seen the same situation, that if this Administration doesn't 
utilize the authority that Congress has given them, we may take 
congressional action in this area. So thank you for being here.
    The Chairman. Will the gentlelady yield back her time?
    Ms. Noem. Sorry, Mr. Chairman. I do yield back the balance 
of my time.
    The Chairman. The Chair recognizes the gentleman from 
California, Mr. Costa.
    Mr. Costa. Thank you very much, Mr. Chairman and both 
witnesses for explaining the President's policy on efforts to 
improve our stewardship of the oceans. Obviously this is an 
improvement, an attempt to improve the efforts that President 
Bush did.
    Dr. Lubchenco, I have a specific question, though, as it 
relates to the law of unintended consequences. As you know, and 
we have had conversations about this before, I represent one of 
the richest agricultural regions in the nation, and we have 
been impacted by regulatory burdens that I think have been 
implemented on an uneven basis I guess is the best way I could 
say it as it relates to the Endangered Species Act on salmon, 
green sturgeon, steelhead, Delta smelt.
    We have talked about combining the biological opinions 
between the Delta smelt and the salmonid biological opinions 
that have been in question. And I am wondering what assurance 
you can give my constituents that this law of unintended 
consequences as it relates to the implementation of a set of 
regulations is not going to adversely impact our ability to try 
to maintain adequate water supplies.
    Dr. Lubchenco. Congressman, I am not sure exactly what you 
are asking, but let me say that the National Ocean Policy 
doesn't change existing regulations or authorities and that we 
have recognized how important the water issues are to a range 
of users and that I think you and I agree that having a more 
integrated consideration of the biological opinions that are 
relevant to all the species is certainly appropriate.
    Mr. Costa. Is the Department of Commerce going to commit 
with the Department of the Interior to try to combine the two 
biological opinions in the next two years?
    Dr. Lubchenco. That is under serious consideration.
    Mr. Costa. Well, I would urge that it is. Secretary Locke 
previously and Secretary Salazar sent a letter to many of us 
involved on that issue on the Sacramento-San Joaquin River 
water quality issues and fisheries that indicated that they 
thought the biological opinion should be combined. That was two 
years ago. And of course we have still been in court, as you 
know, and there have been two recent rulings by the Ninth 
District as it relates to the flaws in both biological 
opinions.
    It seems to me this is an opportunity, frankly, to step 
back and to try to get it right and to agree on some interim 
operations for the next few years while we are combining the 
two biological opinions. The history on the Columbia River took 
10 years before they finally were able to get some consensus on 
the right science. It seems to me that this is long overdue.
    Dr. Lubchenco. Congressman Costa, I agree it has been a 
very lengthy process. I think it is challenged by all of the 
different steps in the court process. And we will continue to 
work diligently on this because I think it is important.
    Mr. Costa. Well, as it relates to an oceans policy, 
obviously this is much more local, and I understand that. But I 
am concerned about its application as it relates to the 
regulatory framework.
    Ms. Sutley, before my time expires, switching gears here, 
seismic technology has evolved dramatically and provides far 
more useful information today than it did ten years ago. And 
much of our efforts to inventory oil and gas reserves is based 
on data that is ten years old. I want to know what the National 
Oceans Council is doing to gather new information, more 
accurate information, that the seismic work would be done so 
that as we look at trying to utilize our oil and gas reserves 
on public lands, both offshore in this instance, it can be 
better evaluated. And what resources in terms of monies are you 
going to provide to update this through the new seismic 
technologies?
    Ms. Sutley. Thank you, Mr. Costa. Clearly relying on the 
best information and using the best available science on 
understanding the uses of the ocean and the activities in the 
ocean is very important. I can't at this moment speak to your 
specific question but would be happy to follow up with you on 
it.
    Mr. Costa. Well, I think the Committee would be very much 
interested in ensuring what information or efforts the 
Administration is making as it relates to this new Outer 
Continental Shelf policy and its relationship to utilizing 
under best management practices the oil and gas that is there 
on public lands that, frankly, are important to our long-term 
strategic energy needs. And so, Mr. Chairman, I think that it 
would be appropriate that we get this information and find out 
what resources are going to be dedicated to utilizing the new 
seismic technologies to ensure that we have the best 
information at hand.
    The Chairman. I would concur and in response to your 
inquiry ask from Chair Sutley that she would share that with 
the whole Committee and not you.
    Ms. Sutley. Yes, sir. We will certainly follow up. Thank 
you.
    The Chairman. The time of the gentleman has expired. The 
Chair recognizes the gentleman from New Jersey, Mr. Runyan.
    Mr. Runyan. Thank you, Mr. Chairman, and thank you both for 
your testimony. The gentleman from Texas raised a question 
earlier on how far inland does this go. Specifically myself 
representing New Jersey and the gentleman sitting next to Mr. 
Flores, Mr. Southerland, being in the State of Florida, our 
watersheds go both ways off of our State. And it is something 
that we have witnessed with NOAA in the past. We talk about it 
is a bottom-up process, but we have witnessed NOAA through the 
top-down, through catch shares and the fishery management plans 
push that system on people and not have the regional boards do 
that.
    I mean, can you truthfully sit there and assure me that 
that would never, never happen, because it seems like that is 
what it is because you want to take all the uncertainty in all 
the different panels and boards we have and draw them all 
together, and there creates the top-down pressure from that, 
and you become the director of that. And I just want to ask 
you, can you assure that that will never happen?
    Dr. Lubchenco. Congressman Runyan, let me clarify what the 
situation is with respect to the example that you are 
describing with catch shares. NOAA does not impose catch shares 
on any fishery. Each Fishery Management Council, which is 
composed of commercial and recreational fishermen, decides on 
the fishery management plan for a particular fishery. They have 
chosen to use, and in some cases not use, catch shares, but 
that is their choice. So we believe that there is merit in 
considering catch shares. We have encouraged councils to 
consider catch shares. But we don't require any of them to do 
that.
    Mr. Runyan. Well, that pressure itself is what I am 
referring to though.
    Dr. Lubchenco. We are providing information to them. We are 
not pressuring them. And if they say this is not appropriate 
for a fishery, that is their choice.
    Mr. Runyan. Well, I think that raises the next question, 
information. From my experience, I don't believe we have enough 
information and/or the resources to provide the information to 
deal with catch shares or to deal with the subject at hand 
today. I mean, can we literally take this information and share 
what we have to make a rock-solid decision on how we want to 
move forward?
    Dr. Lubchenco. Congressman, that is one of the I think very 
strong benefits of what we envision for the National Ocean 
Policy and coastal marine spatial planning is the opportunity 
to identify the priority information needs for different 
regions and to work across Federal agencies and with 
stakeholders and nongovernmental partners to pull all that 
information together to enable better decision-making.
    I think you are absolutely right. Information is key to 
smart planning. And in many cases, that information has not 
been available. One of the things that we at NOAA are doing is 
focusing on the information that we are responsible for, 
whether it is sea floor maps or ocean observations or ecosystem 
assessments, habitat maps. All of that kind of information 
needs to be integrated and not just within NOAA but with many 
of our partner agencies or States. And that integration of 
information and making it commonly available to everyone I 
think will be a significant boon. What is proposed in the 
National Ocean Policy is a national integrated marine 
information system, and we are working toward exactly that for 
the precise reason that you highlight.
    Mr. Runyan. But in this fiscal climate, do we even have an 
inkling of an ability to accomplish any of that?
    Dr. Lubchenco. It is especially important in this fiscal 
climate because we should not be duplicating, we should not be 
making the best use of all the information we have, and the 
integration of the information is particularly important with 
the very tight fiscal resources.
    Mr. Runyan. Thank you. And, Chairman, I yield back.
    The Chairman. The gentleman yields back. The Chair 
recognizes the gentleman from Alaska, Mr. Young.
    Mr. Young. Thank you, Mr. Chairman. I still want to know 
what dancing school that NOAA goes to. I have never seen 
anybody dance around the answers. I mean, it amazes me. I mean, 
we want to find that out. That is one question I want to find 
out, Mr. Chairman. It is important because I have sat here and 
listened to all these different words and have not answered the 
questions.
    The gentleman from Texas, the gentleman from Florida, the 
gentleman from New Jersey have not answered the questions. And 
it frustrates me. Like even last week, we had a hearing, and we 
learned that one of the reasons NOAA knows so little about the 
Steller sea lions in the Western Aleutian Islands is because 
one part of your own agency denied the permits for your own 
scientists and another part of the agency to do the research.
    How do you expect us to trust you in this proposal when 
your agency is going to develop a nationwide ocean plan and you 
don't even issue permits to yourself? How did that happen by 
the way? Because the guy I asked didn't know why. Doctor, you 
are head of this operation. What happened?
    Dr. Lubchenco. I am not sure what you are asking me, sir.
    Mr. Young. Well, NMFS asked for permission to go out and 
study Steller sea lions, is that correct? And your agency 
wouldn't issue the permit to go out and know about the Steller 
sea lions. That happened. We have the documentation on it. And 
yet you are asking us to have this thing. And, gentlemen, look 
at this plan. This is a classic example of Washington trying to 
solve a problem that does not exist. And by the way, Doctor, in 
the industry, who supports this program? You keep referring to 
industry supports it.
    Dr. Lubchenco. We have heard many different industries----
    Mr. Young. Who supports it?
    Dr. Lubchenco. The ones that I have spoken to directly 
include those interested in wind energy----
    Mr. Young. Wind power. That is good for Washington, D.C. 
Anybody in the fishing industry?
    Dr. Lubchenco. Yes.
    Mr. Young. Where?
    Dr. Lubchenco. Quite a few fishermen.
    Mr. Young. Where?
    Dr. Lubchenco. Many of the fishery----
    Mr. Young. Who were they?
    Dr. Lubchenco.--management councils.
    Mr. Young. Who were they? Anybody in the oil industry?
    Dr. Lubchenco. Anybody in what?
    Mr. Young. The oil industry?
    Dr. Lubchenco. Most of the oil industry folks that have 
testified at hearings have indicated concern.
    Mr. Young. Anybody in the mining industry?
    Dr. Lubchenco. I haven't spoken to anyone in mining.
    Mr. Young. Anybody in the agricultural industry?
    Dr. Lubchenco. I haven't spoken to them.
    Mr. Young. Who in the industry other than wind power 
supports this program?
    Dr. Lubchenco. Fishermen.
    Mr. Young. Which fishermen?
    Dr. Lubchenco. The Fishery Management Councils.
    Mr. Young. Where? Who?
    Dr. Lubchenco. Mid-Atlantic for example.
    Mr. Young. Mid-Atlantic, that is a good operation, Mid-
Atlantic. Same one as you put catch shares involved into. You 
state that the result of the National Ocean Policy creates a 
new fisheries regulatory process that competes with and 
threatens to supersede the Magnuson-Stevens Act. Is that true?
    Dr. Lubchenco. I am sorry. Could you repeat that, please?
    Mr. Young. In the last hearing we had, the result is that 
the National Ocean Policy creates a new fisheries regulatory 
process that competes with and threatens to supersede the 
Magnuson-Stevens Act. Does that supersede the Magnuson-Stevens 
Act?
    Dr. Lubchenco. No.
    Mr. Young. It doesn't? And yet we have down here equal 
based management program. We have climate change program. And 
we have fishing council sets forth the fishing policy, and yet 
this Executive Order would supersede the Magnuson Act if it is 
put in place. You say it does not.
    Dr. Lubchenco. The Executive Order does not conflict with 
and it doesn't supersede. All existing regulations remain. All 
existing authorities remain. The Magnuson-Stevens Act remains.
    Mr. Young. But if you have a fishing policy and yet the 
ocean policy differs, don't you think that is another layer of 
regulatory law?
    Dr. Lubchenco. The National Ocean Policy integrates, 
provides an opportunity for integrating across the existing 
regulations.
    Mr. Young. Who has the authority over fish?
    Dr. Lubchenco. The Secretary of Commerce.
    Mr. Young. The Secretary of Commerce. In this issue in the 
Executive Order, who would have the authority over fish?
    Dr. Lubchenco. The Secretary of Commerce.
    Mr. Young. Period. There would be no denying or fishing 
zone management that would conflict with the Magnuson Act. If 
the Council said it is right to fish here and this board said 
no or this commission said no, which would have the priority 
right?
    Dr. Lubchenco. That commission is not making decisions 
having to do with fishing.
    Mr. Young. If there is a conflict of management zone versus 
the Magnuson Act, who would have the right? The Council?
    Dr. Lubchenco. The Fishery Management Councils.
    Mr. Young. The Council would take it over there.
    Dr. Lubchenco. The Fishery Management Councils have the 
authority to create fishery management plans.
    Mr. Young. Would there be a possibility of a lawsuit from 
an outside group saying you didn't take interest in this or say 
there was a conflict there?
    Dr. Lubchenco. I am not going to speculate on possible 
lawsuits.
    Mr. Young. If we were to add something in this legislation 
saying no lawsuits could occur when there is a difference of 
opinion about the management area, would you support that?
    Dr. Lubchenco. I am not going to speculate about lawsuits.
    Mr. Young. Would you support the inability to have interest 
groups stop the fishing council of implementing a program if 
the ocean policy was different?
    Dr. Lubchenco. The Fishery Management Councils have the 
authority to create the plans and the Secretary approves those 
or not. That will not change.
    Mr. Young. It will not change, but you have another plan 
under this policy act. That means someone on the other side 
said it wasn't taking into consideration on councils. The 
Council would be sued, and they would stop the fishing process. 
So I would suggest if you want this thing to go anywhere, you 
ought to say when there is a conflict the existing councils 
will have the priority right. If you don't want it going 
anywhere, it proves just what I said. This is another overreach 
by the Federal Government ``solving'' a problem that doesn't 
exist. I am more interested in the fisheries. I will be right 
upfront with you because I watched what you did with my Steller 
sea lions when your own agency wouldn't issue a permit.
    The Chairman. The time of the gentleman has expired. The 
gentleman from Florida, Mr. Southerland, is recognized for five 
minutes.
    Mr. Southerland. Thank you, Mr. Chairman. Mrs. Lubchenco, 
thank you for being here. Is there anything that precludes all 
of these agencies in our States from communicating and 
coordinating now?
    Dr. Lubchenco. There is nothing that precludes it, but 
given how many responsibilities each has, that often doesn't 
happen to the extent that it should.
    Mr. Southerland. No. But the mere fact that someone in 
those existing departments has created this also tells me that 
if they have created this, they can also create a way, you 
know, a manual for them to communicate. I mean, I am blown away 
that we have to have the government tell us to communicate when 
there are no rules or nothing that precludes us from doing that 
now.
    Dr. Lubchenco. One of the findings of the U.S. Commission 
on Ocean Policy was that there needed to be better integration 
across Federal agencies, which is precisely the reason that 
President Bush----
    Mr. Southerland. So we create another agency though.
    Dr. Lubchenco. So President Bush set up a new inter-agency 
coordinating mechanism, the National Ocean Council, which began 
to respond to what the Commission recommended. And this 
National Ocean Policy continues that integration, increased 
collaboration, increased cooperation, which is to the benefit 
of the American people.
    Mr. Southerland. Let me ask you, you stated a few minutes 
ago no new authorities, no new regulations. You stated that.
    Dr. Lubchenco. Correct.
    Mr. Southerland. OK. On page 30 of the report, and I quote, 
``The plans would be adapted to allow for modification in 
addition of new actions based on new information or changing 
conditions. Their effective implementation would also require 
clear and easily understood requirements and regulations where 
appropriate that include enforcement as a critical component.''
    Now you just stated that this policy has no new authorities 
and no new regulations. And I am reading right here. The 
general public can go and find this, OK? This is the policy 
from the White House. You say no new regulations. The 
President's Administration says new regulations and that 
enforcement is a critical component of those regulations. So 
who is wrong? Are you wrong or is the Administration wrong?
    Dr. Lubchenco. I would like to ask Chair Sutley to address 
this because----
    Mr. Southerland. But I asked you. And then we will go to 
Ms. Sutley.
    Dr. Lubchenco. I am happy to focus on NOAA-specific issues. 
This is more U.S. Government-wide, which is not my 
responsibility.
    Mr. Southerland. Mrs. Sutley, who is wrong? Is Mrs. 
Lubchenco wrong or is the Administration wrong?
    Ms. Sutley. Well, thank you, Congressman. I think I would 
just comment that as Dr. Lubchenco said, that, you know, the 
Federal Government, it has been pointed out, needs to organize 
itself better when it comes to the ocean too.
    Mr. Southerland. This is simple. OK. Let's just keep this 
real simple. I just read straight. I read two sentences from 
the report. Both of you have stated today on the record that 
this policy creates no new authorities and no new regulations. 
Simple. Who is wrong? Are you wrong or is the Administration 
wrong?
    Ms. Sutley. Well, sir, I think the answer is that this is 
an attempt to get the Federal Government to work better with 
each other. There are bodies of existing law and existing 
regulation that we are trying to get agencies to integrate 
better and that recognizing that----
    Mr. Southerland. But no, no, no, no. No new--you stated--
these are your words. You said no new regulations. This says, 
this says there will be new regulations. This says that 
enforcement of those regulations are a critical component. This 
is simple for the American people. Let's prove to them that we 
can understand when two people say something totally opposite. 
This isn't hard. Who is wrong?
    Ms. Sutley. I believe that the quote that you are referring 
to is looking at if new information arises and there is an 
issue that is not currently being addressed, then perhaps it 
would be appropriate to have new regulations.
    Mr. Southerland. But that can't be because you said that 
there would be no new regulations.
    Ms. Sutley. That under existing authorities, if there are 
issues that are not being addressed under existing authorities, 
perhaps at some point in the future, but this policy does not--
--
    Mr. Southerland. But then is there a question on what the 
definition of new is?
    Ms. Sutley. I don't think so.
    Mr. Southerland. I aggravatingly yield back.
    The Chairman. The time of the gentleman had just expired. 
The timing on that was great. The Chair recognizes the 
gentleman from Louisiana, Mr. Landry.
    Mr. Landry. Thank you, Mr. Chairman. God, I wish I didn't 
have any questions. I would yield my time to Mr. Southerland so 
he can finish. I do have a few to Dr. Lubchenco. Are you 
familiar with the requirements for issuing a seismograph permit 
in Federal waters?
    Dr. Lubchenco. I am not sure what you are referring to.
    Mr. Landry. Are you familiar with the permitting process 
that is required for the industry, the oil and gas industry, to 
obtain a seismograph permit, a permit to do seismic activity, 
in Federal waters? Are you familiar with that?
    Dr. Lubchenco. So I believe you are referring to permits 
that are issued by the Department of the Interior.
    Mr. Landry. Well, by BSEE or BOEMRE, yes. I mean, are you 
familiar at all with any of that?
    Dr. Lubchenco. Not in any detail.
    Mr. Landry. Well, you should be because they are claiming 
that--I believe that under some of the new policy guidelines 
that you all would like to take that NOAA would be more 
involved in those seismograph or seismic permits. Are you 
familiar with any of the drilling permits or PNA permits that 
BSEE and BOEMRE issue in Federal waters?
    Dr. Lubchenco. So those are the responsibility of the 
Department of the Interior. We are often invited to provide 
information and to work with the Department to make sure that 
consequences to fisheries or to habitat are adequately 
considered.
    Mr. Landry. Well, I am glad you brought that up. And it is 
not the direction that I want to go, but I do want to let you 
know that Congressman Fleming and I sent a letter over to you 
yesterday involving marine life observers during well 
abandonment process. Are you familiar with that, or did you get 
to see that letter?
    Dr. Lubchenco. I did, sir.
    Mr. Landry. OK. Do you understand the context of that 
letter, and are you prepared to make sure that we don't have 
that issue again?
    Dr. Lubchenco. Yes, sir. I think that that was a very 
unfortunate incident.
    Mr. Landry. Great.
    Dr. Lubchenco. It was one that we got only a couple of days 
notice that the contract had been canceled. We immediately 
worked to put in place emergency contracts that would minimize 
the adverse consequence, and we are working on a longer-term 
solution.
    Mr. Landry. Great. And I want to tell you, you know, I do 
want to thank you for working with industry in finding a 
solution to that problem, and I appreciate that, and you should 
be commended for that.
    Dr. Lubchenco. Thank you, Congressman.
    Mr. Landry. The concern I have is that every time I go home 
it is like we have a new permit problem, OK? And now my 
seismograph companies, seismic companies, are calling me and 
saying we have a seismic permitting problem. Now why we would 
suspend or the moratorium would affect seismic permitting is 
beyond me because it is nondestructive. It is impossible for a 
seismic company to create an oil spill, but yet that permitting 
process is now perverted. And part of it they are telling me is 
because of some issues that NOAA or that we are trying to 
protect marine life.
    Well, if we don't get proper seismic data, it is harder for 
us to protect marine life when they do the drilling plans. And 
so I am extremely concerned with this activity because what has 
happened is these seismic companies do work all over the globe. 
And of course we have chased a lot of people out of the Gulf of 
Mexico, a lot of good jobs. We all agree with that. We know 
that those facts are certainly well documented. But now, in 
order for us to get the data that the oil and gas companies 
need to fulfill the new requirements in the environmental 
analysis that are being required of them, the seismic 
permitting process is now dragging its feet.
    And so I was just wondering whether or not you could 
elaborate as to why that process would be being delayed.
    Dr. Lubchenco. Congressman, I haven't focused my attention 
on this issue in depth. I do know that it is important for any 
kind of activity to understand the full consequences of any 
activity. And use of seismic instruments can have the potential 
of having serious impacts to marine mammals. And it is under 
that authority with the Marine Mammal Protection Act that we 
have responsibilities to issue permits and to help ensure that 
impacts would be minimal.
    Mr. Landry. Of course I am out of time. I can always use a 
lot more.
    The Chairman. Well, the time of the gentleman has expired. 
I want to thank the panel for being here. But for the record, I 
just want to point out because reference was made to President 
Bush and his establishing of the National Ocean Council, what 
President Bush established was this. Everything else on this 
graph here was established by the Executive Order. Certainly I 
would not say it is comparing apples with apples, and I just 
wanted to make that point.
    I also want to make the point that we have heard 
consistently and you have heard it represented by Members of 
this Committee, a number of fish groups, business groups, 
fishing groups, inland user groups are concerned about this 
policy, and they are concerned that the Administration hasn't 
been responsive. So I say that for your iteration.
    But in that regard, this will obviously not be the last 
time that you will hear from this Committee on this issue. We 
will continue to use our oversight prerogative, and I expect, 
and hopefully you will do so, respond to us in a timely manner 
whenever we ask questions of you. Obviously the one that has 
come up several times is the statutory authority. I ask within 
seven days we would hope to get that done in that length of 
time.
    And further, and I alluded to this in my opening statement, 
about the cost of this, because this is not a statutory 
requirement at least from our perspective, so where is the 
money coming from that is supporting all of this. And we will 
be asking you on that, and we hope we will have a very timely 
response to that.
    So, with that, I thank both of you very, very much for 
being here, and I will dismiss the first panel and at the same 
time call up the second panel. Thank you very much.
    On our second panel, we have Mr. Jim Donofrio, the 
Executive Director of the Recreational Fishing Alliance; Mr. 
Randall Luthi, who is the President of the National Ocean 
Industries Association; and Mr. Mike Conathan, Director of 
Ocean Policy for the Center for American Progress. We invite 
all of you to take your places.
    [Pause.]
    The Chairman. I want to welcome the second panel here. I 
will go over again, you sat through the first panel, as to how 
the rules work and how the lights work. But your full statement 
will appear in the record, and I would ask you to summarize. 
When the green light is on, as you know, you are doing very 
well. The yellow light means you have one minute, and the red 
light means finish your thoughts if you would.
    So, Mr. Donofrio, the Executive Director of Recreational 
Fishing Alliance, you are recognized for five minutes.

  STATEMENT OF JIM DONOFRIO, EXECUTIVE DIRECTOR, RECREATIONAL 
                        FISHING ALLIANCE

    Mr. Donofrio. Thank you, Mr. Chairman, and good morning to 
the Committee staff here and fellow Members. Mr. Runyan, thank 
you for today.
    My name is Jim Donofrio. I am Executive Director of the 
Recreational Fishing Alliance, a job that I have held for the 
past 16 years. Prior to that, I ran a charter party boat and 
sport fishing yachts from Cape Cod to the Caribbean and have a 
very good sense of the diversity of our industry, its needs and 
the effects of government intrusion.
    I appreciate the opportunity to appear before you today to 
discuss Executive Order 13547, the President's National Ocean 
Policy. The RFA has substantial objections to the use of 
executive orders generally. This one particular order in my 
opinion represents a complete government takeover of our 
fisheries not only in saltwater but every stream and estuary 
that flows into the Atlantic, Pacific and Gulf of Mexico. It is 
also consistent with this Administration's complete disregard 
of personal liberties and States' rights.
    To outline our concerns, Mr. Chairman, we are very troubled 
about the costs of what this particular executive order will 
be, especially how the money will be used. As you know, NOAA 
and the Administration have not been funding stock assessments 
for all the fisheries that they manage, as admitted past Friday 
at a conference in Miami with the Society of Environmental 
Journalists.
    I would hope that these journalists would report back on 
Dr. Lubchenco's comments regarding the lack of scientific data 
collection since this very statement by the NOAA chief fuels 
our concerns about how money is being allocated in the 
Administration for the ``apparent betterment'' of scientific 
process.
    As an example, RFA is troubled that both the 2011 and 2012 
NOAA budgets advance the President's National Ocean Policy with 
funding for coastal zone management and planning for Federal 
assistance for regional ocean partnerships, integrated 
ecosystem assessments, catch share-based fisheries management 
and for research on ocean acidification while at the same time 
the dedicated funding for research and real-time data 
collection has actually been reduced, data that would help keep 
us fishing.
    The fishermen and coastal businesses have asked for 
additional science. The Executive Order, however, gives us 
additional bureaucracy. Time is money, and adding more layers 
of government that our fishing industry must deal with on a 
daily basis will cost our small businesses dearly. With the 
vague wording, undefined goals and inability of government to 
benchmark success and the ever-expanding jurisdiction, it 
leaves our industry members in a state of uncertainty.
    Mr. Chair, the mom and pop tackle industry, their anglers, 
the party charter boat operators are the backbone of our 
industry, and they represent thousands of local jobs and 
communities along every coast. These stakeholders, many 
generations strong, cannot live in a world of uncertainty, and 
that is why we see this Executive Order as a job killer, not a 
job creator.
    Furthermore, it is not a solution to the critical problems 
and fisheries issues we are facing today, as identified by our 
organization and our allies. Our grassroots local members have 
been actively working with you and your colleagues to put some 
common sense back into the Magnuson-Stevens Act, which is 
complicated enough without adding a new layer of bureaucracy in 
the form of ocean spatial planning through newly appointed 
councils and councilors.
    Our concern is that future national ocean council members 
will all be Executive Branch political appointees, not elected 
by or representative of our local fishing communities and their 
related industries. We already have boats tied to the dock 
which cannot fish on rebuilt stocks because of government 
regulations that are being interpreted in different ways. 
Imagine adding a new National Ocean Policy on top of these, and 
we see our members not fishing anymore. To be quite frank, we 
view this policy as being instigated by organizations that want 
us off the water.
    Finally, Mr. Chair, we realize that some of the issues in 
the Executive Order may have some merit, but they best be done 
through legislation. And I would be happy to answer any 
questions you may have regarding the Executive Order or any 
issues related to our recreational fishing community. Thank you 
again, Mr. Chairman, for the opportunity.
    [The prepared statement of Mr. Donofrio follows:]

          Statement of James A. Donofrio, Executive Director, 
                     Recreational Fishing Alliance

    Mr. Chairman and Members of the Committee, I am Jim Donofrio, the 
Executive Director of the Recreational Fishing Alliance (RFA). The RFA 
is a national 501(c)(4) non-profit grassroots political action 
organization whose mission is to safeguard the rights of salt water 
anglers, protect marine, boat, and tackle industry jobs, and insure the 
long-term sustainability of our nation's marine fisheries. Recreational 
fishing produces significant economic activity in the United States. 
The U.S. Department of Commerce estimates the economic output 
recreational saltwater fishing includes $59 billion in direct sales 
impacts, $27 billion in value added impacts and supports over 260,000 
full-time jobs. The recreational fishing industry is ``Main Street 
America'' in every sense; it is largely composed of small, family-run, 
mom and pop businesses. It is without saying that these businesses 
serve a critical role in the health of the nation's coastal economies.
    Consistent with our mission statement, appropriate measures of 
fisheries management and conservation are among the RFA's primary 
concerns. Balancing all three tenants of the RFA mission is the goal of 
our organization and on a national scale, achieving that goal would 
mark the successful management of our domestic fisheries as we envision 
it. The current management approach falls short of this goal. All too 
often, conservation supersedes the needs of the fishing community. The 
result of which are regulations that deny access for recreational 
anglers to rebuilding fisheries and force fishing related businesses to 
permanently close their doors as fishing activity plummets. Anglers are 
the life blood of the recreational fishing industry and purchase 
equipment, bait, ice, fares, boats, fuel and other fishing goods and 
expenditures that drive this industry.
    I appreciate the opportunity to appear before you today to discuss 
the challenges facing our industry and the National Ocean Policy (NOP) 
promulgated through Executive Order 13547--The Stewardship of the 
Ocean, Our Coasts, and the Great Lakes published in the Federal 
Register on July 22, 2010. Our industry is currently dealing with one 
of its most challenging periods. While economic factors are certainly 
contributing to the hardships in our industry, it has been determined 
that the current regulatory regime for marine fisheries is having the 
greatest impact on the vitality of recreational fishing. I do not view 
the mandates of Executive Order 13547 as a solution to these 
challenges. In fact, I believe the NOP puts recreational fishing and 
recreational fishing businesses in an even more precarious position. 
While it is difficult to quantify the impacts of the NOP, it is without 
saying that the NOP does not address the problems identified by our 
industry as those being most pressing.
    Executive Order 13547 enacted as policy of the United States, the 
final recommendations of the Interagency Ocean Policy Task Force (Task 
Force) which was established by President Obama in June of 2009. The 
Task Force included 24 senior-level officials from the executive branch 
of government and was led by the Chair of the Council on Environmental 
Quality (CEQ). Noting that the membership of the Task Force is composed 
entirely of political appointees from the executive branch, there was 
strong apprehension from the traditional industries that are dependent 
upon the marine resources that the recommendations would be driven by 
political agendas and not science. The five Task Force recommendations 
include the creation of a National Ocean Policy Council (NOC), defines 
roles and leadership for NOC, engage states, tribal, and local 
authorities through new committee, creation of a NOC steering committee 
and an increase in coordination between the NOC and other executive 
level councils. In reviewing the Task Force recommendations, two 
critical points are apparent, 1) the Task Force recommendations create 
additional levels of bureaucracy for the management of the oceans, 
coastal areas and Great Lakes and 2) the verbiage of the 
recommendations is so vague and nebulous that it is difficult to 
determine exactly how recreational fishermen and fishing related 
businesses will be impacted. On an industry wide scale, creating 
additional levels of bureaucracy reduces the overall productivity of 
our industry as business owners would be forced to divert limited 
resources away from the operation of their small businesses to engage 
this bureaucracy. Furthermore, the uncertainty resultant of the 
ambiguous wording of the recommendations creates an unstable business 
environment in our industry. Collectively, it can only be assumed at 
this point that the NOP would most certainly have a negative impact on 
the recreational fishing industry.
    Specific to the topic of today's hearing, RFA believes the NOP and 
the Coastal and Marine Spatial Planning will have the following effects 
on our industry. As mentioned above, the recreational fishing industry 
is comprised mostly of small, owner-operator businesses. As owner-
operators, they are responsible for a myriad of responsibilities 
necessary to keep the business profitable. Under these circumstances, 
time becomes a critical element as they try to balance business, family 
and other matters. It is also important for these business owners to be 
engaged in the fishery management process because it brings the 
socioeconomic concerns of the industry to the managers. In addition, 
engaging the fisheries management process allows business owners to 
provide input on management measures that ultimately will affect future 
opportunity and participation. These management decisions are critical 
in forecasting investment in floor planning and inventory. With a 
limited amount of man hours, it is a valid conclusion that another 
level of bureaucracy as created through the NOP will cost businesses 
owners in the recreational fishing industry time and money. 
Furthermore, this newly created system of oversight will reduce the 
lead time available to businesses to purchase inventory prior to the 
beginning of fishing seasons.
    Both the NOP and Final Recommendations of the Interagency Ocean 
Policy Task Force are written with very vague terminology. As such, it 
is impossible to quantify what the exact objectives and goals will be 
once implemented. From a practical standpoint, it is impossible to 
determine where the jurisdiction of the NOP ends. This represents a 
profound level of uncertainty. For any business to be successful, risk 
must be properly accounted for. Elevated uncertainly reduces a business 
owner's ability to respond to risk thereby putting their business in an 
unstable situation. It is foreseeable that the uncertainty created 
through the NOP and Task Force put businesses in greater jeopardy of 
failing at a time when small businesses and jobs are such an important 
factor in reviving the Nation's economy.
    RFA offers the following comments on some of the key points of the 
Final Recommendations of the Task Force.
    Ecosystem based management: RFA supports the adoption of ecosystem-
based management as a foundation principle for the management of the 
ocean, coasts, and Great Lakes. While the concept has merit and many 
within the recreational fishing community have advocated for this type 
of management approach, ecosystem based management of the marine 
fisheries can only be effective if there is a long-term commitment in 
terms of funding and resources from the federal government. Federal 
agencies and management bodies need the capabilities to implement an 
ecosystem based approach in a responsible manner. Effective ecosystem 
based management requires a significant amount of data on the marine 
environment. We currently do not have a complete understanding of 
ecological processes that influence fish populations. Furthermore, we 
have an even more difficult time incorporating climate and weather 
change in the context of the marine environment. Under single species 
management, there are many sources of uncertainty affecting stock 
assessments: 1) imperfections in catch statistics, 2) imprecise 
estimates of biological parameters, 3) variability in fishery 
independent resource surveys, and 4) natural variability in biological 
processes, particularly in recruitment and natural mortality. The 
collective impact of this uncertainty results in arbitrary reductions 
of fishing quotas available to fishermen. If this uncertainty is 
further increased through a federal effort to accommodate an ecosystem 
based management approach, the associated uncertainly would be 
exceedingly large. This is a very risky.
    Ecosystem based management is a very data hungry approach and as 
mentioned above, the terrestrial and atmospheric stressors also impact 
the marine resources. The scope of data necessary to properly manage in 
an ecosystem based management approach would be profound. In light of 
recent action by the National Oceanographic and Atmospheric 
Administration (NOAA) where millions of dollars were diverted away from 
research and put towards unproven management projects in response to a 
political agenda, fishermen can simply not trust federal agencies to 
implement ecosystem based in a responsible manner that benefits 
fishermen despite some of the theoretical advantages such an approach 
may hold. Prior to fully adopting a eco-system based management 
approach, federal agencies must first invest in the data necessary to 
achieve this goal.
    Coastal and Marine Spatial Planning: The RFA believes that some 
activities, based on their impact on the marine and coastal habitat, 
should be limited in certain areas. These restrictions should be based 
on clear, definable objectives. In its application to recreational 
fishing, hook and line fishing has been defined as a low impact gear 
type. In general, RFA does not support the use of permanent 
recreational closed areas for fisheries management. This concept is not 
new in fisheries management which often sets fishing regulations that 
vary on a geographic scale. There are numerous reasons for doing this 
which include protection of habitat or minimizing impacts on spawning 
events. This approach is widely supported in the commercial and 
recreational fisheries.
    Coastal and Marine Spatial Planning aims to reduce conflicts among 
overlapping uses and different views about what activities should occur 
and where. RFA is not convinced that current conflicts are at a 
magnitude requiring a new, overarching coastal and marine spatial plan. 
The conflicts that do exist can be resolved through existing legal 
framework. The proposed conflict resolution process outlined in the 
Coastal and Marine Spatial Planning is not based on a scientific 
evaluation framework. RFA does not believe recreational anglers should 
be excluded from areas of the oceans without clear scientific evidence 
that such drastic action is necessary. Fishing is the one of the oldest 
activities conducted on the oceans. Excluding fishermen from areas of 
the ocean in an effort to reduce conflict with other interests, 
offshore oil drilling or the environmental industry for example, is not 
acceptable.
    Fishermen are often vocal about proposed activities such as the 
development of oil/gas extraction and wind farms on or around fishing 
grounds because those activities stand to impact recreational access 
and can potentially harm marine resources. As climate and ocean 
conditions have changed over the years, fishing areas have also 
changed. Therefore it is dangerous to divide up sections of the ocean 
based on current fishing patterns when the ocean is in a constant state 
of flux and it is unknown which areas of the ocean will be important to 
fishermen in 50 years. Furthermore, there are large, well funded and 
politically active environmental organizations that are philosophically 
opposed to fishing and endeavor to remove as many fishermen as possible 
from the water. As proposed, Coastal and Marine Spatial Planning would 
potentially aim to resolve this conflict by restricting fishermen from 
certain areas of the oceans to appease the whimsical desires of these 
groups. RFA does not believe this is a science-based or productive way 
of resolving conflict.
    Inform Decisions and Improve Understanding: Members of the 
recreational fishing community have long demanded significant 
improvements to stock assessments and data collection programs. It is 
widely accepted that improvements to both of these areas of concern 
would result in better information to make management decisions on and 
greater confidence in monitoring recreational fishing performance. Such 
improvements would reduce uncertainty and therefore likely lead to more 
favorable quotas in the recreational sector. The RFA has in numerous 
fisheries, identified key areas where such improvements could be made 
with minimal costs. NOAA has ignored the input from the RFA and other 
recreational fishing interests and failed to increase funding levels. 
Instead, NOAA has increased funding for implementation of the NOP in 
the last two fiscal years and bundled in a very unpopular measure, 
catch shares. Furthermore, the overall cost of the NOP, the Task Force, 
and subsequent action items resultant of Executive Order 13547 must 
exceed tens of millions of dollars. RFA questions if this is a wise use 
of limited federal resources and suggests that this money could have 
been used to foster more meaningful improvements.
    Regional Coordinating and Support: Successful rebuilding and 
maintaining of marine fish stocks cannot be uncoupled from 
environmental factors such as habitat and water quality. This is 
consistent with concerns raised by fishermen that activities on land 
have a profound impact on marine fisheries. Current federal fisheries 
laws contain mandates that afford protects to essential fish habitats 
and habitat areas of particular concern. Yet, these provisions which 
are intended to transcend federal and state jurisdictions are minimally 
enforced outside of the regional fishery management council. Granting 
so much authority to a regional council as created under the NOP is 
unacceptable and not a solution to address this problem. Nor is it 
appropriate to grant such a council unrestricted authority to oversee 
nearly every activity that occurs in or on the oceans or has the 
potential to impact the coast or oceans. A more productive approach 
would be to enforce existing provisions of EFH and enact legislation 
focusing on specific activities.
    In closing, RFA is very concerned about the implementation of 
Executive Order 13547 and the resultant negative impacts on the marine 
recreational fishing industry and coastal economies. The scale and far 
reaching authority granted to the NOP by the executive order will cause 
significant instability in our industry which is currently struggling 
under an already burdensome regulatory framework.
    As our nation continues to struggle with the aftermath of the 2008 
recession and efforts are underway to create jobs, it seems 
counterproductive to advance and fund the NOP when it will stifle job 
growth in the fishing sectors.
    Thank you Mr. Chairman for the opportunity to testify before the 
Committee today.
                                 ______
                                 
    The Chairman. Thank you very much, Mr. Donofrio. And next I 
will recognize Mr. Luthi, who is National Ocean Industries 
Association President. And you are recognized for five minutes, 
Mr. Luthi.

            STATEMENT OF RANDALL LUTHI, PRESIDENT, 
             NATIONAL OCEAN INDUSTRIES ASSOCIATION

    Mr. Luthi. Well, good morning, and thank you, Mr. Chairman, 
Ranking Member Markey and Members of the Committee, for this 
opportunity to come here and talk to you about Executive Order 
13547. As stated, my name is Randall Luthi, and I serve as 
President of the National Ocean Industries Association. NOIA 
represents more than 270 companies engaged in all segments of 
the offshore energy area. Our members are involved in the 
exploration and development of offshore oil and natural gas as 
well as renewable energy. All share a mutual interest in safely 
producing energy and jobs on our nation's Outer Continental 
Shelf.
    NOIA's members live, work and recreate in our nation's 
oceans and our coastal communities, and we clearly understand 
the value of marine ecosystems to the quality of our life. We 
support the concept of a national ocean policy, but we believe 
that the present policy embodied in the Executive Order has 
been lacking in meaningful stakeholder involvement both in its 
development and implementation.
    In addition, we believe a national ocean policy is 
incomplete without greater recognition of how increased access 
to our OCS might realize the national policy to improve our 
economy, create new jobs, enhance energy security and 
reliability, and increase Federal revenues.
    Our central concern about the National Ocean Policy stems 
from its use of the coastal and marine spatial planning. It is 
unclear to us what the deliverable is or how a new layer of 
Federal bureaucratic planning will yield any new economic 
activity, regulatory certainty or create jobs beyond those 
Federal jobs that might be created to do the planning itself.
    A study conducted by Quest Resources earlier this year 
concluded that if permitting were restored to historic levels 
in the Gulf of Mexico, the offshore oil and gas industry could 
create 190,000 new jobs across the United States by 2013. Today 
industry and Federal regulators are busy implementing new 
safety measures and struggling with personnel and 
organizational changes. We believe that it is in the best 
interests of the Nation for policymakers to dedicate the 
limited Federal resources available toward efforts that would 
actually create new jobs and economic activity.
    We are also concerned that the Department of the Interior 
will be unable to complete the new OCS five-year plan for the 
2012-2017 period before the current plan expires next June. 
There is potentially serious conflict between the National 
Ocean Policy and the statutory directive outlined by OCSLA, the 
Outer Continental Shelf Lands Act that states, and I quote, 
``That it is the policy of the United States that the Outer 
Continental Shelf should be made available for expeditious and 
orderly development subject to environmental safeguards.'' At a 
time when the Nation needs more access to the OCS, we are 
concerned that this policy will accomplish just the opposite.
    Finally, coastal and marine spatial planning may result in 
significant areas of the OCS being declared off limits without 
even knowing what the oil and gas natural resources potential 
is. Section 2 of the Executive Order directs the government to 
``use the best available science and knowledge to inform 
decisions affecting the ocean.'' Unfortunately the data we have 
is nearly 30 years old for areas outside the central and 
western Gulf and some parts of Alaska.
    At a minimum, new geological and geophysical data should be 
obtained before implementing any planning decisions that could 
place these areas off limits. Additionally, for the first time 
in recent history, nearly all of the OCS is available for oil 
and gas exploration due to the lifting of both the 
congressional and the executive moratoriums.
    Of course any such exploration must be first approved 
through the OCSLA five-year process or through congressional 
action. The end result of this Executive Order may very well be 
de facto exploration moratoria established by regional 
committees and not through direct Presidential or congressional 
action.
    In conclusion, we believe that there is ample policy and 
statutory tools that ensure that our oceans' resources are 
conserved and protected and without the potential conflicts, 
and we believe the potential conflicts are reasonably managed 
without imposing a new Federal layer of bureaucracy. We believe 
that the suspension of the implementation of this policy until 
industry, relevant agencies and Congress openly and fully study 
and discuss the initiative and potential impacts is a prudent 
course of action.
    In the event that the Administration insists on moving 
forward, we are more supportive of the idea of a pilot project 
in just one of the regions. We believe that this would ensure 
greater likelihood of more stakeholder involvement and fewer 
unintended consequences.
    Over the years, Congress has worked hard to preserve our 
nation through passage of acts such as OCSLA and CZMA. We 
believe that that is where Congress should be exercising its 
power and its focus to make sure that those statutes currently 
reflect what needs to be changed if anything does. We think 
this is too necessary, too soon, too much uncertainty and 
should have more congressional review and approval. Thank you.
    [The prepared statement of Mr. Luthi follows:]

                Statement of Randall Luthi, President, 
                 National Ocean Industries Association

    Good morning. Thank you Chairman Hastings, Ranking Member Markey, 
and Members of the Committee for the opportunity to be here today to 
testify on the implications of the National Ocean Policy issued under 
Executive Order (EO) 13547.
    My name is Randall Luthi and I serve as President of the National 
Ocean Industries Association. NOIA represents more than 270 member 
companies engaged in all segments of the offshore energy industry--from 
operators and producers, to service companies, G&G companies, vessel 
builders, divers, helicopter companies, and financiers. Our members 
share an interest in producing energy and jobs on the outer continental 
shelf (OCS). They are involved in the exploration and development of 
oil and natural gas, as well as renewable energy sources offshore.

Introduction
    NOIA's members live, work and recreate in the oceans and coastal 
areas and clearly understand their tremendous value, as well as that of 
marine ecosystems to our quality of life. They are important to our 
nation's health and well-being while also serving as a tremendous 
economic and energy security benefit to our country. With the right 
policies in place, the offshore energy industry can be a major 
contributor to new job growth and new federal revenues that will help 
alleviate the substantial debt the nation faces. NOIA supports the 
concept of a national ocean policy, but believes that the present 
policy embodied in EO 13547 has been lacking in meaningful stakeholder 
involvement both in its development and implementation. In addition, 
NOIA believes a national ocean policy is incomplete without greater 
recognition for how increased access to the OCS might help realize 
national policy objectives of job creation, greater energy security and 
reliability, and greater federal revenues derived from increased oil 
and gas activities.
Coastal and Marine Spatial Planning and Regulatory Uncertainty
    Our central concern about the National Ocean Policy stems from the 
objective that would implement the use of Coastal and Marine Spatial 
Planning. It is unclear to us what the policy deliverable might be or 
how a new layer of federal bureaucratic planning will yield any new 
economic activity, regulatory certainty or jobs beyond those federal 
jobs that might be created to do the planning itself. This directive 
comes at a time of great uncertainty for those who make their 
livelihood in the offshore energy industry. The industry is now just 
over one year removed from the moratorium imposed in the wake of the 
Gulf spill. Since that time there have been significant regulatory 
changes intended to elevate the requirements for safely developing oil 
and gas in the outer continental shelf. More changes are presently in 
the rule making process and the Department of the Interior has 
indicated that additional rules are forthcoming. The oil and gas 
industry, as well as the newly formed Bureau of Ocean Energy Management 
and the Bureau of Safety and Environmental Enforcement, are still 
adjusting to organizational, regulatory and personnel changes that were 
implemented in the wake of the spill. Indeed, these are certainly both 
material factors in the slower pace of approvals for exploration plans 
and permits.
    A study conducted by Quest Resources earlier this year concluded 
that if permitting were to be restored to historic levels that 190,000 
new jobs for American workers would be created by 2013. Quest also 
recently highlighted in testimony to this committee the numerous 
drilling rigs that have left U.S. waters for international locations 
that offer more certainty. While we recognize that there are a number 
of challenges for the agency and the industry in regaining that 
historic pace of activity, NOIA believes that it is in the best 
interests of the economy for policymakers and limited federal resources 
to be dedicated to efforts that would yield new jobs and economic 
activity through a more stable and certain regulatory environment and 
greater access to the outer continental shelf.

Coastal and Marine Spatial Planning and New Limits to Accessing the 
        Outer Continental Shelf
    We would also highlight our concern that it already appears the 
Department of the Interior is unable to offer assurances that it will 
complete the new OCS 5 Year Plan for 2012-2017 before the present plan 
expires at the end of June 2012. This plan is a critical tool for 
industry to be able to know when lease sales will be held and what 
areas will be made available for the ``expeditious development'' 
required by Congress under the Outer Continental Shelf Lands Act. Since 
it appears likely that the agency will have a very difficult time 
putting a plan in place on time to meet its obligations under the 
OCSLA, now is the wrong time to experiment with a new and unjustified 
layer of bureaucracy that even the administration itself concedes is 
likely to lead to new uncertainties.
    In fact, there is a potentially serious conflict between the 
National Ocean Policy and the statutory directive outlined in the Outer 
Continental Shelf Lands Act (OCSLA). The OCSLA states:
    ``It is hereby declared to be the policy of the United States 
that...the Outer Continental Shelf is a vital national resource held by 
the Federal Government for the public, which should be made available 
for expeditious and orderly development, subject to environmental 
safeguards, in a manner which is consistent with the maintenance of 
competition and other national needs....''
    It is unclear to NOIA how the EO helps achieve any of this 
statutory direction. The question we would raise for this committee to 
consider would be--in a world of record imports and high unemployment, 
why would we create another barrier for American jobs and energy?
    OCSLA and other laws such as the Coastal Zone Management Act 
currently require coordination and cooperation among Federal and State 
officials in the development of a 5 year plan, and while the 
Administration suggests that EO 13547 is not intended to usurp existing 
statutory authority, there is little guidance on how implementation of 
the EO will affect the development or implementation of upcoming or 
future 5 year plans.
    NOIA has long been an advocate for expanding access to the OCS. At 
present, less than 3% of the outer continental shelf is under lease for 
oil and gas exploration and development. On December 1, 2010, the 
Department of the Interior announced a revised OCS Oil and Gas Leasing 
Strategy. This revised leasing program actually reduced the pool of 
geographic areas available for leasing through 2017, citing in part the 
National Ocean Policy as justification. Consequently, at a time when 
the nation needs more access to the OCS, we are concerned that this 
policy presents an even more challenging and uncertain outlook for new 
access.
    As justification for its coastal and marine spatial planning 
policy, the Administration has cited onshore federal land use planning 
as a model in an effort to reassure those who may be concerned. Section 
364 of the Energy Policy Act of 2005 directed a study to be conducted 
of federal onshore oil and natural gas and ``the extent and nature of 
any restrictions or impediments to the development of the resources.'' 
This study, often referred to as EPCA III, concluded that more than 62% 
of the oil and 41% of the gas were entirely inaccessible. An additional 
30% of the oil and 49% of the gas were accessible only with 
restrictions. Only 8% of the oil and 10% of the gas were accessible 
under standard lease terms. While some of these restrictions were 
indeed imposed through Congressional withdrawals or executive orders, 
an examination of the study's findings demonstrates that the vast 
majority of the limitations upon access to these resources were 
implemented through the land use planning process. Once these areas are 
placed off limits, these decisions are rarely altered or revisited, 
leaving the resources inaccessible, or with limitations that may render 
the resource uneconomic. If this is the model, from a federal energy 
access perspective, this is highly disconcerting.

New OCS Data is Needed Before Coastal and Marine Spatial Planning Moves 
        Forward
    Finally, we anticipate that coastal and marine spatial planning may 
result in decisions being made about setting significant areas of the 
OCS off limits to future access without the benefit of knowing what oil 
and natural gas resources lie underneath those areas. Language included 
in Section 2 of the EO indicates that the best available science and 
knowledge is to be used to inform decisions affecting the oceans. Due 
to federal limitations on the activities necessary to collect new data, 
the only available seismic based data, other than in areas of the 
Western and Central Gulf of Mexico and some areas of Alaska, is 
approximately 30 years old. New technological methods are now available 
that might give us a much better view of the potential for oil and gas 
development, yet the EO directs implementation of coastal and marine 
spatial planning without the benefit of this knowledge. While, of 
course, the only fully precise measure of oil and gas potential is 
actual exploration, it should be noted that in the mid-eighties, many 
felt that that Gulf of Mexico had reached its oil and gas potential. 
However, due to new technology and the entrepreneurial spirit of many 
NOIA members, actual production and verified resources are now at least 
more than five times as much as those decades' old resource estimates. 
While no one can predict similar results in the rest of the OCS, the 
premature zoning out of oil and gas development will place that 
potential off the table. It would be very shortsighted to make planning 
decisions without the benefit of new data. At a minimum, new geological 
and geophysical data should to be obtained before conducting any 
planning decisions that may place these areas off limits to future 
access.
    In addition, due to the lifting of both Congressional and Executive 
oil and gas exploration moratoriums, nearly all of the OCS may be made 
available for oil and gas exploration if first approved either through 
the OCSLA five year planning process or through further Congressional 
action. It is hard to envision a zoning process implemented through EO 
13547 that would maintain that current status. The end result may very 
well be de-facto exploration moratoria established by regional 
committees and not through direct Presidential or Congressional action.

Conclusion
    NOIA believes there are ample policy and statutory tools to ensure 
that ocean resources are conserved and protected and that potential 
conflicts are managed without imposing a cumbersome new layer of 
federal bureaucracy upon an already time intensive and uncertain 
regulatory process. We believe it is difficult to move ahead with a 
process such as this while also expecting that companies are going to 
be in the position to restore lost jobs and add new ones.
    Over the years, this committee, and Congress as a whole have worked 
to promote healthy oceans and safe energy development through the 
passage of several statutes, including OCSLA and CZMA. I encourage 
members of Congress to carefully review the language, intent and 
implementation of EO 13547. We believe that this goes too far, too 
soon, and adds too much uncertainty. Further review and revision are 
desperately needed before implementation proceeds any further.
    We believe that a suspension in implementation of this policy until 
such time as the public, the industry, relevant agencies, and the 
Congress have had the time to openly and fully study and discuss the 
initiative and its potential impacts would be the prudent course of 
action. In the event that the administration insists on moving forward 
with implementation of this particular policy--either now or after a 
recommended suspension, we support the idea that a pilot project in 
just one of the regions would be preferable and ensure a greater 
likelihood of meaningful stakeholder involvement and fewer unintended 
consequences.
    Thank you for the opportunity to be here today and I would be happy 
to answer any questions you may have for me.
                                 ______
                                 
    The Chairman. Thank you very much, Mr. Luthi. And now I 
will recognize Mr. Michael Conathan, the Director of Ocean 
Policy for the Center for American Progress, and you are 
recognized for five minutes.

          STATEMENT OF MICHAEL CONATHAN, DIRECTOR OF 
           OCEAN POLICY, CENTER FOR AMERICAN PROGRESS

    Mr. Conathan. Thank you. Good morning, Chairman Hastings--
good afternoon I suppose--Ranking Member Markey and Members of 
the Committee. I want to thank you for the opportunity to 
testify before you today and to address the implications of the 
Executive Order establishing a national ocean policy.
    My name is Michael Conathan, and I serve as the Director of 
Ocean Policy at the Center for American Progress Action Fund. 
CAP's ocean program focuses on supporting science-based 
policies and finding solutions that balance the socioeconomic 
and environmental needs of Americans and our ocean and coastal 
space.
    America's Exclusive Economic Zone extending out to 200 
miles from our shores is the largest in the world and covers an 
area greater than our nation's entire land mass. This presents 
us with both a tremendous economic opportunity and a daunting 
regulatory challenge. The National Ocean Policy, which has its 
roots in the 2004 report of the bipartisan U.S. Commission on 
Ocean Policy, addresses this challenge through the 
establishment of the nine priority areas to guide our use and 
conservation of this vast resource.
    Just as the ocean is a dynamic place, the principles by 
which we manage it and the industries that rely on it must also 
adapt to changing times. As coastal populations increase and 
new uses of ocean space emerge, conflicts inevitably arise. We 
as a nation must develop a means of balancing and prioritizing 
these uses to provide the greatest benefit to our society, our 
economy and our environment.
    Emerging industries are a reality of the modern world, and 
by participating in a comprehensive ocean planning process, 
industries like fishing, energy and shipping can ensure their 
voices are heard and their needs are met. If you don't play, 
you can't win.
    The offshore wind industry provides the most obvious case 
study for the potential effectiveness of comprehensive ocean 
planning, also known as coastal and marine spatial planning. 
Offshore wind is a rapidly growing piece of the energy picture 
in other parts of the world. European countries already have 
installed nearly 3,000 megawatts of offshore wind farms, and 
Europe and China combined have permitted more than 40,000 
megawatts.
    Meanwhile, the United States has permitted just 488 
megawatts and begun construction on exactly zero. This has cost 
the United States the opportunity to establish itself as a 
world leader in this industry, reduce our dependence on foreign 
oil, cut emissions that contribute to global climate change and 
jumpstart a new employment engine for our coastal communities.
    Cape Wind Associates, the company that over a decade ago 
began efforts to build America's first wind farm, offshore wind 
farm, estimates that construction of its 420-megawatt project 
will generate between 600 and 1,000 jobs during the 
construction phase alone. These numbers are not a pipe dream. 
Earlier this year a BBC report detailed how a single 150-
megawatt wind farm in the United Kingdom, barely one-third the 
size of Cape Wind's proposal, resulted in the creation of more 
than 800 job-years.
    Fishermen meanwhile are understandably concerned about the 
potential effect of offshore wind turbines on fishing grounds. 
Turbine arrays may result in de facto no fishing areas for 
certain kinds of mobile commercial fishing gear such as trawls 
or scallop dredges. In Massachusetts, after proposing a wind 
energy leasing area south of Nantucket, the Department of the 
Interior reduced the size of this proposal by nearly 50 percent 
after hearing the concerns of New England's profitable scallop 
industry.
    Interior's plan for offshore wind permitting, known as 
Smart from the Start, provides an excellent spring board for 
the principles of ocean planning. But to be truly smart from 
the start will require greater coordination with potentially 
conflicting industries before the lines are drawn on a map.
    Comprehensive ocean planning has also been implemented 
successfully at the State level, including in the home states 
of both the Chairman and Ranking Member of this Committee. But 
there is no one-size-fits-all approach. These programs take 
different tacks to meet the needs of different regions. The 
NOP's call for regional plans will allow sufficient flexibility 
for different areas of the country to establish and promote 
their own priorities.
    To be clear, the comprehensiveness of this structure refers 
to the industries involved and the activities involved, not to 
the geographic scope. This is not zoning of every inch of our 
more than 4 million square miles of Exclusive Economic Zone. It 
is an assurance that 21st century priorities will lead to 
balancing the economic and environmental value of our ocean 
resources now and into the future.
    We can either continue blindly on with single-use decisions 
that leave America's developing ocean industries farther behind 
their international counterparts, that harm our environmental 
resources and fail to acknowledge the cumulative effects, or we 
can think bigger and think better.
    President Obama's National Ocean Policy recognizes that now 
is the time for common sense and partnership, not nonsense and 
partisanship as we determine how to manage our invaluable 
oceans, coasts, and Great Lakes. Once again, Mr. Chairman, I 
want to thank you for the opportunity to appear before the 
Committee today, and I look forward to answering any questions 
you may have.
    [The prepared statement of Mr. Conathan follows:]

       Statement of Michael Conathan, Director of Ocean Policy, 
                      Center for American Progress

    Good morning Chairman Hastings, Ranking Member Markey, and members 
of the Committee. I want to thank you for the opportunity to testify 
before you today to address the implications of the Executive Order 
establishing a National Ocean Policy. My name is Michael Conathan, and 
I serve as the Director of Ocean Policy at the Center for American 
Progress. CAP's ocean program focuses on supporting science-based 
policies and finding solutions that balance the socioeconomic and 
environmental needs of Americans and our ocean and coastal space.
    In 2004, the bipartisan U.S. Commission on Ocean Policy released 
its final report, ``An Ocean Blueprint.'' This report, commissioned by 
a Republican-led Congress and written by a panel of experts appointed 
by President George W. Bush, included a lynchpin recommendation that 
the president ``begin immediately to implement a national ocean policy 
by establishing the [National Ocean Council]... through an executive 
order.'' The report went on to suggest that the NOC work with all tiers 
of government, the private sector, nongovernmental organizations, and 
academia to create regional ocean councils to implement the national 
ocean policy at a regional scale.
    The previous year, an independent report issued by the Pew Ocean 
Commission chaired by current Secretary of Defense, Leon Panetta, also 
called out the need to better integrate federal agency oversight of 
ocean space via implementation of a national ocean policy establishing 
a framework to ``reflect an understanding of the land-sea connection 
and and organize institutions and forums. . .[which] must be 
accessible, inclusive, and accountable. Decisions should be founded 
upon the best available science and flow from processes that are 
equitable, transparent, and collaborative.''
    In July 2009, President Barack Obama answered this call by 
announcing the first National Ocean Policy and the creation of a 
National Ocean Council tasked with its implementation, pursuant to 
Executive Order 13547. Subsequently, the panel issued a list of nine 
priorities for management of our oceans, coasts, and the Great Lakes. 
Among these priorities is the concept of comprehensive ocean planning, 
or coastal and marine spatial planning. This concept recognizes that as 
new potential uses of ocean space become increasingly viable, our 
exclusive economic zone--the area of ocean space extending out to 200 
miles from our shores--will grow more crowded. Thus, in order to ensure 
efficient prioritization of both new and existing uses and to reduce 
conflicts, managers must solicit input from a diverse group of 
stakeholders up front rather than allowing a first-come, first-served 
land grab mentality to dictate how our invaluable ocean resources will 
be allocated. Absent such an initiative, the status quo provides a 
cart-before-the-horse approach that reduces certainty, impedes the 
likelihood of private investment, fails to adequately protect existing 
uses including fisheries and recreation, and delays appropriate, 
beneficial development with an endless stream of lawsuits.
    As Congressman Markey noted in his opening statement at this 
Committee's last hearing on the National Ocean Policy on October 4, 
2011, planning is a fundamental, necessary part of organizing an 
efficient society. As coastal populations increase, and new uses of 
ocean space emerge, conflicts will inevitably arise, and we as a nation 
must develop a means of predicting and resolving those conflicts if we 
want to maximize economic efficiency from our oceans while safeguarding 
the health and vitality of the marine environment. Doing so will 
require coordination and conversation--bringing a diverse group of 
voices to the table, representing all potential uses of ocean space, to 
determine the highest and best of our nation's last frontier. In 
addition, it will provide the added benefit of improving the science 
used to support management decisions.
    Contrary to attempts to color the policy as restrictive ``ocean 
zoning,'' a comprehensive, collaborative approach to managing our ocean 
resources will help prevent multi-use conflicts, increase efficiency, 
and ensure ocean economies continue to support American jobs and a high 
quality of life. The National Ocean Council should be given the 
necessary logistical and financial support to implement the National 
Ocean Policy for the benefit of American jobs, economic growth, and 
security. Scare tactics and insinuations of doomsday scenarios will 
only force us into an entrenched, cloistered process that fails to 
acknowledge the reality that as ocean space becomes more crowded, we 
will need to accommodate more uses and more users.

The National Ocean Policy will increase government efficiency and 
        enable sound management of public resources
    A June 2011 report by the nonpartisan Joint Ocean Commission, 
comprised of members of both the Pew and U.S. Ocean Commissions, 
expressed strong ongoing support for comprehensive ocean planning and 
the National Ocean Policy, stating, ``the current sector-by-sector 
management system is incapable of providing the integrated, 
comprehensive, and flexible approach needed to ensure that conflicts 
among proposed uses are minimized and potential benefits enhanced.''
    In fact, strategic planning maximizes organizational efficiency and 
use of taxpayer dollars. Contrary to the false depiction of the 
National Ocean Policy as excessive government regulation, it will bring 
all interested parties to the table before key management decisions are 
made. This will improve opportunities for industry, communities, 
nongovernmental organizations, and citizens to participate in the 
planning process and facilitate sustainable economic growth by 
providing transparency and predictability for economic investments. The 
alternative is allowing developers of individual projects to drive the 
regulatory process without adequate guidance from regulators or input 
from alternate stakeholders, a process that has been shown to lead to a 
seemingly endless string of lawsuits, political quagmires, and a 
poisonous investment climate.
    There is no better example of the inefficiencies inherent in the 
piecemeal system than the offshore wind industry. Offshore wind is a 
viable and rapidly growing piece of the energy picture in other parts 
of the world. Today, European countries have installed nearly 3,000 
megawatts of offshore wind facilities, and Europe and China combined 
have permitted more than 40,000 megawatts of wind turbines in their 
oceans. The United States has permitted exactly 488 megawatts, and we 
have yet to break ground on our first turbine.
    Over a decade ago, Cape Wind Associates announced its intention to 
construct America's first offshore wind farm in the waters of Nantucket 
Sound between Cape Cod and the islands of Marthas Vineyard and 
Nantucket. This single project, which has the potential to generate 
enough electricity to meet 75% of the electricity demands of the Cape 
and Islands, has endured a litany of reviews and challenges from the 
U.S. Army Corps of Engineers, the U.S. Coast Guard, the Federal 
Aviation Administration, the Minerals Management Service (now the 
Bureau of Ocean Energy Management, Regulation, and Enforcement, or 
BOEMRE), and other agencies. Finally, in April of this year following 
more than 10 years of review, the Department of Interior finally issued 
permits and approval of its construction plan, officially giving Cape 
Wind the go-ahead to begin building America's first offshore wind farm. 
Less than two weeks later the Department of Energy informed the 
developer that the project's application for a loan guarantee had been 
put on hold.
    Businesses simply will not invest in this industry until these 
issues are resolved. And until that investment comes, the employment 
opportunities these projects represent--in engineering, manufacturing, 
construction, transportation, maintenance, and other categories--will 
not be created. Cape Wind estimates that construction of its 420 
megawatt wind farm will create between 600 and 1,000 jobs during the 
construction phase. These numbers are not a pipe dream. Earlier this 
year, the BBC put out a report detailing the number of jobs created by 
construction of a single 150 megawatt wind farm--barely one third the 
size of Cape Wind's proposal. The installation phase alone resulted in 
the creation of more than 800 job years. Furthermore, the Department of 
Energy has predicted that the build out of 54 gigawatts of offshore 
wind by 2030 would result in the creation of 40,000 American jobs.
    Independent aribters have also pointed out that comprehensive ocean 
planning should be used to improve the permitting process for offshore 
oil and gas development. The final report of the BP Commission convened 
in the aftermath of the 2010 Deepwater Horizon oil disaster, and co-
chaired by former Senator Bob Graham and former EPA Administrator 
William Reilly recommended regulators ``better balance the myriad 
economic and environmental interests concentrated in the Gulf region. . 
.[and] include improved monitoring and increased use of sophisticated 
tools like coastal and marine spatial planning.''
Comprehensive ocean planning is already working
    Under the current administration, the Department of Interior has 
acknowledged both the opportunity America is missing by failing to 
develop offshore wind energy in our exclusive economic zone, and the 
role comprehensive ocean planning can play in allowing us to tap into 
that resource and catch up to the rest of the world. As BOEMRE has 
looked to facilitate appropriate development of offshore wind farms 
along the Atlantic seaboard, it has instituted a process known as 
``Smart from the Start'' to streamline offshore wind permitting. 
Instead of waiting for developers to request permitting, this program 
is in the process of designating wind energy areas in federal waters in 
the northeast and mid-Atlantic. Estimates are that this process can 
shave at least two years off the permitting timeline. BOEMRE has taken 
input from other federal agencies and local stakeholders while 
designating these areas, and amended their initial proposals--reducing 
the size of the area proposed to be opened for development off the 
coast of Massachusetts by nearly 50 percent after receiving input from 
the fishing industry.
    Developers are already queuing up to tap into the clean energy 
potential that lies just off our shores. Since identifying wind energy 
areas, or WEAs where leases would be initiated off the New England and 
mid-Atlantic coasts, BOEMRE has received dozens of expressions of 
interest from groups wanting to lease parts of these spaces. Yet, in 
what is becoming a troubling yet telling trend, recently many of these 
applications have come from subsidiaries of foreign companies with 
experience developing offshore wind energy in other countries. These 
groups see the potential in the U.S. market, and are relying on 
existing expertise to give them a leg up on their American 
counterparts. When it comes to offshore wind, the U.S. is already late 
to the party, but establishing WEAs through a comprehensive ocean 
planning process is one way to help us catch up.
    Comprehensive ocean planning has also been implemented successfully 
in several states, including Massachusetts, Rhode Island, and Oregon. 
These states have taken proactive steps to identify areas most suitable 
for various commercial and recreational uses of ocean space, including 
fishing, energy development, sand and gravel mining, shipping traffic, 
conservation, recreation and other activities. These efforts ensure the 
relative benefits of each action are considered and prioritized to meet 
economic, environmental, security, and social goals. The Washington 
State legislature overwhelmingly passed a law with vast bipartisan 
support that will initiate an ocean planning process in its state 
waters as well.
    In addition, the process is working at a regional scale. Following 
on their in-state work, Rhode Island and Massachusetts cooperated on a 
landmark agreement for the development of offshore wind energy across 
the boundary of their state waters. Announcing the agreement, former 
Rhode Island governor, Republican Don Carcieri, said, ``The shared 
waters between Rhode Island and Massachusetts hold the key to the 
future of offshore wind developments along the East Coast and the 
country. It is in the best interest for both states to work together to 
expedite the federal permitting process through this collaborative 
effort. We share mutual interests in developing offshore wind projects, 
bringing greater economic development activity and economic security to 
the region.''

The National Ocean Policy will preserve the health of our oceans and 
        the local economies they support
    In addition to supporting comprehensive ocean planning, the 
National Ocean Policy contains eight other national priority 
objectives, including the establishment of a science-based strategy to 
align conservation and restoration goals at federal, state, tribal, 
local, and regional levels and the strengthening and integration of 
federal and nonfederal ocean observing systems and data management into 
one national system, to then be integrated into international 
observation efforts.
    According to the National Ocean Economics Program, our oceans, 
coasts, and Great Lakes are critical components of our nation's 
economy. U.S. coastal counties are home to more than half of all 
Americans, generate an estimated $8 trillion per year, and support 69 
million jobs.
    In Florida, for example, a report prepared by the National Ocean 
Economics Program for Florida's Ocean and Coastal Council showed that 
Tourism, recreation, and fishing contributed $18.9 billion to Florida's 
GDP in 2005. In addition to the benefits the entire nation will reap 
from implementation of the nine priority objectives in the National 
Ocean Policy, Florida's coast is particularly vulnerable to sea level 
rise as a result of global climate change, and its reefs are at 
significant risk from ocean warming and acidification. The NOP's goals 
include strengthening resiliency of coastal communities to these 
threats.
    The Joint Ocean Commission Initiative found that in California, as 
of 2007 more than 85 percent of gross domestic product and nearly 12 
million jobs came from economic activity in these coastal estuarine 
areas. California's state government has prioritized ocean conservation 
and has used the concept of COP in implementation of the Marine Life 
Protection Act, which used stakeholder input to develop the boundaries 
of marine protected areas within its state waters.
    And in Michigan, a state deeply affected by the economic downturn, 
15 percent of all jobs are associated with the Great Lakes, and they 
make up 23 percent of the total payroll, according to Michigan's Sea 
Grant program. While some would imply that the administration is over-
reaching its authority by extending ocean policy to the Great Lakes, 
the core missions of the National Oceanic and Atmospheric 
Administration, BOEMRE, and other federal agencies with oversight of 
ocean activities already encompass the Great Lakes. This is appropriate 
as activities on the Lakes, including fishing, boating, shipping, and 
energy development, are equivalent to their maritime counterparts.
    Comprehensive ocean planning will further ensure the stability of 
the nation's seaports as additional uses of ocean space evolve. This is 
of utmost importance to the entire country. Again, according to the 
Joint Ocean Commission Initiative, the value of imports through U.S. 
ports was almost $2 trillion in 2010, and in 2008 commercial ports 
supported 13 million U.S. jobs. Ports that accommodate oceangoing 
vessels move 99.5 percent of U.S. overseas trade by volume and 64 
percent by value, and compared to 2001 total freight moving through 
U.S. ports is expected to increase by more than 50 percent by 2020.
    Declining ocean health and a lack of effective coordination among 
regional groups, states, and federal bodies is putting this great 
economic engine at risk. Wise investment in the future of our oceans 
will provide a tune-up for our marine economic engine that will keep it 
running smoothly for future generations. On the other hand, failing to 
address these inadequacies will lead to increasing inefficiencies and 
systemic break downs.

National Ocean Policy answers a national security imperative
    Finally, leadership at the highest levels of our nation's ocean 
security forces is united in their support for the National Ocean 
Policy and comprehensive ocean planning. In 2009, Admiral Thad Allen, 
then Commandant of the United States Coast Guard testified before the 
U.S. Senate Committee on Commerce, Science, and Transportation that, 
``A new national ocean policy, especially as it creates a unified 
framework for effective coastal and marine spatial planning, is 
critical to the nation and to the ability of the Coast Guard to execute 
its mission.'' He went on to emphasize that planning would ``better 
address the `gaps' in current ocean management regimes and better 
manage ocean uses. This will allow the Coast Guard to more effectively 
execute its many missions in support of safety, security, and 
stewardship in our ocean and coastal waters.''
    Admiral Allen's successor as Commandant, Admiral Robert Papp, has 
continued this support for comprehensive ocean planning and the 
National Ocean Policy, stating in 2010 that the final recommendations 
of the Ocean Policy Task Force, ``provide a balance between protecting 
and preserving the marine environment, and promoting economic progress. 
The framework protects the interests of all users, improves ocean 
stewardship, and provides the foundation for improving maritime 
governance at the international, regional, state, and local levels.''
    Voicing the U.S. Navy's support for the president's Ocean Policy 
Task Force, Rear Admiral Herman Shelanski emphasized, ``The U.S. Navy 
is committed to being responsible stewards of the environment. As such, 
we understand the importance of developing a new national ocean 
policy--one that includes ecosystem-based coastal and marine spatial 
planning and management in the United States. . ..We also believe such 
management should be balanced to maintain and enhance multiple ocean 
uses, including those that contribute to our nation's security and 
global stability.''

Coordination begets efficiency; its absence leads to chaos
    America's exclusive economic zone, the biggest in the world, 
presents a unique regulatory and environmental challenge but also a 
tremendous economic opportunity. We have seen how the policies of the 
past--a first-come, first-served gold rush approach--lead to chaos and 
delay. Lack of certainty leads to a lack of financing. A lack of 
financing means a lack of economic growth. And a lack of growth means a 
lack of jobs. Until we create and implement a process that brings all 
stakeholders to the table to air grievances and develop solutions, we 
will continue to stagger along in a series of fits, starts, and 
lawsuits that will leave America's ocean industries falling farther 
behind our international counterparts, and adversely affect our 
environmental resources.
    The National Ocean Policy recognizes that now is the time for 
common sense and partnership, not nonsense and partisanship as we 
determine how to manage our invaluable oceans, coasts, and Great Lakes. 
Support for the National Ocean Policy is support for the future of 
America's maritime industries and our marine environment.
    Once again, I thank you for the opportunity to appear before the 
Committee today and I look forward to answering any questions you may 
have.
                                 ______
                                 
    The Chairman. Thank you very much, Mr. Conathan, and thank 
you, all three of you, for your testimony. I will begin. I just 
have a couple of questions.
    Mr. Conathan, you referenced this in your statement right 
toward the end of your statement, and it has been referenced 
several times by Members of the Committee, as I did in my 
opening statement about the States that have developed their 
own initiative. Let me be a bit parochial, and that is that 
Washington State that you alluded to has enacted legislation 
concerning marine spatial planning off their coast.
    But a key component of that State law is that it protects 
existing uses, and it promotes activities and provides for 
economic opportunity, and it specifically recognizes, 
specifically recognizes, commercial and recreational fishing. 
You have heard the give and take up here. The last hearing we 
had on that at least seems to be the perception of that being 
otherwise. And let me be just kind of more specific. This 
Federal initiative appears to place ocean ecosystem health and 
biodiversity among all of economic activities. Now do you think 
that is the correct balance given the initiative some of the 
States have taken, including mine?
    Mr. Conathan. Well, first of all, I think commercial 
fishing has to be a priority of the use as well as recreational 
fishing, have to be priorities for our use of ocean space. They 
are among the oldest users of the ocean. They have the longest 
tenure. And there are perhaps more participants in those 
activities than any other.
    So there is certainly a place for those activities, and 
they must remain active in our ocean space. I believe the 
National Ocean Policy and the concept of spatial planning must 
also give adequate voice to those industries going forward and 
ensure that their voices are heard, that the representatives of 
the fishing industry, whether they be from the general public 
or from the Fishery Management Councils, have an adequate 
opportunity to comment on the plans as they are developed.
    The Chairman. Which leads then to a followup on the line of 
questioning that Mr. Southerland had where here is a State that 
is very specific and here this Executive Order gives new 
authority for regulations. There seems to be a conflict. Now we 
will be obviously follow up with Panel I to be more specific, 
but that does seem to raise a concern, notwithstanding the fact 
that you say that fishing, recreational or commercial, should 
be at a high level. Is that a fair assessment given the 
interchange between Mr. Southerland and Panel I?
    Mr. Conathan. I don't see that as a conflict. I believe the 
regional planning bodies and the Federal level National Ocean 
Council are intended, as the previous panel alluded to, to 
gather information and convey that information to the decision-
makers at the Federal level.
    The Chairman. Well, I have one more question here. I just 
simply want to say the interchange between Mr. Southerland and 
the first panel did not clarify that in any way at least from 
this Member's perspective.
    Along that same line, Mr. Donofrio, you expressed concern 
about adequate funding for fisheries management, and I alluded 
to this in my last statement about how this is going to be 
funded. Give me your impression on what would happen if you 
don't feel there is enough for NOAA to adequately manage fish. 
How is that going to sink in with this Executive Order, Mr. 
Donofrio?
    Mr. Donofrio. Thank you, Mr. Chair. Apparently NOAA claims 
they don't have enough money to do stock assessments on the 
species they manage. Now right now we have boats tied to the 
dock in different fisheries. Now these are rebuilt fisheries. 
These are not fisheries that are overfishing or being on a 
decline. These are fisheries that are healthy--black sea bass 
for one. That is one we have people sitting in Mr. Runyan's 
district. They are tied to the dock. They have nothing else to 
fish for right now.
    This is because of interpretations. NOAA, they can't 
interpret anything. They couldn't run a kindergarten 
playground, and they are trying to keep people on the water. I 
don't believe anything they are trying to do here. This is 
going to hurt us. This is going to hurt us.
    Right now we don't have a data collection program that 
Congress mandated in the 2007 reauthorization for marine 
recreational statistics, right, the new MRIP program. They are 
still using the MRFSS data, and they are shutting down 
fisheries based on the MRFSS data. Yet in a lawsuit that we 
filed against NOAA and lost, NOAA lied to the judge because 
they can lie in an administrative court. It is not perjury 
because they don't have to take an oath. There is no 
deposition. They told the judge we are not using MRFSS data 
anymore. That is what they told the judge. So they lied to the 
judge. Yet they are keeping us at the dock based on MRFSS data.
    The Chairman. So it is fair to say that with the shift of 
funds when they can't adequately fund what they are doing right 
now is a problem.
    Mr. Donofrio. Big problem, sir.
    The Chairman. Big problem, all right.
    Mr. Donofrio. Thank you.
    The Chairman. The Chair recognizes the gentleman from 
Massachusetts, Mr. Markey.
    Mr. Markey. Thank you, Mr. Chairman, very much. The 
National Ocean Policy put into place by President Obama's 
Executive Order is essentially the implementation of the 
recommendations made by the bipartisan and independent U.S. 
Commission on Ocean Policy in 2004 whose members were all 
appointed by President Bush.
    Back then Republicans didn't seem so scared of these policy 
recommendations. In fact, in a letter dated June 4, 2004, in 
response to the commission's recommendations, then-Governor 
Mitt Romney of Massachusetts, who in my opinion is probably 
going to be the Republican nominee for President, although it 
is difficult for me to get inside the internal workings of the 
cerebral mechanisms of Republican primary voters, but it 
appears if contemporaneous polling still bears out over the 
next several months that that could very well be the case, let 
me just tell you what future nominee Romney said.
    He said, ``The report and recommendations taken as a whole 
clearly map out a new strategy for Federal, regional, and State 
ocean resource management that I strongly support. I believe 
that we are at a critical juncture in ocean management and must 
take decisive action by moving forward expeditiously on 
implementing the recommendations in your report.''
    You know, so my mother always said that, Eddie, you should 
always try to work smarter, not harder. It is better that way, 
you know. And that is really what the National Ocean Policy 
will do. It will coordinate the existing laws and regulations, 
and on its own the national policy will not create any new 
regulations but will provide a venue for any new regulations 
created by existing laws or any new laws Congress might choose 
to pass.
    So you might actually wind up with fewer regulations. You 
might wind up with an absence of conflicting regulations 
because there is coordination. So the ``O. Henry'' ending, the 
reverse political takedown is that the goal of all of this is 
to actually reduce regulations. It is to ensure that there is 
better coordination. It is to ensure that there is not 
duplication. It is to ensure that there isn't more red tape for 
people to complain about. Instead of having all of these 
separate fiefdoms out there, everyone comes together and only 
the regulations that are really needed and coordinated are put 
on the books.
    So it is just the opposite of course of what is being 
argued here because to a certain extent there aren't many 
interests that have a stake in the continuation of the 
balkanized world within which we now work. But the goal of the 
Democrats is to reduce the bureaucracy, reduce the amount of 
regulation, reduce the duplication, reduce the separate 
agencies all working oftentimes at cross purposes with each 
other. That is our goal as Democrats rather than something that 
leads to this proliferation of regulations.
    And I praise President Bush for implementing that. I 
embrace President Bush's goals on this. And I reject out of 
hand any arguments made by Republicans that President Bush is 
now old hat and we shouldn't be listening to him and his 
advice. I say we embrace President Bush, we embrace his goal 
for the oceans, OK. And God knows, he did support Outer 
Continental Shelf drilling, OK? I don't think there is any 
question about that. By the way, also wind. You know, he put on 
the books the strongest wind regulations in the State of Texas 
as well.
    Mr. Conathan, in these difficult fiscal times, with budgets 
being cut, how does money for the National Ocean Policy 
represent a wise and efficient use of limited funds, including 
enhancing business certainty?
    Mr. Conathan. Well, thanks for the question, Congressman 
Markey. And I won't add my own personal Massachusetts accent to 
the conversation, but I would----
    Mr. Markey. Are you from Maine, sir?
    Mr. Conathan. No. I am from Cape Cod actually.
    Mr. Markey. Cape Cod, ah.
    Mr. Conathan. I will leave that aside for the moment. 
Investment in the National Ocean Policy is ultimately an 
investment, as I alluded to in my testimony, to developing new 
industries in our offshore space. I held up the offshore wind 
industry as a prime example, and clearly this is an industry 
that is commercially viable. The rest of the world is far ahead 
of us in this endeavor. But the biggest obstacles to permitting 
for offshore wind in this country have come from precisely the 
balkanized agencies that you alluded to moments ago.
    Mr. Markey. Well, let me ask you this question. How do you 
think the concerns of the recreational and commercial fishermen 
can be dealt with with better coordination?
    Mr. Conathan. Well, I think the fishing industries, both 
recreational and commercial, have to acknowledge that ocean 
space is going to become more crowded in the future. And they 
can either be at the table to have the conversation about where 
the most appropriate places for that development are, or they 
can be left on the sidelines and be left out of the 
conversation. So I think this kind of coordinated policy at a 
Federal, at a regional, and as we have seen in some cases, at a 
State and even local level will really provide the 
opportunities for them to be contributors to the process.
    Mr. Markey. Without better coordination, without better 
ultimately implementation, what are the chances of U.S. wind 
industry becoming competitive with our global competitors?
    Mr. Conathan. It is hard to speculate, but I think given 
the track record that we have seen to date, it doesn't look 
good. We may get a few projects in place here and there. I know 
New Jersey is look at some projects in State waters. Texas is 
looking at some projects in State waters. These may be able to 
move forward in the absence of an overarching Federal policy, 
but in terms of catching up to the rest of the world and 
creating the broader scope industries, the manufacturing base, 
the technology base, the research base, it won't happen in the 
absence of these policies.
    Mr. Markey. OK. Thank you, Mr. Chairman.
    The Chairman. Thank you. Before recognizing Mr. Flores, I 
want to respond to my good friend from Massachusetts. And I 
recognize it is hard for him to get into the head of a 
Republican voter. Likewise, it is hard for a Republican to get 
into the head of a Democrat voter. And, frankly, that is one of 
the reasons we are having this hearing, trying to understand at 
least that process.
    And second, since there is an epiphany from my good friend 
from Massachusetts on President Bush, let me right on what the 
recommendations of the ocean policy of the committee that he 
created on page 87, let me just read it verbatim. ``The 
National Ocean Council should work with Congress, the 
President's Council of Advisors on ocean policies and State, 
territorial, tribal, and local leaders, including 
representatives from the private sector, nongovernmental 
organizations, and academia to develop a flexible and voluntary 
process for the creation of regional ocean councils. States 
working with relevant stakeholders should use this process to 
establish regional ocean councils with support from the 
national ocean council.''
    That to me appears to be whatever conflict we have in all 
of this process. And with that, I recognize----
    Mr. Markey. Will the gentleman yield?
    The Chairman. I will be more than happy to yield to my 
friend.
    Mr. Markey. The key word there is voluntary, and this is 
voluntary. So I think you put your finger right on it, and it 
is the subject upon which we agree.
    The Chairman. Reclaiming my time, I am glad that we both 
recognize that. There seems to be a bit of a conflict, however, 
at least as to the exchange that we had with our good colleague 
from Florida on that. And if we ever get a definitive answer, 
we will be more than happy to share that with the world. Mr. 
Flores is recognized for five minutes.
    Mr. Flores. Thank you, Mr. Chairman. I have to say that in 
my opinion, the Executive Order is the illogical extension of 
President Bush's goals, and they have been taken way beyond 
what those were intended to be. And maybe it is because of the 
difference in the way different ideological brains are wired. 
But this to me doesn't look like it is going to create anything 
that is voluntary for anybody.
    It is hard for me to imagine that this is going to reduce 
and simplify regulations. I have never seen a government chart 
like this that does anything to make any American's lives 
better or to provide more jobs, a better economy or help reduce 
an out-of-control deficit.
    I have a question for Mr. Donofrio. Mr. Conathan just said 
that your industry was going to have a seat at the table. But 
the regional planning bodies don't have any stakeholder seats. 
So can you tell me how you are going to have a seat at the 
table, or have you had a seat at the table where your input has 
been heard?
    Mr. Donofrio. Thank you, sir. No, we haven't. And I want to 
make a comment regarding some of the comments Dr. Lubchenco 
made because consistent with this Administration, she was asked 
the question before about catch shares and then with this 
issue. She has thrown it back to the Council level. Even with 
this National Ocean Policy, she said, well, the Councils will 
be determining it.
    But she is not telling you that this Administration is the 
first one ever to also violate the spirit and the intent of 
Magnuson when it comes to appointees on the Council. For 
instance, if a Governor wanted someone to be a priority to 
serve on the Fishery Management Council, generally that 
Governor would get their person to get the seat, or if there 
was an incumbent that was serving, the incumbent would serve 
out his term or her term. Dr. Lubchenco's administration has 
been whacking people off the Councils and stacking them with 
their own people.
    Mr. Flores. Right.
    Mr. Donofrio. So of course she throws it back to the 
Council now and said, ``OK, the Councils are going to make the 
decision.''
    Mr. Flores. After she has populated the Councils.
    Mr. Donofrio. After they stacked it. This Administration is 
doing things like this.
    Mr. Flores. Let's be brief. There are other issues I would 
like to get into.
    Mr. Donofrio. Yes.
    Mr. Flores. Again, continuing with you, Mr. Donofrio, and 
short answers if you can. How many agencies have jurisdiction 
over your activities today roughly?
    Mr. Donofrio. Well, we have NOAA and then of course we have 
the international body, ICCAT, for highly migratory, and then 
there is some U.S. Fish and Wildlife and then tribes for our 
people on the West Coast that fish, you know, with salmonids.
    Mr. Flores. So, in the particular area of two, three, four 
agencies. Now, under this initiative, at the end of the day, 
you are going to be controlled by these bodies, and each of 
those have 27 Federal agencies involved plus some tribes and 
plus some States. So your life is not going to get any simpler, 
is it?
    Mr. Donofrio. More complicated, sir.
    Mr. Flores. For your constituents. OK.
    Mr. Donofrio. Much more complicated.
    Mr. Flores. That is what I thought. So we can dispel with 
this notion that it is going to make life better for the 
industries that currently use our oceans.
    Mr. Luthi, you have said that your constituent industries 
could produce more jobs if there were a more stable and certain 
regulatory environment. And in the draft programmatic 
environmental impact statement for the OCS leasing program from 
2012 to 2017, there is a section that states, and I quote, 
``CMS plans will be created and implemented at the regional 
level through stakeholder input. It is anticipated that the 
plans will serve as an overlay for decisions made under 
existing regulatory mandates. In effect, regional CMS plans 
once approved by the National Ocean Council will assist BOEMRE 
programmatic EIS statement, the EIS process in making informed 
decisions.''
    That sounds like OCS leasing programs might not occur in 
areas where the regional planning bodies have decided that oil 
and gas activity should not occur. In your opinion, does this 
improve the certainty for your constituent industries?
    Mr. Luthi. Thank you, Congressman. And certainly it 
doesn't. I mean, when you are looking at the overall regulatory 
process, and I don't pretend to be an expert, like many of you 
are, but it is certainly difficult to understand how an 
additional layer of Federal bureaucracy is actually going to 
improve the system.
    As we talk about the purpose of an executive order, which 
you mentioned, I mean, we keep hearing it is nothing new, we 
won't do anything new, no new laws, no new regulations. But, 
frankly, if you are going to be able to make crosscutting 
decisions to improve coordination, that is something that is 
going to change. It would require a statutory change, which is 
Congress's purview.
    Mr. Flores. OK. And I would like to get one last question. 
This is for each of you, Mr. Luthi and Mr. Donofrio. Your two 
industries are two of the largest industries using our oceans 
today. What conflicts do you all have between your industries 
today? Or just yes or no, do you have substantial conflict in 
your industries today that are going to require something like 
this to fix?
    Mr. Luthi. Certainly not. In fact, we just saw a study last 
week that there are probably 30,000 fish connected with each 
one of many platforms that are used in the Gulf of Mexico.
    Mr. Flores. Mr. Donofrio?
    Mr. Donofrio. Yes, sir. Our fishermen in the Gulf seem to 
like the platforms. Then we have people in the Mid-Atlantic 
that don't want any drilling. So it is a matter of region, sir.
    Mr. Flores. OK. So your industries aren't calling out for 
this.
    Mr. Donofrio. No, sir.
    Mr. Flores. OK, OK. Thank you very much. So much for 
stakeholder input.
    The Chairman. I thank the gentleman. The Chair recognizes 
the gentleman from New Jersey, Mr. Runyan.
    Mr. Runyan. Thank you, Mr. Chairman. And gentlemen, thank 
you for your testimony. Mr. Donofrio, good to see you again.
    No matter what we are talking about, whether we are talking 
about the ocean planning, fisheries, our economy, the American 
people want certainty and predictability. I don't think we are 
accomplishing this here, and obviously none of the stakeholders 
are asking for it. And the same way through the Executive 
Order. We are creating more of that. We don't know where we are 
going. And in an environment, whether our catch limits varying 
year to year are creating unpredictability, the top-down push 
that you were just referring to with the catch shares program 
that the Secretary denied that was being pressured.
    Mr. Donofrio, with all this uncertainty and all that, can 
you just kind of comment on the regulation and the burdens that 
are being put on by not only this Executive Order but many 
other regulations, what they are doing to the industry and the 
effect? I know you commented about the mom and pop shops, but 
there are many other aspects to this fishing industry that are 
affected by this type of regulation and these type of things. 
Could you kind of enlighten us on that?
    Mr. Donofrio. Yes, sir. Thank you, Mr. Runyan. As you 
probably heard from many of your constituents, especially in 
the Barnegat Light area, but this goes all the way down to Mr. 
Southerland's district. We have people sitting at the dock. 
They can't catch red snapper because the stock assessments and 
the data that NOAA has been using is flawed. We are literally 
tripping over red snapper, tripping over them. You can't go 
anywhere off the coast of Florida without limiting out in 
seconds.
    Mr. Runyan. I have seen the pictures of Mr. Southerland's 
family bringing them in actually.
    Mr. Donofrio. Yes. Bad data again. So we have bad 
regulations. We have NOAA not working within their own system 
there to fix anything. And now they are expecting us to buy 
this additional layer of bureaucracy with additional councils 
overseeing fishing. I can't imagine our fleet fishing anymore. 
I really can't. And I got to tell you the guys are really 
suffering.
    You have had one store close in your district in Barnegat 
Light, a tackle store, family owned. They have closed, and 
numerous ones along the coast are closing right now. We have 
party charter boats. If you look at the yellow sheet that is 
printed out at Tennessee, that is a journal, a commercial 
journal, for vessels, you will see a whole list of party 
charter boats for sale right now. They are disgusted with 
Federal regulations that are not allowing to fish on rebuilt 
stocks. And NOAA is not doing a thing about it. What they want 
to do is add more layers of bureaucracy and cost more money 
when they are not spending the money to keep us fishing 
currently.
    Mr. Runyan. But with that being said, I think you would 
agree, and I know talking to fishermen back home, that if we 
had solid science, we can't argue with it. We all want to be 
stewards of the ocean in that matter. But would you agree with, 
you know, your rank and file in your organization that if the 
science is there, you can't argue with it.
    Mr. Donofrio. That is right. You can't argue with the 
science. And then also we have to fix some of the arbitrary 
deadlines that are in Magnuson. In fact, Dr. Lubchenco admitted 
this to Senator Brown at a hearing up in Massachusetts. She 
admitted that the ten-year rebuilding plan was arbitrary in 
nature. She went on the record with that. So this is a fight we 
have been trying to make for years to get the arbitrary nature 
out of the regulations, base fishing on science, and let's go 
fishing.
    We are the best stewards. Commercial and recreational 
fishermen are the best stewards. We want fishing for the long-
term, for our families, our friends and our businesses.
    Mr. Runyan. Thank you very much. And, Chairman, I yield 
back.
    Mr. Donofrio. Thank you.
    The Chairman. The gentleman yields back. Any closing 
comments from the Ranking Member?
    Mr. Markey. No, except I really enjoyed this hearing, and I 
want to compliment the Majority on the witnesses that were 
selected.
    The Chairman. All right. Thank you, Mr. Markey. Members of 
the Committee may have additional questions for the record, and 
I ask you to respond to these in writing. If there is no other 
business, without objection, the Committee stands adjourned.
    [Whereupon, at 12:36 p.m., the Committee was adjourned.]

    [Additional material submitted for the record follows:]

   Statement submitted for the record by the U.S. Department of the 
                                Interior

    The Department of the Interior appreciates the opportunity to 
address the Department's ocean-related responsibilities and its role in 
implementing the National Ocean Policy. The Department of the Interior 
has substantial interests in our Nation's ocean and coastal areas. 
These include both responsible and safe energy production and the 
conservation and management of coastal and marine resources, which 
provide economic and environmental benefits to our nation.

DEPARTMENT OF THE INTERIOR'S OCEAN ROLE
    The Department manages and conserves ocean and coastal lands and 
waters to protect native species and their habitats, provide 
recreational opportunities for the public, and ensure safe and 
responsible natural resource development. Department scientists conduct 
extensive ocean, coastal, and Great Lakes research and mapping to 
predict, assess, and manage impacts on coastal and marine environments. 
In collaboration with our partners, the Department integrates effective 
multiple-use management from upland ecosystems to deep oceanic waters.
    The 1.7 billion acres of the Outer Continental Shelf (OCS) that we 
manage are crucial to securing our energy independence through 
conventional and renewable energy development. The 35,000 miles of 
coastal lands and waters of the ocean and Great Lakes that we manage 
stretch across 35 States and territories and are of enormous 
recreational, biological, and cultural value to the Nation. Over 254 
National Park Units and National Wildlife Refuge Units spanning 34 
million acres of ocean and coast conserve and protect places where 
people connect with the ocean. These areas provide communities the 
ability to preserve their cultural heritage and economic livelihood. We 
also work with our insular areas to assist them in ensuring that the 
coral reefs on which their island communities depend will be there for 
future generations. Further, the Department co-Chairs the U.S. Coral 
Reef Task Force and provides millions of dollars each year to support 
coastal habitat protection and restoration.

DEPARTMENT OF THE INTERIOR AND THE NATIONAL OCEAN POLICY
    With the Department's interrelated responsibilities in the areas of 
energy, conservation, and science, we support the National Ocean Policy 
and its goals of increasing coordination, reducing inefficiency, and 
broadening the information base from which the nation forms its 
decisions and informs actions. So much of what we do at the Department 
contributes to our economic security and conservation of our natural 
resources, and what we do across the agency in the ocean shows why the 
Department is so actively involved in implementing the National Ocean 
Policy.
    The Department is a member of the National Ocean Council, and co-
chairs, with the National Oceanic and Atmospheric Administration 
(NOAA), the Ocean Resource Management Interagency Policy Committee, one 
of two secondary bodies that carry out the more day to day work of 
implementing the National Ocean Policy. We have contributed staff to 
all of the interagency teams developing strategic action plans to 
address the nine priority objectives under the National Ocean Policy, 
which we expect will be released for public comment in the near future. 
We have volunteered to be the lead Federal agency for one of the 
coastal and marine spatial planning regional planning bodies, and will 
participation in all nine planning regions. We are all working 
diligently together to implement the President's vision of an ``America 
whose stewardship ensures that the ocean, our coasts, and the Great 
Lakes are healthy and resilient, safe and productive, and understood 
and treasured so as to promote the well-being, prosperity, and security 
of present and future generations.''
    The Department's energy and conservation programs enable it to 
bring considerable expertise and resources to the implementation of the 
National Ocean Policy, and particularly to the priority areas for which 
we are now preparing strategic action plans. Management of the offshore 
energy program and our parks and refuges and other areas necessarily 
involves large-scale planning. The offshore 5-year oil and gas leasing 
program has plans and environmental studies that cover large marine 
areas, and will greatly benefit from coastal and marine spatial 
planning--but so will many of our other programs, including the Smart 
from the Start program.
    Without a more coordinated way of doing business, which is provided 
by the National Ocean Policy, Federal departments and agencies will 
continue to independently implement a maze of over 100 different laws, 
policies, and regulations related to the ocean, our coasts, and the 
Great Lakes. The National Ocean Policy, including coastal and marine 
spatial planning, is designed to replace the less efficient, less 
effective, and ad-hoc decision-making that now exists with a far more 
coordinated and effective approach to the management and protection of 
our coastal and marine environments and resources.
    For example, despite all of the Federal-State and interagency 
consultation we have established for our wind energy program under the 
Secretary's Smart from the Start initiative, all of these consultations 
are still just for one program. When NOAA seeks to engage in actions 
under their authorities, they need to go through their own consultation 
process; as does the Coast Guard for changes in shipping lanes and the 
Navy for setting aside training areas. The National Ocean Policy seeks 
to change that by establishing better coordination and consultation 
before the decisions are made.
    Implementation of the National Ocean Policy will expand that 
approach. It will be far more effective to have the Department, NOAA, 
the Navy, the Coast Guard, other agencies, States, and Tribes sitting 
down together when decisions are made on where and when coastal and 
marine activities are to be conducted than to continue the multitude of 
independently-conducted decision-making processes that now exist. This 
does not require or anticipate new authorities or regulations, or 
agencies surrendering their existing decision-making abilities. Nor 
does it expand Federal authority at the expense of States or tribes. 
Rather, coastal and marine spatial planning, like the other elements of 
the National Ocean Policy of which it is a part, will ensure a more 
effective way of using existing authorities to carry out the public's 
business.

OCEAN ENERGY DEVELOPMENT
    The Department of the Interior is responsible for energy and 
mineral production from OCS. Historically, the Department has worked 
with private industry to develop domestic oil and gas production. These 
activities will continue as they remain critical to our nation's energy 
supply, and to reducing our dependence on foreign oil. At the same 
time, the Department has also begun work to develop cleaner sources of 
energy, including renewable energy sources such as wind power.
    As part of reforming our approach to OCS activities, we signed a 
landmark memorandum of understanding (MOU) with the NOAA earlier this 
year to better ensure environmentally sound offshore energy 
development. Key elements of the MOU include meeting regularly to 
develop potential ways to appropriately align regulatory and decision-
making processes and identify the best available science to support 
future regulatory decisions; increased collaboration on oil spill 
exercises and response issues; and annually evaluating activities and 
progress related to National Ocean Policy objectives.
    DOI currently administers about 6,700 active oil and gas leases on 
36 million acres of the OCS; and oversees and regulates production from 
nearly 3,200 OCS facilities. These leases generate about 11 percent of 
our domestic natural gas and 29 percent of our domestic oil production. 
Energy and mineral production from offshore areas account for nearly 
$116 billion in economic benefits to our economy, and support over 
640,000 American jobs.
    Offshore wind energy is a major component of the Department's 
renewable energy plan. In keeping with this focus, and in line with our 
National Ocean Policy objectives and collaboration commitments, 
Secretary Salazar initiated the ``Smart from the Start'' initiative for 
wind development on the Atlantic OCS. This will facilitate and simplify 
our processes for siting and leasing commercial wind projects on the 
OCS, to encourage responsible development while ensuring projects are 
built in the right way and in the right places. ``Smart from the 
Start'' has three key elements: (1) simplified processes for 
commercial-wind-lease issuance; (2) Wind Energy Areas identified using 
sound science and transparent stakeholder engagement; and (3) 
proceeding on a parallel but separate track to evaluate offshore-
transmission-line proposals.
    To evaluate appropriate potential sites for future renewable-energy 
leasing and development, DOI's Bureau of Ocean Energy Management (BOEM) 
works very closely with state-based Intergovernmental Renewable Energy 
Task Forces. These task forces, which have been established in 11 
states (9 on the Atlantic Coast and 2 on the Pacific Coast) have been 
working for well over a year to collaborate on issues related to 
offshore wind development. The task forces include representatives from 
the respective states, local and tribal governments, and other Federal 
agencies.
    Last year, Secretary Salazar also joined with 11 Atlantic state 
governors to establish the Atlantic Offshore Wind Energy Consortium 
(AOWEC) to foster the unified effort to bring Atlantic offshore wind 
energy to market in an efficient and environmentally responsible 
manner. AOWEC working groups have been evaluating potential ways to 
further facilitate responsible offshore wind development.
    To ensure efficient and close coordination with other Federal 
agencies, Secretary Salazar also established the Atlantic Offshore Wind 
Interagency Working Group. This group, which is comprised of senior-
level representatives from numerous Federal agencies with equities in 
the OCS, will serve a vital role in collecting and sharing data about 
Wind Energy Areas and about offshore wind development generally.
    In February, Secretary Salazar and the Secretary of Energy, Steven 
Chu, announced a national offshore wind strategy. It outlines actions 
needed to deploy 10 gigawatts of new wind energy capacity from offshore 
sources--including state waters and the Great Lakes--by 2020, and 54 
gigawatts by 2030. The first Wind Energy Areas under Smart from the 
Start--on the OCS off Delaware, Maryland, New Jersey, and Virginia--
were also announced in February, and the Department hopes to begin 
offering leases in some of these areas by the end of the year. The 
identification of these areas occurred following extensive consultation 
with other Federal agencies and the state Intergovernmental task 
forces. BOEM is actively engaged in identifying potential Wind Energy 
Areas offshore Rhode Island, Massachusetts, and North Carolina.
    The Department is working to gather comprehensive data about these 
areas, and include that information in a publicly accessible database 
called the Multipurpose Marine Cadastre, which is being developed with 
our partners at NOAA, and is an input into the National Information 
Management System.

OCEAN SCIENCE AND CONSERVATION ACTIVITIES
    The Department's ocean role is not limited to energy. The National 
Ocean Policy emphasizes the critical role science serves in ensuring 
informed and comprehensive decision-making on the use and preservation 
of our marine lands, waters, and resources. The United States 
Geological Survey (USGS), one of the nation's premier science agencies, 
provides mapping, monitoring, and research that are essential to 
meeting the objectives of the Policy. USGS research and mapping 
provides the foundational characterization of our marine realm, 
allowing for assessment of marine energy and mineral-resource 
potential; the distribution and vulnerability of critical marine 
habitats; and the vulnerability of coastal communities, marine 
operations, and healthy ecosystems to natural hazards and environmental 
change. No other Federal agency brings the breadth of capabilities 
represented by USGS science programs, and thus the diverse expertise 
required to understand and anticipate the consequences of natural and 
human-driven change. In particular, USGS geographic, geologic, 
biologic, and hydrologic programs across the landscape enable the 
ecosystem-based management approach that is the centerpiece of this 
policy, linking natural and human processes across the landscape to 
their impacts on our coastal and marine regions. From the upper 
watersheds to the abyssal deep of the ocean, USGS is engaged in 
monitoring water quality and assessing water availability; forecasting 
coastal change; building a better understanding of ocean-based hazards 
from landslides, submarine volcanic eruptions, earthquakes, tsunamis, 
and extreme storms.
    The United States has approximately 95,000 miles of coastline, and 
DOI manages approximately 35,000 of those 95,000 miles. Our science 
programs in the USGS and BOEM support the Department's management 
responsibilities for these millions of acres in the marine, coastal, 
and Great Lakes environments through the Bureau of Land Management 
(BLM), the Fish and Wildlife Service (FWS), and the National Park 
Service (NPS).
    The NPS manages 84 ocean and Great Lakes parks with over 11,000 
miles of shoreline and 2.5 million acres of water within their 
boundaries. Collectively, these ocean and coastal parks attract nearly 
87 million visitors annually. This visitation contributes over $6.8 
billion and 40,000 jobs to respective local economies where these parks 
are located. Important experience and knowledge relevant to coastal and 
marine spatial planning (CMSP) has been gained from decades of place-
based management planning in Parks. The NPS applies the best available 
geospatial, socioeconomic, and scientific information, so managers and 
the public can make informed decisions to conserve parks unimpaired and 
ensure their enjoyment by current and future generations.
    Similarly, the Fish and Wildlife Service's National Wildlife Refuge 
System has 180 coastal National Wildlife Refuges with over 121 million 
acres of coastal and marine habitat. With over 12 million visitors last 
year, even in remote areas, refuges visitors generated over $900 
million in visitor spending and nearly 17,000 jobs for their local 
economies. FWS is responsible for managing all species of seabirds and 
shorebirds and many species of marine mammals; FWS shares management of 
several other marine trust species with NOAA.
    National Parks and National Wildlife Refuges must develop, 
respectively, General Management Plans and Comprehensive Conservation 
Plans--blueprints for conserving the tremendous biological and 
recreational values of these special places. These plans provide for 
ecosystem-based management, must go through an extensive public-
involvement process, and must address all uses of the park or refuge. 
This gives DOI considerable experience with ecosystem-based management, 
with planning to prevent or resolve conflicting uses, and in working 
with State governments and stakeholders to develop the plans--all key 
elements of the National Ocean Policy.
    The BLM works with a wide variety of partners to protect the 
California Coastal National Monument, a unique collection of the public 
lands consisting of a network of more than 20,000 small islands, rocks, 
exposed reefs, and pinnacles that provide a haven for animals and 
plants along the 1,100 miles of the California coast.
    Finally, the Office of Insular Affairs is working with the U.S.-
affiliated insular areas to protect coral reefs. Through the Micronesia 
Challenge, Palau, the Federated States of Micronesia, the Marshall 
Islands, Guam, and the Commonwealth of Northern Mariana Islands 
committed to protect at least 30 percent of near-shore marine resources 
and 20 percent of terrestrial resources across Micronesia by 2020.
    We appreciate this opportunity to provide information on the 
Department of the Interior's role in the National Ocean Policy and will 
be glad to respond to any questions the Committee may have.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
